<html>
<title> - HEARING TO REVIEW THE IMPLEMENTATION OF THE CONSERVATION TITLE OF THE 2008 FARM BILL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 HEARING TO REVIEW THE IMPLEMENTATION OF THE CONSERVATION TITLE OF THE 
                                  2008
                               FARM BILL

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CONSERVATION, CREDIT,
                          ENERGY, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 7, 2009

                               __________

                           Serial No. 111-31


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
53-366                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            FRANK D. LUCAS, Oklahoma, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        BOB GOODLATTE, Virginia
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 TIMOTHY V. JOHNSON, Illinois
DENNIS A. CARDOZA, California        SAM GRAVES, Missouri
DAVID SCOTT, Georgia                 MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                STEVE KING, Iowa
STEPHANIE HERSETH SANDLIN, South     RANDY NEUGEBAUER, Texas
Dakota                               K. MICHAEL CONAWAY, Texas
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
JIM COSTA, California                JEAN SCHMIDT, Ohio
BRAD ELLSWORTH, Indiana              ADRIAN SMITH, Nebraska
TIMOTHY J. WALZ, Minnesota           ROBERT E. LATTA, Ohio
STEVE KAGEN, Wisconsin               DAVID P. ROE, Tennessee
KURT SCHRADER, Oregon                BLAINE LUETKEMEYER, Missouri
DEBORAH L. HALVORSON, Illinois       GLENN THOMPSON, Pennsylvania
KATHLEEN A. DAHLKEMPER,              BILL CASSIDY, Louisiana
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
BETSY MARKEY, Colorado
FRANK KRATOVIL, Jr., Maryland
MARK H. SCHAUER, Michigan
LARRY KISSELL, North Carolina
JOHN A. BOCCIERI, Ohio
SCOTT MURPHY, New York
EARL POMEROY, North Dakota
TRAVIS W. CHILDERS, Mississippi
WALT MINNICK, Idaho

                                 ______

                           Professional Staff

Robert L. Larew, Chief of Staff      Nicole Scott, Minority Staff 
Andrew W. Baker, Chief Counsel       Director
April Slayton, Communications 
Director

                                  (ii)
?

       Subcommittee on Conservation, Credit, Energy, and Research

                   TIM HOLDEN, Pennsylvania, Chairman

STEPHANIE HERSETH SANDLIN, South     BOB GOODLATTE, Virginia, Ranking 
Dakota                               Minority Member
DEBORAH L. HALVORSON, Illinois       JERRY MORAN, Kansas
KATHLEEN A. DAHLKEMPER,              SAM GRAVES, Missouri
Pennsylvania                         MIKE ROGERS, Alabama
BETSY MARKEY, Colorado               STEVE KING, Iowa
MARK H. SCHAUER, Michigan            RANDY NEUGEBAUER, Texas
LARRY KISSELL, North Carolina        JEAN SCHMIDT, Ohio
JOHN A. BOCCIERI, Ohio               ADRIAN SMITH, Nebraska
MIKE McINTYRE, North Carolina        ROBERT E. LATTA, Ohio
JIM COSTA, California                BLAINE LUETKEMEYER, Missouri
BRAD ELLSWORTH, Indiana              GLENN THOMPSON, Pennsylvania
TIMOTHY J. WALZ, Minnesota           BILL CASSIDY, Louisiana
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
FRANK KRATOVIL, Jr., Maryland
SCOTT MURPHY, New York
WALT MINNICK, Idaho
EARL POMEROY, North Dakota

               Nona Darrell, Subcommittee Staff Director

                                 (iii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Goodlatte, Hon. Bob, a Representative in Congress from Virginia, 
  opening statement..............................................     2
Holden, Hon. Tim, a Representative in Congress from Pennsylvania, 
  opening statement..............................................     1
    Submitted letters............................................    61
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, prepared statement..................................     3

                               Witnesses

Coppess, J.D., Jonathan W., Administrator, Farm Service Agency, 
  U.S. Department of Agriculture, Washington, D.C................     3
    Prepared statement...........................................     5
    Submitted questions..........................................    65
White, Dave, Chief, Natural Resources Conservation Service, U.S. 
  Department of Agriculture, Washington, D.C.....................    12
    Prepared statement...........................................    13
    Submitted questions..........................................    72


 HEARING TO REVIEW THE IMPLEMENTATION OF THE CONSERVATION TITLE OF THE 
                                  2008



                               FARM BILL

                              ----------                              


                       WEDNESDAY, OCTOBER 7, 2009

                  House of Representatives,
 Subcommittee on Conservation, Credit, Energy, and 
                                          Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1300, Longworth House Office Building, Hon. Tim Holden 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Holden, Herseth Sandlin, 
Markey, Schauer, Kissell, Boccieri, Costa, Ellsworth, Bright, 
Murphy, Minnick, Pomeroy, Peterson (ex officio), Goodlatte, 
Moran, Graves, Schmidt, Latta, Luetkemeyer, Thompson, and 
Cassidy.
    Staff present: Christy Birdsong, Claiborn Crain, Nona 
Darrell, Adam Durand, John Konya, James Ryder, Anne Simmons, 
April Slayton, Rebekah Solem, Patricia Barr, Tamara Hinton, 
Josh Maxwell, Pelham Straughn, Jamie Mitchell, and Sangina 
Wright.

   OPENING STATEMENT OF HON. TIM HOLDEN, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    The Chairman. This hearing of the Subcommittee on 
Conservation, Credit, Energy, and Research to review the 
implementation of the Conservation Title of the 2008 Farm Bill 
will come to order.
    I would like to thank our witnesses and the audience for 
coming to today's hearing.
    This hearing presents an opportunity for Members of this 
Subcommittee to review how the 2008 Farm Bill conservation 
programs are being implemented. The farm bill made significant 
changes to USDA conservation programs, and it is important that 
we review the progress made so far to ensure that the rules and 
regulations are following Congressional intent.
    Conservation programs are important tools that farmers and 
ranchers use to protect the environment and address local 
resource concerns. Since 1985, we have sought to help producers 
economically and proactively address resource concerns and 
regulatory burdens. The steps we took in the 2008 Farm Bill 
continued this tradition and included an historic increase in 
funding for conservation programs.
    Farmers and ranchers have always been the original stewards 
of the land and continue to be the best advocates for resource 
conservation. We have made great improvements and continue to 
look for ways to help landowners participate in conservation 
programs.
    All our programs are important, but I would like to 
highlight two which are popular in my home State of 
Pennsylvania.
    Pennsylvania is a national leader in farmland protection, 
and it was critical that we improve the Farmland Protection 
Program. A priority was decreasing the obstacles for producers 
and making the program as user-friendly as possible. We were 
also successful in doubling the funding level in this program. 
We are committed to making sure that these changes are properly 
implemented, and we will continue to closely watch as the Farm 
and Ranch Lands Protection Program is rolled out.
    Another program area of interest in my home state is the 
Chesapeake Bay Program. We established this new program to help 
restoration efforts in the Bay. Agriculture and USDA stand 
ready to improve water quality and wildlife habitat in the 
Chesapeake Bay, and I look forward to your comments on that 
effort.
    All our conservation programs are important to producers 
across the country. Implementing the host of the 2008 Farm Bill 
conservation programs in a swift and equitable manner is 
critical, as farmers and ranchers across the country work to 
produce the safest, most reliable source of food, fiber, and 
energy, all while addressing different environmental 
challenges.
    I remain committed to working with NRCS and FSA to ensure 
that the conservation programs are implemented as efficiently 
as possible, while minimizing burdens on producers.
    I look forward to hearing from our witnesses today, and 
recognize the Ranking Member of the Subcommittee, Mr. 
Goodlatte.

 OPENING STATEMENT OF HON. BOB GOODLATTE, A REPRESENTATIVE IN 
                     CONGRESS FROM VIRGINIA

    Mr. Goodlatte. Well, thank you, Mr. Chairman. And thank you 
for holding today's hearing to review the implementation of the 
conservation programs in the 2008 Farm Bill.
    Our farmers and ranchers, through the assistance and 
incentives provided by these programs, have voluntarily worked 
to help reduce soil erosion, increase wetlands, improve water 
quality, and preserve farmland and wildlife habitat. The 
environmental gains they have been able to achieve are a 
testament to our producers, who are truly the most dedicated 
conservationists.
    Congress strengthened its commitment to conservation in the 
2008 Farm Bill. The farm bill improved upon existing programs 
by increasing funding to oversubscribed programs to address 
backlogs, and by retooling programs to make them more producer-
friendly as well as available on a national basis.
    The farm bill also created new conservation programs that 
are aimed at enhancing cooperation and flexibility among 
producers and conservation organizations in order to target 
conservation initiatives such as the Chesapeake Bay initiative, 
which is of great importance to the farmers and ranchers in 
Virginia.
    Virginia's forests are also of great importance to the 
state and the nation's economy. Forest products, nationally, 
are valued at over $22.5 billion annually. In the most recent 
farm bill, we made great progress in both the conservation and 
forestry titles to strengthen programs that helped forest 
owners supply the nation's wood fiber, clean water, wildlife, 
and other forest amenities.
    CSP, now known as the Conservation Stewardship Program, had 
implementation problems in the past, which resulted in limiting 
access to the program to producers in select watersheds. NRCS 
just completed the first sign-up under the new CSP, and I hope 
today's testimony will shed light on whether Congress was able 
to create a program that encourages additional conservation 
practices on a national basis.
    I thank Chairman Holden for holding this hearing. It is 
vitally important for this Committee to hold the Department 
accountable for the implementation of these critically 
important programs. While I think the Department has done an 
admirable job of getting the rules in place, I do have a number 
of concerns, especially in certain circumstances where the 
Department has ignored Congressional intent.
    I would like to thank Chief White from the National 
Resources Conservation Service and Mr. Jonathan Coppess, 
Administrator of the Farm Service Agency, for being here today 
to testify on the progress of implementing and managing the 
conservation programs in the 2008 Farm Bill. And I look forward 
to your testimony.
    The Chairman. The chair thanks the gentleman and would ask 
all other Members of the Subcommittee to submit their remarks 
for the record.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota

    Thank you, Chairman Holden and Ranking Member Goodlatte for holding 
this oversight hearing today. The 2008 Farm Bill added more than $4 
billion in new spending to USDA's conservation programs. Mandatory 
spending for conservation programs will be $55.2 billion over the next 
10 years. That is a lot of money to manage, and it is our 
responsibility to be sure that USDA is using that money effectively to 
protect, improve and expand our nation's natural resources.
    The 2008 Farm Bill included improvements to several conservation 
programs and created new initiatives that USDA must implement. I am 
particularly interested to hear about the progress being made to 
implement the reforms we made to conservation programs, including new 
payment limits for the conservation programs. I also hope our witnesses 
can tell us what progress is being made to incorporate the changes we 
made to the Conservation Reserve Program.
    Today, we have Dave White with the Natural Resources Conservation 
Service and Jonathan Coppess with the Farm Service Agency with us to 
answer questions and provide an update on where USDA stands with 
implementing the conservation title. Thank you both for being here 
today, and I look forward to your testimony.

    The Chairman. And we would now like to welcome our 
witnesses: Mr. Jonathan Coppess, administrator, Farm Service 
Agency, the United States Department of Agriculture; and Mr. 
Dave White, chief, Natural Resources Conservation Service, 
United States Department of Agriculture.
    Mr. Coppess, you may begin when you are ready. Thank you.

            STATEMENT OF JONATHAN W. COPPESS, J.D.,
            ADMINISTRATOR, FARM SERVICE AGENCY, U.S.
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Mr. Coppess. Thank you.
    Mr. Chairman, Mr. Ranking Member, and Members of the 
Subcommittee, I appreciate the opportunity to review 
conservation programs administered by the Farm Service Agency. 
Today I will update you on the implementation of our 
conservation programs based on the 2008 Farm Bill.
    In general, FSA delivers conservation, commodity, credit, 
energy and disaster programs. We estimate about $13.6 billion 
in net outlays for Fiscal Year 2009, including $2 billion for 
conservation programs. Most FSA programs are delivered through 
a network of 2,200 state and county offices.
    The 2008 Farm Bill reauthorized three conservation programs 
for FSA: the Conservation Reserve Program, the rental contracts 
under the Grassland Reserve Program, and the Grassroots Source 
Water Protection Program.
    CRP conserves and improves soil, water, and wildlife 
resources through 10 to 15 year contracts that provide annual 
rental payments and cost-share assistance to farmers and 
ranchers. Land enrolled in CRP reduces soil erosion and 
provides habitat for wildlife.
    The 2008 Farm Bill included several changes to CRP. The 
most significant of those changes was a 32 million acre cap on 
the aggregate U.S. acreage in the CRP that took effect on 
October 1st. In an effort to continue environmental benefits on 
the maximum CRP acres under this new 32 million acre cap, FSA 
offered extensions in May to 1.5 million acres of the 3.9 
million that were set to expire on September 30th. In recent 
years, USDA has focused on this approach of selectively 
offering extensions to maximize conservation benefits, allow 
greater program flexibility, and spread out the overall county 
office workload.
    We start Fiscal Year 2010 with 31 million acres in the CRP. 
Looking forward, contracts for about 15.4 million acres that 
are currently enrolled in CRP are scheduled to expire between 
Fiscal Years 2010 and 2012. However, utilizing a combination of 
general sign-ups and ongoing continuous sign-ups, we expect to 
maintain CRP enrollment at or near that 32 million acre cap.
    In August 2008, FSA, in consultation with the Office of the 
Chief Economist, the Office of General Counsel, and U.S. 
Department of Justice, made the decision to divide 
implementation of the CRP changes from the 2008 Farm Bill into 
two regulations: those that require an environmental impact 
statement and those requiring only an environmental assessment. 
The EIS process takes about 18 to 24 months, and the EA 
process, environmental assessment process, involving less 
scrutiny, takes between 9 and 12 months.
    On June 29, 2009, we issued the first rule, implementing 
the aforementioned changes that required only the environmental 
assessment. Enrollment for these new practices started in 
August of 2009. The second part of the CRP regulation, or the 
second regulation, implements those remaining provisions 
requiring an EIS. We are currently holding public meetings 
nationwide, and those will conclude October 9th. The EIS will 
then be completed in the summer of 2010. We will publish the 
rule for the rest of the CRP immediately thereafter, and thus 
implementing all changes from the 2008 Farm Bill.
    The Grassland Reserve Program is a voluntary conservation 
program that emphasizes support for grazing operations and 
protects grassland under threat of conversion to other uses. 
Under this program, farmers and ranchers have a choice between 
receiving a permanent easement or long-term rental contracts. 
GRP is split between FSA and NRCS, with FSA implementing the 
rental contracts portion and NRCS implementing the easements 
portion of that program. The GRP provisions of the 2008 Farm 
Bill have been fully implemented.
    Under the Grassroots Source Water Protection Program, FSA 
works with state rural water associations in 43 states to aid 
in the prevention of source water pollution. Source water--this 
program is authorized for up to $20 million in appropriations 
by the 2008 Farm Bill. In Fiscal Year 2009, source water was 
expanded from 38 to 43 states, and the program completed 112 
source water plans, with management activities implemented in 
the source water areas.
    The 2008 Farm Bill also authorized a new Voluntary Public 
Access and Habitat Incentive Program. This program will provide 
grants to states and tribes to encourage farmers and ranchers 
to make their private land available for access by the public. 
Full implementation of the Voluntary Public Access Program has 
been expedited, and we expect to implement the program in the 
next several months.
    We will also continue to seek ways in which FSA can work 
alongside NRCS and other USDA agencies, other Federal agencies, 
and state and local authorities in order to implement 
conservation programs and improve conservation in general.
    Finally, if I can provide a brief update on the CRP payment 
process that was not in the written testimony that we just got 
information on recently in the last day or two, this past 
weekend FSA's IT department processed about 827,000 CRP 
payments, totaling about $1.4 billion. Processing through our 
computer system is the first step in making the payments 
available by the field offices, which are also following up on 
a few additional ones that we have to get through the process.
    As of yesterday, field offices had signed and approved over 
600,000 of these payments, and the Department of Treasury has 
issued over 400,000 payments to producers, totaling over $660 
million. We should have this process completed by the end of 
the week and all payments out.
    So let me conclude by stating that implementation of the 
2008 Farm Bill is a priority of FSA and this Administration. We 
will continue to work hard every day to ensure program delivery 
is done right and completed as soon as possible.
    So I appreciate the opportunity to testify before this 
Subcommittee today, and I look forward to working with you, Mr. 
Chairman and Mr. Ranking Member, and all the Members of the 
Subcommittee as we continue our hard work to ensure that USDA 
is responsive to the needs of American agriculture.
    This concludes my oral statement. I will be glad to answer 
any questions that you might have. Thank you.
    [The prepared statement of Mr. Coppess follows:]

 Prepared Statement of Jonathan W. Coppess, J.D., Administrator, Farm 
    Service Agency, U.S. Department of Agriculture, Washington, D.C.

    Mr. Chairman, Mr. Ranking Member, and Members of the Subcommittee, 
I appreciate the opportunity to review conservation programs delivered 
by the Farm Service Agency (FSA). Today I will provide you with a 
status update on implementation of our conservation programs, focusing 
on the 2008 Farm Bill. I will also describe how we work with state and 
local governments and our sister agencies, discuss our accomplishments 
to date, and conclude by discussing the future of our programs.

FSA's Conservation Programs
    FSA delivers conservation, commodity, credit, energy, and emergency 
disaster programs. Program level funding varies depending upon market 
and weather conditions as well as new legislation. For Fiscal Years 
(FY) 2007 and 2008, net spending was $11.0 billion and $11.4 billion, 
respectively. We estimate the level to be $13.6 billion for FY 2009, 
including nearly $2.0 billion for conservation programs. Most FSA 
programs are delivered through a network of state and county offices 
that are located in over 2,200 rural counties.
    The 2008 Farm Bill re-authorized three FSA-administered 
conservation programs: the Conservation Reserve Program (CRP), the 
rental contracts under the Grassland Reserve Program (GRP), and the 
Grassroots Source Water Protection Program. CRP conserves and improves 
soil, water and wildlife resources through 10-15 year contracts that 
provide annual rental payments and cost-share assistance to farmers and 
ranchers. This program has been in effect since 1985, and as of October 
1, 2009, has 31 million acres under contract.
    GRP is a voluntary conservation program that emphasizes support for 
grazing operations and protects grassland under threat of conversion to 
other uses. Under this program, farmers and ranchers have a choice 
between receiving a permanent easement or long-term rental contracts. 
It is jointly implemented by FSA and the Natural Resources Conservation 
Service (NRCS), with FSA implementing the rental contracts portion and 
NRCS implementing the easement portion. As of June 30, 2009, a total of 
662,217 acres were enrolled in the rental portion of GRP.
    The Grassroots Source Water Protection Program is the smallest of 
these three programs, and uses on-site technical assistance 
capabilities of state rural water associations to prevent source water 
pollution. Collaborative teams create operating plans that identify 
priority areas where local pollution prevention efforts are most 
needed, and work to develop voluntary measures that producers can 
install. These voluntary measures range from producers storing 
herbicides and pesticides in more secure containers to relocating waste 
lagoons. Currently, 43 states participate in this program.
    FSA also is in the process of implementing the Voluntary Public 
Access and Habitat Incentive Program (Public Access Program), which was 
newly authorized in the 2008 Farm Bill. This program provides grants to 
states and Tribes to encourage farmers and ranchers to make private 
land available for access by the public to engage in wildlife-dependent 
recreation, including hunting and fishing. We are also implementing 
farm bill programs authorized under non-conservation titles, but with 
potential conservation value. Namely, these include the newly-
authorized Emergency Forest Restoration Program (EFRP) under the 
Forestry Title and the Conservation Loan Guarantee Program of the 
Credit Title, which I will briefly discuss later.
    In addition to these programs that appear in the 2008 Farm Bill, 
FSA administers the Emergency Conservation Program (ECP). ECP provides 
emergency funding and technical assistance for farmers and ranchers to 
rehabilitate farmland damaged by natural disasters and for carrying out 
emergency water conservation measures in periods of severe drought. 
Funding for ECP is appropriated by Congress. Locally-elected county 
committees are authorized to implement ECP for all disasters except 
drought, which is authorized at the national office of FSA.

Background on Recent Program Directions and Implementation of 
        Conservation Title Provisions in the 2008 Farm Bill
    The 2008 Farm Bill included several changes to CRP. The most 
significant of these changes was a 32 million acre cap on aggregate 
U.S. acreage in the CRP, which took effect last week, on October 1, 
2009. Other major changes include expanding Farmable Wetland Program 
(FWP) eligibility, exempting Conservation Reserve Enhancement Program 
(CREP) and continuous CRP acres from the county enrollment cap of 25 
percent of cropland if the county government concurs, and implementing 
the new transition incentives for beginning and socially disadvantaged 
farmers and ranchers programs. This new transition incentives program 
allows participants to initiate the organic certification process and 
to make conservation and land improvements before CRP contract 
expiration if the enrolled land is sold or transferred to a beginning 
or socially disadvantaged farmer or rancher.
    In an effort to continue environmental benefits on the maximum CRP 
acres under the new 32 million acre cap, FSA offered extensions in May 
2009 to 1.5 million acres of the 3.9 million set to expire on September 
30, 2009. These extensions were offered on those acres with the highest 
environmental benefit--those that fall within the top 30 percent of the 
environmental benefits index, or have an Erodibility Index of 15 or 
greater. As of September 29, participants holding contracts on 985,527 
acres have accepted this extension offer. We expect this number to 
increase as county offices update data. Slightly fewer than 3 million 
acres did not receive an extension offer, or the participants declined 
the offer they received, and those contracts expired on September 30, 
2009.
    In recent years, USDA has focused on this approach of selectively 
offering extensions (and, upon occasion, re-enrollments) to maximize 
conservation benefits and spread out the associated county office 
workload (see figures 1 and 2 for a historical perspective on 
continuous versus general sign-up contracts and enrollment). For 
example, faced with 16 million acres set to expire on September 30, 
2007, and an additional 12 million acres set to expire through 2010, 
USDA used re-enrollments and staggered contract extensions to spread 
the expirations out over a longer time period. This approach allows 
greater flexibility in determining the future of the program and 
spreads out the workload for our county offices and technical service 
providers (in particular, the Natural Resources Conservation Service). 
The last time that USDA had a general sign-up was in 2006.
    We start Fiscal Year 2010 with 31 million acres in the CRP--about 
2.6 million fewer acres than a year ago. With declining commodity 
prices for wheat, corn, soybeans and other crops since the highs of 
2007 and 2008, interest in CRP enrollment is again accelerating. 
Looking forward, contracts for about 15.3 million acres currently 
enrolled in CRP are scheduled to expire between Fiscal Years 2010 and 
2012. The President's budget for Fiscal Year 2010 assumes that general 
sign-ups will be conducted in Fiscal Years 2010-2012. The combination 
of general sign-ups and ongoing continuous sign-ups are expected to 
maintain CRP enrollment at, or near, 32 million acres through 2012.
    Various continuous sign-up opportunities exist under the CRP, 
including the State Acres for Wildlife Enhancement (SAFE) program, new 
conservation initiatives, and various Conservation Reserve Enhancement 
Program (CREP) projects. These practices generally target smaller 
parcels of some of the most environmentally fragile land. However, 
acres in these continuous sign-up practices, added together with 
general sign-up acres, must total to no more than 32 million acres at 
any point in time.
     I'd like to provide a bit more on how these continuous programs 
operate. SAFE includes 84 approved projects in 33 states that help 
restore habitat to benefit a wide range of priority wildlife species, 
many of which are of great conservation concern due to significant 
population declines. One of our most successful SAFE projects is the 
South Dakota Pheasants SAFE, which initially targeted enrollment of 
20,200 acres. Its goal is to provide habitat for non-game grassland 
birds, improve water quality, and reduce soil erosion, as well as 
increase the overall populations of ring-necked pheasants and other 
economically significant species, such as sharp-tailed grouse, prairie-
chicken, and upland nesting ducks. This SAFE project started in 2008, 
and reached its enrollment limit within a month; an additional 30,000 
acres were added to this SAFE project in 2009.
    CREP is a voluntary land retirement program that helps agricultural 
producers protect environmentally sensitive land, decrease erosion, 
restore wildlife habitat, and safeguard ground and surface water. A 
specific CREP project begins when a state, Indian tribe, local 
government, or local nongovernment entity identifies an agriculture-
related environmental issue of state or national significance. These 
parties and FSA then develop a project proposal to address particular 
environmental issues and goals. CREP contracts require a 10 to 15 year 
commitment to keep lands out of production, in return for an annual 
rental payment and cost-share assistance, and offer additional 
financial assistance. The Iowa CREP, which I will discuss in a few 
minutes, is one of our most far reaching and holds promise as a model 
for CREPs in other states.
    This background on the CRP provides the context for our 
implementation of the 2008 Farm Bill. In an effort to implement program 
changes as quickly as possible, FSA divided CRP-related changes into 
two regulations: those that required an Environmental Impact Statement 
(EIS), and those that required only an Environmental Assessment. EIS 
process generally takes approximately 18-24 months, while an EA can be 
done within 9-12 months after funding is available. Both the EIS and 
EA, to greater and lesser extents respectively, discuss the change and 
alternative courses of action; the environmental impacts of the 
proposed action and alternatives; and a listing of agencies and persons 
consulted.
    On June 29, 2009, we issued a rule implementing all changes 
associated with the second category, those that fell under the EA-
associated changes. These include changes to the Farmable Wetlands 
Program (FWP), which is a voluntary program under the CRP to restore up 
to 1 million acres of farmable wetlands and associated buffers by 
improving the land's hydrology and vegetation. Producers plant long-
term, resource-conserving covers to improve the quality of water, 
control soil erosion, and enhance wildlife habitat. In return, FSA 
provides FWP participants with rental payments, incentive payments, and 
cost-share assistance. Contract duration is between 10 and 15 years. 
The 2008 Farm Bill adds three new FWP practices to this existing 
program: eligibility for commercial pond-raised aquaculture, flooded 
prairie farmland, and constructed wetlands. Enrollment for these new 
practices started in August 2009. To date, we have enrolled 596 acres 
under the Aquaculture Wetland Restoration practice, and 75 acres under 
the Flooded Prairie Wetland practice.
    In addition to the FWP, the farm bill provided $50 million cost-
share assistance for tree thinning, which helps develop a stronger 
stand and provides wildlife and other natural resource benefits; 
refines income limits for program eligibility; and imposes the 32 
million acre cap. All of these changes are included in the June 29 
regulation.
    The ``part two'' CRP regulation will implement those provisions 
that require an EIS. These provisions include: updating crop history 
eligibility to include 4 of the last 6 years between 2002 and 2007; 
exempting certain Conservation Reserve Enhancement Program (CREP) and 
continuous CRP acres from the county enrollment cap of 25 percent of 
cropland; implementing the new transition incentives for beginning, and 
socially disadvantaged, farmers and ranchers programs; and routine 
grazing. We are currently holding public meetings nationwide as a first 
step toward completion of the EIS; they are scheduled to conclude on 
October 9, 2009. The EIS will be completed in the summer of 2010. We 
are planning to initiate these changes as soon as the EIS and 
regulation is completed.
    The Public Access Program will provide grants to state and Tribal 
governments to expand public access opportunities on private lands. As 
such, it will provide greater public access for outdoor recreation 
activities, including hunting. FSA has begun developing the regulations 
and plans to implement the program during 2010.
Work With State, Local, and Interagency Partners
    All of FSA's conservation programs have a strong state-local 
partnership aspect, as I alluded to earlier. For example, our CREP 
programs are all designed through interaction among state and Federal 
agencies and conservation partners. The Iowa CREP is a good 
illustration of a program, designed with various Iowa State and local 
partners, to address use of the CRP to reduce nutrient loading in the 
Mississippi River watershed and hypoxia issues associated with the Gulf 
of Mexico. We are actively working with other states--including 
Minnesota, Wisconsin, Illinois, Missouri, Arkansas, Kentucky, 
Louisiana, Indiana, Iowa, Mississippi, Ohio, and Tennessee--to expand 
the Iowa CREP concept, through the new constructed wetland practice 
under the FWP, to other watersheds. We have recently been interacting 
with NRCS about use of constructed wetland catchments to further our 
joint goals associated with improving the health of the nation's 
rivers.
    In developing the SAFE program for South Dakota that I described 
earlier, we worked with both the state government and various 
conservation groups to develop a successful program facilitating 
enrollment of land for pheasant hunting. We are entertaining proposals 
to address at-risk species, such as lesser prairie chicken habitat in 
Colorado, Oklahoma, New Mexico, Texas, and Kansas. We are working 
across states and interest groups to facilitate enrollment in the 
longleaf pine initiative, which establishes incentives for landowners 
to restore longleaf pine habitat under continuous sign-up. Our upland 
buffer practice (CP33) has been so successful that FSA is exploring 
options to expand this initiative.
    Virtually all of our programs involve coordination with our sister 
agencies, such as the NRCS, Forest Service, and Fish and Wildlife 
Service. NRCS not only helps producers develop conservation plans for 
producers desiring to enroll in the CRP, but works with us on many 
state and local issues. We are working with the Fish and Wildlife 
Service to address concerns about habitat for the lesser prairie 
chicken and other at-risk species. We are working with land grant 
universities and the U.S. Geologic Survey to monitor water quality and 
quantity, both in the Ogallala Aquifer and the Mississippi River Basin. 
We're working with the Forest Service on bottomland hardwood issues to 
ensure that producers are using good forestry techniques to establish 
systems that maximize carbon sequestration and wildlife habitat.

Implementation of Cross-Cutting Programs
    In addition to the cross-agency work we do on the conservation 
front, we find that our programs are increasingly cross-cutting in 
terms of their direction and underlying aims. Our most recent 
accomplishment in this area involves the Biomass Crop Assistance 
Program (BCAP). On May 5, 2009, the President issued a directive to 
aggressively accelerate the investment in and production of biofuels. 
In early June, FSA issued a Notice of Funds Availability for BCAP, 
meeting the 30 day deadline established by the President. BCAP 
accelerates investment in the production of biofuels, while promoting 
conservation principles. BCAP has two components. The first provides 
matching payments to eligible land owners and operators for eligible 
material that is sold to a qualified biomass conversion facility for 
the production of heat, power, bio-based products or advanced biofuels. 
The second component provides funding for producers of eligible crops 
of renewable biomass within specified project areas to receive 
establishment and annual payments.
    Interest in BCAP matching payments has been strong. Fifty 
facilities have been qualified as Biomass Conversion Facilities. These 
facilities range from a small rural school in Northwestern Montana that 
uses downed timber and wood residue to provide energy for boilers, to 
pelletizers that generate fuel for public utility companies. Twenty-
five million dollars in funding was made available for matching 
payments in FY 2009. The first matching payment was issued to a 
Missouri producer on August 31, 2009.
    FSA is also developing a regulation to implement the Emergency 
Forest Restoration Program (EFRP) under the Forestry Title of the 2008 
Farm Bill. We are working together with the Forest Service and NRCS on 
this program, which provides financial assistance to owners of non-
industrial private forest land (rural land with existing tree cover) 
for measures undertaken to address damage caused by a natural disaster.
    Another cross-cutting program is the Conservation Loan Guarantee 
Program of the Credit Title. This new program helps finance qualifying 
conservation projects. Based on the statute, all guarantees will be at 
75 percent of the loan amount. Applicants must have an acceptable 
conservation plan that includes the project(s) to be financed. 
Preference under this program is given to beginning farmer and socially 
disadvantaged applicants, conversion to sustainable or organic 
production practices, and compliance with highly erodible land 
conservation requirements. We anticipate publication of this regulation 
in the next several months.

Program Accomplishments
    USDA conservation programs have had a tremendous beneficial impact 
upon our nation's land and natural resources. According to the National 
Resources Inventory, between 1982 and 2003, soil erosion on U.S. 
cropland decreased 43 percent. Water (sheet & rill) erosion on cropland 
in 2003 was down from 1.67 billion tons to 971 million tons per year, 
and erosion due to wind was down from 1.39 billion tons to 776 million 
tons per year. About \1/3\ of the total reduction is attributable to 
CRP.
    As of September 2009, CRP participants have restored more than 2 
million acres of wetlands and 2 million acres of riparian buffers. Land 
enrolled in CRP intercepts or reduces the amount of pollutants leaving 
the field. Using models developed by the Food and Policy Research 
Institute (FAPRI), these annual reductions include 221 million tons of 
sediment, 615 million pounds of nitrogen, and 123 million pounds of 
phosphorus. CRP is the nation's largest carbon sequestration program on 
private lands. In 2008, CRP reduced greenhouse gas emissions by an 
estimated 56 million metric tons. These reductions do not account for 
potential leakage of agricultural production to non-enrolled lands.
    Grass, trees, and wetlands established by CRP benefit numerous 
wildlife species. Several independent studies have identified benefits 
to bird populations, including:

  <bullet> Prairie Pothole Ducks--Researchers from the U.S. Fish and 
        Wildlife Service estimate that the CRP contributed to a net 
        increase of about 2 million additional ducks per year (a 30 
        percent increase in duck production since 1992) in North 
        Dakota, South Dakota, and Northeastern Montana.

  <bullet> Ring-Neck Pheasants--Western Ecosystems Technology, Inc. in 
        a peer reviewed study found that, in prime pheasant habitat, a 
        four percent increase in CRP herbaceous vegetations was 
        associated with a 22 percent increase in pheasant counts.

  <bullet> Sage Grouse--The Washington Department of Natural Resources 
        found CRP enrollment was associated with halting a decline (25 
        percent between 1970 and 1988) in sage grouse populations.

    An increasingly important component of CRP is continuous sign-up, 
which includes SAFE, CREPs, and the FWP. As of August 2009, there were 
about 4.4 million acres enrolled in continuous sign-up. These lands 
have an important CRP contribution. Land in grass filters and riparian 
buffers (partial field enrollments) intercept sediment, nutrients and 
other contaminants before they enter waterways. Based on models from a 
peer reviewed study, FSA estimated 343 million pounds of nitrogen (56 
percent of total N reductions) and 70 million pounds of phosphorus (57 
percent of total P reductions) were intercepted by CRP buffers in 2008.
Conclusion
    Conservation programs have provided notable achievements in both 
conserving and protecting our natural resources. The Farm Service 
Agency will continue to work diligently toward the implementation of 
all 2008 Farm Bill provisions, including the Conservation Title 
provisions I have discussed with you today.
    I appreciate the opportunity to testify before this Subcommittee 
today, and I look forward to working with you, Mr. Chairman, Mr. 
Ranking Member, and all the Members of this Subcommittee as we continue 
our hard work to ensure that USDA is responsive to the needs of 
American agriculture. This concludes my statement. I will be glad to 
answer questions you may have.

                               Attachment
Figure 1: ``CRP Enrollment at End of Each Fiscal Year (Acres)''

[GRAPHIC] [TIFF OMITTED] T1131.001

Figure 2: ``CRP Contracts at End of Each Fiscal Year (Number)''

[GRAPHIC] [TIFF OMITTED] T1131.002


    The Chairman. Thank you, Mr. Coppess.
    Chief White?

STATEMENT OF DAVE WHITE, CHIEF, NATURAL RESOURCES CONSERVATION 
                  SERVICE, U.S. DEPARTMENT OF
                 AGRICULTURE, WASHINGTON, D.C.

    Mr. White. Good morning, Mr. Chairman, Mr. Ranking Member, 
Members of the Subcommittee.
    When I woke up this morning, the first thing that went 
through my head was the 23rd Psalm, ``Yea, though I walk 
through the valley of . . .'' I think to myself, ``God, I hope 
it is not a premonition.'' But it is a pleasure to be here with 
you today and visit with you about what we have done with the 
2008 Farm Bill.
    The conservation title has kept us busy. I am happy to 
report that we have successfully implemented the new programs. 
Mr. Goodlatte mentioned the Conservation Stewardship Program. 
We have made the required changes to the existing programs. And 
we have also done some stuff internally that I am going to 
share with you that I think is going to really help the quality 
of our delivery, and some internal processes that are going to 
increase our efficiencies.
    With respect to the rules and regs, they are all out. I did 
make several amendments to rules that were published--interim 
final rules that were published just prior to the end of the 
previous Administration. And it directly relates to Mr. 
Goodlatte's concern about Congressional intent. Specifically, 
the Farm and Ranch Lands Protection Program and Grassland 
Reserve Program, we pulled that back, particularly over the 
contingent right of enforcement.
    This Committee, the Senate, the conference committee, spent 
a lot of time trying to figure out what to do with this 
contingent right of enforcement. And I am happy to say that we 
have it changed where the acquisition, when we entered into 
easements, through the Farm and Ranch Lands Protection Program, 
it does not constitute the Federal acquisition of a Federal 
property right, which directly relates to the Congressional 
intent of this Subcommittee.
    We made some changes in the Wetland Reserve Program: 
eliminated some of the provisions that I thought were 
overreaching into private properly rights, and restoring the 
relationship we used to have with clients.
    Moving from the rules--there are other rule amendment 
examples, too, like EQIP and WHIP, and I can visit with you on 
those.
    Moving to implementation, let's talk a little bit about the 
Conservation Stewardship Program. Mr. Goodlatte is dead-on. We 
did have implementation problems with that. We had an IG 
report. I think I visited with this Subcommittee previously on 
that.
    The new program, the answer to your question, Mr. 
Goodlatte, is, yes, Congress did make a lot of changes in that, 
and they have resulted in a program that is much more 
efficient. It is better. It is going to be simpler to 
administer, and it is going to be fairer to our producers.
    We had the first sign-up; it went from August 10th through 
September 30th. Started out slow; the end of it, it just 
exploded with interest. We have 21,000+ applications, and 
estimating right now that that would cover about 33 million 
acres, and that is absolutely huge. We can enroll up to 12.8 
million acres.
    To tell you the truth, in 2009 we thought the demand would 
go down for conservation programs because of the overall 
economic climate, and it didn't. Most programs saw an increase 
in applications.
    Last year wasn't without its challenges, though. There was 
a delay in getting the online adjusted gross income database, 
which is what we use to make sure we don't pay somebody who 
doesn't meet the AGI requirements. That is resolved now. We did 
some work-arounds in the summer. We now have the database. Our 
people are plugging it in. Everything should be fine. And it 
won't be an issue, certainly after November.
    I want to talk to you a little bit about some of the 
internal stuff. And there is one thing that I think is going to 
knock your socks off. We have a Conservation Streamlining 
Initiative. And, Members of this Subcommittee, when we get done 
with this darn thing, we think that we can eliminate 80 percent 
of the clerical and administrative tasks that our staff 
currently perform for these farm bill programs. And we think 
that we can enable our field staff to spend 75 percent of their 
time in the field with farmers and ranchers instead of sitting 
behind a computer entering soil data or stuff like that. This 
is huge. It would just help us so much and mean so much more to 
the field to be able to get out there. Think about 80 percent--
and I think we can pull it off, and I am committed to pulling 
it off.
    We also talked about critical resource concerns, about 
taking some of these programs--you have given us the tools, you 
have given us the resources to go after some of these bigger 
issues. And, frankly, we are using the Chesapeake Bay as a 
model, on how you guys designed that. And we have just 
announced one last week or 2 weeks ago, whatever it was, on the 
Mississippi Basin. We are thinking about doing stuff in the 
Ogallala. We are thinking about doing stuff out West for the 
sage grouse.
    I think it is time that Agriculture start setting the 
conservation agenda. We have the tools, we have the money, we 
have the will for us to set the agenda, rather than let other 
folks set it and we would be reacting to it.
    That concludes my oral statement. I am happy to be here. I 
would be pleased to answer any questions, Mr. Chairman. Thank 
you.
    [The prepared statement of Mr. White follows:]

Prepared Statement of Dave White, Chief, Natural Resources Conservation 
       Service, U.S. Department of Agriculture, Washington, D.C.

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to share our experiences in 
implementing the Conservation Title of the Food, Conservation, and 
Energy Act of 2008 (Farm Bill). Many observers describe the 2008 Farm 
Bill as an evolutionary farm bill, incorporating important 
modifications and improvements over the previous farm bill but not 
containing revolutionary changes or new approaches. In the Conservation 
Title, we had plenty of new things to keep us busy over the past year. 
The 2008 Farm Bill provided $4.2 billion in new funding for 
conservation programs over the life of the farm bill. Over \2/3\ of 
NRCS's annual budget is now mandatory funding, authorized in the farm 
bill. The bill authorized new programs such as the Conservation 
Stewardship Program, the Agricultural Water Enhancement Program, and 
the Chesapeake Bay Watershed Program. It introduced air quality and 
organic agriculture components to the Environmental Quality Incentives 
Program, and made significant operational changes to the Wetlands 
Reserve Program, the Farm and Ranch Lands Protection Program, and the 
Cooperative Conservation Partnership Initiative. It also brought the 
Agricultural Management Assistance Program under the payment 
eligibility auspices of the farm bill.
    As we reflect back on the fiscal year that just ended last week, I 
am happy to report that NRCS has successfully launched the new programs 
and implemented the changes to existing programs in the 2008 Farm Bill. 
We faced obstacles along the way, particularly with changes to the 
adjusted gross income payment limitation that led to deleterious delays 
in obligating funding.
    Nevertheless, as of September 30, 2009, we obligated 96.3% of the 
mandatory farm bill funding available for our programs in Fiscal Year 
2009. We are also working on finalizing regulations for all farm bill 
programs. And we launched some initiatives that will improve the 
agency's capacity going forward, including a renewed focus on the field 
and an administrative streamlining effort. We also are completing a 
workforce planning effort to ensure that we have the right people in 
the right places to optimally serve our customers. We are also 
initiating new watershed-based conservation efforts in the Chesapeake 
Bay and Mississippi River basins.
    I will go into more detail about our progress in publishing 
regulations for our farm bill programs. Then I will update where we 
stand on actual implementation of the programs, before closing with 
some more about the challenges and opportunities I just mentioned.

Farm Bill Implementation--Regulatory Actions
    Just prior to the end of the Bush Administration, NRCS published a 
number of regulatory documents, updating program rules based on changes 
in the 2008 Farm Bill. These interim final rules enabled NRCS to 
implement the programs authorized by the 2008 Farm Bill in Fiscal Year 
2009. Appendix One is a list of all farm bill regulatory documents 
published prior to January 20, 2009.
    With the change in Administrations, NRCS re-evaluated the published 
regulations to assess whether the policies were consistent with the 
Obama Administration's approach to voluntary conservation program 
delivery. Although NRCS determined it was not necessary to withdraw any 
of the regulations, we did decide it was necessary to issue critical 
amendments to several of the interim final rules for financial 
assistance programs and conservation easement administration.
    Our changes restored the appropriate relationship that NRCS has 
with its partnering entities and with participating landowners and 
operators. Since the changes addressed the programs' fundamental 
relationship structure, we determined that these amendments could not 
wait until we had comprehensively reviewed and responded to public 
comment in the development of the final rules. The following is a 
description of the critical amendments:

  <bullet> Amendments to both the Farm and Ranch Lands Protection 
        Program (FRPP) and the Grasslands Reserve Program (GRP) interim 
        final rules clarified that the contingent right of enforcement, 
        a new right created by changes in the farm bill, did not 
        trigger Federal real property acquisition requirements. In the 
        original interim final rules for these programs, NRCS held that 
        the contingent right of enforcement triggered Federal real 
        property acquisition requirements, such as the Department of 
        Justice title standards. This interpretation appeared counter 
        to the financial assistance relationship intended by Congress 
        when NRCS contributes funds towards the purchase of an easement 
        to be held by a non-Federal entity.

  <bullet> A June 2009 amendment to the Wetlands Reserve Program (WRP) 
        interim final rule re-established the operational relationship 
        between NRCS and its clients. The January interim final rule 
        introduced several overly burdensome responsibilities upon 
        landowners and hindered the agency's ability to complete 
        restoration activities on all its easement lands. In 
        particular, the rule placed responsibility for full wetlands 
        restoration on the landowner and considered a landowner in 
        violation if the property was transferred to a new landowner 
        prior to completion of the restoration activities. These new 
        provisions were not necessitated by the 2008 Farm Bill and 
        created a tone counter to the assistance nature of the program. 
        The June amendment to the interim final rule reaffirmed NRCS's 
        commitment to ensuring that all lands enrolled in WRP are 
        restored and protected for the duration of the easement period.

  <bullet> Amendments that adjusted the land eligibility criteria for 
        both the Environmental Quality Incentives Program (EQIP) and 
        the Wildlife Habitat Incentive Program (WHIP) were issued after 
        we determined that the interim final rules unnecessarily 
        restricted landowners and operators from obtaining assistance 
        on their entire operation. These restrictions were preferences 
        of the previous Administration and not required by the 2008 
        Farm Bill. The EQIP amendment published in May 2009 re-
        established policy to enable producers who lease public lands 
        to use EQIP funds on their whole operation. The WHIP amendment 
        published in July 2009 expanded the definition of agricultural 
        lands to enable participants to obtain WHIP funding on 
        agricultural production lands and on those lands capable of 
        being used for production. The WHIP interim final rule had 
        limited the use of funds just to lands in agricultural 
        production.

    Appendix Two is a complete list and description of regulatory 
documents published since January 20, 2009. With the publication of 
each of these amendments, NRCS requested new public comment on the 
interim final rules. We have been collecting and analyzing the comments 
not just for the amended rules but for all of the interim final rules 
published for our farm bill programs. Appendix Three is a schedule for 
completion of the final rules for all of the programs.
2008 Farm Bill Conservation Program Implementation
    NRCS offers programs that provide financial and technical 
assistance to eligible producers for implementation of approved 
conservation practices and enhancements on private agricultural lands, 
non-industrial forestlands, and tribal lands. Financial assistance 
programs include: the Environmental Quality Incentives Program, the 
Wildlife Habitat Incentive Program, the Agricultural Management 
Assistance (AMA) Program, the Conservation Security Program (CSP), and 
the Conservation Stewardship Program. Efforts authorized as part of 
EQIP include: Conservation Innovation Grants (CIG), the Cooperative 
Conservation Partnership Initiative (CCPI), the Agricultural Water 
Enhancement Program (AWEP), the Organic Program Initiative, and the Air 
Quality Initiative.
    Beyond financial assistance programs, the 2008 Farm Bill maintained 
easement programs as a key component of NRCS's portfolio of 
conservation programs. NRCS's easement programs are: the Farm and Ranch 
Lands Protection Program (FRPP), the Grassland Reserve Program (GRP), 
the Wetland Reserve Program (WRP), the Wetland Reserve Enhancement 
Program (WREP) and the Healthy Forests Reserve Program (HFRP).
    A number of the financial assistance programs and initiatives 
listed above were new in the 2008 Farm Bill, including the Conservation 
Stewardship Program, CCPI, AWEP, the Chesapeake Bay Watershed Program, 
HFRP, the Organic Program Initiative, and the Air Quality Initiative. 
These new efforts drew impressive producer interest and application 
numbers. We also used EQIP and AWEP authority to offer another new 
initiative--funding for the construction of ring dikes in Minnesota and 
North Dakota. Ring dikes constructed around farm operations greatly 
improve water quality by avoiding the runoff of agricultural waste and 
chemicals into watersheds in flood prone areas.
    The 2008 Farm Bill authorized the new Conservation Stewardship 
Program, an update on the old Conservation Security Program. The 2008 
Farm Bill made a number of improvements to the old program that will 
expand the program's availability, enhance its environmental 
effectiveness, and improve financial accountability and field 
verification of producer accomplishments. NRCS initiated the first 
nationwide continuous sign-up for the new CSP on August 10, 2009, with 
a September 30, 2009 cutoff date. During this initial ranking period, 
NRCS received 21,281 applications covering an estimated 33 million 
acres. The acreage is just an estimate at this time, we will have firm 
numbers on November 1, 2009. We are currently processing and reviewing 
and ranking applications in preparation for awarding contracts.
    Following is a summary of Fiscal Year 2009 implementation of NRCS 
financial assistance programs:
Program FY 2009 Implementation Highlights as of October 1, 2009

                     Summary of Financial Assistance Programs FY 2009 Program Implementation
----------------------------------------------------------------------------------------------------------------
                           Number of       Number of      Obligation     Allocation      Percent
       Program           Applications      Contracts        Amount         Amount       Obligated       Acres
----------------------------------------------------------------------------------------------------------------
         EQIP (all)            106,384         31,965   $731,099,112   $740,784,201           98%    10,003,583
                CIG                390             55    $18,400,000    $20,000,000           92%           N/A
           Organics              1,745          1,203    $30,122,668    $50,000,000           60%           N/A
        Air Quality              1,638            888    $24,667,849    $24,184,385           98%           N/A
  Ring Dikes (EQIP)                254            113     $5,291,682     $5,674,602           93%           N/A
  Ring Dikes (AWEP)                 23             20       $955,429     $1,382,400           69%           N/A
               AWEP              3,807          1,704    $60,385,178    $61,229,000           99%       488,380
          Ches. Bay              2,037            826    $18,592,739    $18,800,000           99%       110,327
               WHIP              7,353          3,706    $52,018,780    $54,564,896           95%       812,496
                AMA                566            214     $6,179,956     $6,108,019           99%        13,874
     CSP (Security)                N/A         20,683   $246,140,247   $250,249,035           98%    17,413,831
  CSP (Stewardship)             21,281            TBD            TBD            TBD           TBD           TBD
                WRP              1,146            840   $404,611,000   $449,491,000            90       150,000
               FRPP               1062            354   $112,915,000   $113,439,000          99.5        78,888
               HFRP                 94              8     $1,256,457      8,055,000            16           810
       GRP Easement                444             72    $24,703,705    $24,724,200            99        56,689
               only
----------------------------------------------------------------------------------------------------------------
Sources--EQIP through CSP: ProTracts, as of October 1, 2009.
  WRP through GRP: USDA's Foundation Financial Information System, as of Oct. 1, 2009.

    The 2008 Farm Bill made a major operational modification to FRPP, 
changing it from a land acquisition program to a cost-share program. 
While we were able to deliver the program in its new form successfully 
and obligate the full FRPP allocation, we continue to review its 
administration and look for ways to improve our delivery of FRPP.
    The 2008 Farm Bill increased the maximum enrollment in WRP to 
3,041,200 acres. To date, NRCS has enrolled approximately 2,175,000 
acres in the program, nearly 150,000 acres of which were enrolled 
during FY 2009. To meet the total enrollment, NRCS will need to 
accelerate its efforts and enroll about 300,000 acres each year through 
Fiscal Year 2012. In recognition of the challenge and opportunity that 
this presents, we have convened a group of State Conservationists, 
Assistant State Conservationists, and contracting personnel to improve 
and expand our enrollment and restoration capacity. This group is 
charged with developing an implementation plan to reach the maximum 
enrollment authorized in the 2008 Farm Bill.
    Two other significant changes to WRP were included in the 2008 Farm 
Bill. It authorized a 30 year contract option for acreage owned by 
Indian tribes, which provides for broader program participation by 
Tribes. The 2008 Farm Bill also introduced the Reserved Rights Grazing 
Pilot under WREP.
    For GRP, the total acreage enrolled under the 2002 Farm Bill was 
725,352 acres. The 2008 Farm Bill changed GRP to an acreage-based 
program and authorized enrollment of an additional 1,220,000 acres 
through 2012, bringing the total acreage goal to 1,945,352. For Fiscal 
Year 2009, NRCS obligated 99 percent of the total program allocation of 
$48 million. Approximately 72 participants enrolled 56,689 acres in GRP 
easements. An estimated 100,000 acres were enrolled as rental 
contracts. The remaining 1,063,311 acres will be enrolled through 
Fiscal Year 2012.
    Going into Fiscal Year 2009, we harbored concerns that demand for 
our conservation program assistance may decline, given a national 
economy in recession and new program rules for farmers and ranchers to 
become accustom to. I can report, however, that we have not seen any 
measurable decrease in demand. In fact, for nearly all programs, there 
was an increase in applications compared to Fiscal Year 2008. We 
believe this is an indicator of the continued success and popularity of 
a voluntary approach to private lands conservation.
    Program-by-program information on 2008 Farm Bill implementation is 
included in Appendix Four.

Assistance to Beginning and Socially Disadvantaged Farmers and Ranchers
    I am pleased to report that of the Fiscal Year 2009 funds made 
available for EQIP, we met or exceeded the five percent targets 
established in the farm bill for both beginning and socially 
disadvantaged farmers and ranchers. And although the final sign-up 
results are not yet known, I am confident that we will achieve the 
national five percent targets established in 2009 CSP acres and 
associated funds for beginning and socially disadvantaged farmers or 
ranchers, as well.
    Both programs utilized separate application pools and increased 
outreach efforts, including advertisements through newspapers, 
magazines, local publications, radio, personal contacts, meetings, 
newsletters, churches, organizations, and community advocacy groups. 
National information products were developed to assist in distributing 
information at the state and field levels.
    NRCS will continue to build upon the successes we have achieved and 
seek additional ways to improve access and equity to programs for 
historically underserved farmers and ranchers. In 2009, we established 
additional set-asides in other programs besides EQIP and CSP. As of 
September 24, 2009, with more than 97 percent of the program sign-up 
completed, we know:

  <bullet> For socially disadvantaged farmers and ranchers, the 
        following percentages of funds were obligated: EQIP--6%; AMA--
        13%; AWEP--5%; and WHIP--8%.

  <bullet> For beginning farmers and ranchers, the following 
        percentages of funds were obligated: EQIP--15%; AMA--19%; 
        AWEP--9%; and WHIP--11%.
Farm Bill Implementation Challenges
    Implementation of the 2008 Farm Bill in Fiscal Year 2009, while 
ultimately broadly successful, was not without its challenges. Chief 
among these was the delayed completion of the adjusted gross income 
(AGI) limitation web service that significantly hampered our ability to 
make conservation program payments to producers. In addition, we 
received the results of an USDA Office of Inspector General (OIG) audit 
of the old Conservation Security Program. OIG's findings, and our 
corrective actions to address the findings, led to additional workload 
on our state and field office personnel.

Adjusted Gross Income Limitation Tool
    The 2008 Farm Bill provided new requirements for adjusted gross 
income (AGI) that required changes to the existing AGI web service that 
is used to determine of program participant eligibility and related 
commensurate payment reduction, as determined by membership 
attribution. Given the complexity of the changes needed to be made to 
the AGI web service, the Department was unable to launch the updated 
service in Fiscal Year 2009. The unavailability of the web service 
created a challenging situation for NRCS as we scrambled to develop 
interim solutions.
    Upon realizing that the AGI web service would be unavailable for 
payments to be made in Fiscal Year 2009, we worked to create temporary 
protocols to help us electronically determine the conservation AGI 
eligibility for AMA, FRPP, EQIP, WHIP, and WRP. This allowed us to 
begin making the majority of payments on prior year contracts in June 
2009.
    Fiscal year 2009 EQIP contracts presented additional complications 
because of the differences between the program payment limitations 
under the 2002 and 2008 Farm Bills. We developed another temporary 
workaround that allowed us to begin making payments on new EQIP 
contracts in late August. Since then, we have been able to make 
payments to producers on both old and new contracts for all of our 
financial assistance programs. NRCS has nearly synchronized the 
recently completed AGI web service into its systems. It will be 
available soon for the processing of Fiscal Year 2010 payments.

Conservation Security Program OIG Audit
    In Fiscal Year 2006, OIG conducted an audit concerning NRCS 
administration of the Conservation Security Program. The audit assessed 
whether NRCS properly determined participant and land eligibility; 
effectively handled the sign-up, application, evaluation, and approval 
processes; accurately calculated program payments; and successfully 
prevented producers from receiving payments from multiple Conservation 
Security Program contracts.
    At the conclusion of the audit, OIG made the following 
recommendations to NRCS:

  <bullet> Improve program design and controls in future sign-ups.

  <bullet> Review all current Conservation Security Program contracts 
        to validate program eligibility and payment accuracy and take 
        appropriate action in accordance with NRCS policy.

  <bullet> Review the agricultural operation delineation determinations 
        on all current Conservation Security Program contracts and take 
        appropriate action in accordance with NRCS policy.

  <bullet> Obtain from ProTracts a list of participants that are 
        receiving payments on multiple contracts and take corrective 
        action in accordance with NRCS policy.

    NRCS has taken the following aggressive actions in order to address 
the OIG recommendations:

  <bullet> Implemented improvements in program design and controls in 
        the Conservation Security Program 2008 sign-up that are also 
        being used in the new Conservation Stewardship Program.

  <bullet> Set a deadline of September 30, 2009 for a complete review 
        of all active Conservation Security Program contracts. 
        Qualified NRCS personnel from outside the contract location 
        reviewed all contracts. Corrective action on any improper 
        contracts will be completed by December 31, 2009. No Fiscal 
        Year 2010 payments will be made on improperly developed 
        contracts until corrective actions have been completed.

  <bullet> Developed a nationally consistent audit tool to determine 
        deficiencies in contracts and needed corrective actions.

    We are confident that these actions and the improved business tools 
incorporated into the new Conservation Stewardship Program will 
eliminate the types of errors identified in the OIG audit of the 
Conservation Security Program.

Looking Ahead
    With the 2009 Fiscal Year having drawn to a close, NRCS has turned 
its attention to 2010. Implementation of the 2008 Farm Bill will 
continue unabated. We will publish final rules for all of our 
conservation programs. We will award the first Conservation Stewardship 
Program contracts. We will also be evaluating the first year of 
implementation for new programs and initiatives and making adjustments.
    Along with all of these important activities, I'd like to discuss 
some innovative efforts that we have embarked upon to renew our 
commitment to improving the delivery of our programs and the quality of 
our environmental outcomes.

Conservation Delivery Streamlining
    In early 2009, NRCS began an agency-wide effort to create and 
implement a more effective, efficient, and sustainable business model 
for delivery of science-based conservation assistance. Called the 
National Conservation Delivery Streamlining Initiative (NCDSI), the 
effort focuses on increasing the time NRCS employees spend in the field 
working with farmers and ranchers.
    The NCDSI has two key objectives: (1) reduce administrative and 
clerical workload on field staff by 80 percent; and (2) enable field 
staff to spend 75 percent of their time in the field.
    To achieve these objectives, we are redesigning our tools, 
processes, and staffing structure to strengthen our technical expertise 
and to make smarter use of information technology. We will employ the 
following major strategies to ensure conservation assistance processes 
are fully integrated agency-wide:

  <bullet> We will clearly define and streamline the processes we use 
        to provide conservation assistance to producers.

  <bullet> We will make sure the technology we provide to our field 
        staff better supports the work they do.

  <bullet> We will provide our planners and technical staff with the 
        science, data, and technology they need for conservation 
        planning and application.

  <bullet> We will use alternative approaches to staffing and financial 
        assistance program delivery that are more efficient and enhance 
        customer service.

    We will begin implementing the NCDSI in 2010 with an expected 
completion date of 2015.

Landscape Conservation
    NRCS understands that in some cases, ``random acts of 
conservation'' have not sufficed to address critical resource concerns 
at a landscape scale. We are committed to working in a targeted fashion 
across landscapes, watersheds and ecosystems to get address 
environmental concerns that have been identified as national 
priorities. In addition to existing efforts such as the Chesapeake Bay 
Watershed Program, the Colorado Salinity Program, and the California 
Air Shed effort in the San Joaquin Valley, following are two examples 
of new landscape-scale initiatives for Fiscal Year 2010:
Mississippi River Basin Healthy Watersheds Initiative (MRBI)
    On September 24, Secretary Vilsack announced the MRBI, a new 
targeted effort to address resource concerns, including water quality 
and wildlife habitat, in the Mississippi River Basin. MRBI will help 
agricultural producers implement conservation and management practices 
that avoid, control, and trap nutrient runoff. The initiative is 
performance oriented, which means that measurable conservation results 
are required in order to participate. By focusing on priority 
watersheds in these 12 states in the basin, USDA, its partner 
organizations, state and local agencies, and agricultural producers 
will coordinate their resources in areas requiring the most immediate 
attention and offer the best return on the funds invested.
    In addition to other Federal, state, and partner funding, NRCS is 
targeting $80 million annually over the next 4 years through CCPI, CIG, 
and WREP. These funds are in addition to other NRCS program funding and 
assistance such as Environmental Quality Incentives Program, Wildlife 
Habitat Incentives Program, and the Conservation Stewardship Program. 
The MRBI will be available in Arkansas, Kentucky, Illinois, Indiana, 
Iowa, Louisiana, Minnesota, Mississippi, Missouri, Ohio, Tennessee, and 
Wisconsin.
    MRBI will focus on eight-digit or smaller hydrologic units 
(watersheds) that contribute high loads of nutrients in the Mississippi 
River Basin. Priority watersheds for the initiative will be identified 
by NRCS in consultation with conservation partner organizations and 
State Technical Committees. Watersheds will be selected using an 
evaluation process that will include information from the Conservation 
Effects Assessment Project, the USGS Spatially Referenced Regression on 
Watersheds Attributes, state-level nutrient reduction strategies and 
priorities, and available monitoring and modeling of nitrogen and 
phosphorus levels in the Basin. Using this watershed evaluation process 
will ensure water quality and nutrient issues are improving as part of 
MRBI.

Great Lakes Restoration Initiative
    To accelerate the restoration of the Great Lakes, the President's 
FISCAL YEAR 2010 budget includes a new $475 million interagency Great 
Lakes Restoration Initiative (GLRI) to address issues that affect the 
Great Lakes, such as invasive species, non-point source pollution, and 
toxics and contaminated sediment. The GLRI, administered by the 
Environmental Protection Agency, builds upon 5 years of work of the 
Great Lakes Interagency Task Force and stakeholders, guided by the 
Great Lakes Regional Collaboration Strategy. If funded at $475 million, 
NRCS' provisional allocation of $33.6 million will help address non-
point source pollution, invasive species, and habitat resource 
concerns. The Interagency Task Force is currently working on a 
comprehensive Great Lakes Multi-year Restoration Action Plan advances 
the GLRI by strategically identifying yearly goals, objectives and 
targets for programs and projects to focus on the most significant 
environmental problems in the Great Lakes ecosystem.

Conclusion
    Thank you for the opportunity to describe our successes and 
challenges in implementing the Conservation Title of the Farm Bill. We 
look forward to building upon the successes and meeting the challenges 
to improve the technical and financial assistance that we provide to 
the nation's farmers and ranchers in 2010. I am happy to respond to any 
questions at this time.

                              Appendix One

2008 Farm Bill Implementation
Regulatory and Other Documents Published Before January 20, 2009
    Agricultural Management Assistance (AMA) Program Interim Final 
Rule: published in the Federal Register on November 20, 2008.
    Chesapeake Bay Watershed Notice of Availability of Funds: published 
in the Federal Register on January 22, 2009--implemented through EQIP
    Conservation Innovative Grants (CIG) Notice of Availability of 
Funding: published in Grants.gov January 16, 2009
    Environmental Quality Incentives Program (EQIP) Interim Final Rule: 
published in the Federal Register on January 15, 1009
    Farm and Ranch Lands Protection Program (FRPP) Interim Final Rule: 
published in the Federal Register on January 16, 1009
    Healthy Forests Reserve Program (HFRP) Proposed Rule: published in 
the Federal Register on January 14, 2009
    Regional Equity (RE) Interim Final Rule: published in the Federal 
Register on January 13, 2009
    State Technical Committee (STC) Interim Final Rule: published in 
the Federal Register on November 25, 2008
    Technical Service Provider Assistance (TSP) Interim Final Rule: 
published in the Federal Register on January 16, 2009
    Wetlands Reserve Program (WRP) Interim Final Rule: published in the 
Federal Register on January 15, 2009
    Wildlife Habitat Incentive Program (WHIP) Interim Final Rule: 
published in the Federal Register on January 16, 2009
                              Appendix Two
2008 Farm Bill Implementation
Regulatory Documents Published After January 20, 2009
    Agricultural Management Assistance Program; Correction--Corrects 
the application of payment limitation provisions as they apply to joint 
operations. This document did not reopen the public comment period.

        Status: Published March 12, 2009

        Public comment period closed January 20, 2009

    Agricultural Water Enhancement Program Notice of Request for 
Proposals; reopening and extension of proposal submission deadline--
original deadline March 2; new deadline April 1.

        Status: Published March 26, 2009

    Conservation Practice Technical Assistance Notice with Request for 
Comment--The 2008 Act, requires that NRCS: (1) review conservation 
practice standards, including engineering design specifications, in 
effect on June 18, 2008; ensure the completeness and relevance of the 
standards to local agricultural, forestry, and natural resource needs; 
and ensure that the standards provide for the optimal balance between 
meeting site-specific conservation needs and minimizing risks of design 
failure and associated costs of construction and installation. NRCS 
conducted an internal review of the conservation practice standards and 
met with various stakeholder groups to obtain their input about how to 
improve the completeness and relevance of the standards. This notice 
provides the results of the preliminary review to the public and 
requests comments about how to improve the conservation practice 
standards.

        Status: Published June 12, 2009

        Public comment period was opened for 60 days from date of 
        publication then reopened for an additional 30 days to 
        September 14, 2009.

    Conservation Stewardship Program (CSP) Interim Final Rule with 
Request for Comment

        Status: Published July 29, 2009

        Public comment period is open through October 28, 2009

    Cooperative Conservation Partnership Initiative (CCPI) Notice of 
Request for Proposals; Request for public comment

        Status: Published March 10, 2009

        Deadlines: Public comment by April 8th; Proposal submission by 
        April 23rd

    Environmental Quality Incentives Program; Correction, request for 
comment and extension of public comment period--Corrects the 
application of payment limitations as they apply to joint operations 
and seeks public comment on using EQIP for furthering the nation's 
efforts with renewable energy production and energy conservation, 
climate change mitigation and facilitating adaptation, and carbon 
sequestration.

        Status: Published March 12, 2009

        Public comment period extended to April 17, 2009

    Environmental Quality Incentives Program Interim Final Rule 
Amendment--This document reestablishes policy that enables certain 
producers, who lease public lands, to be able to use EQIP funds on the 
public lands.

        Status: Published May 29, 2009

        Public comment period opened through June 29, 2009. Submitted 
        comments are limited to contents of the amendment.

    Farm and Ranch Lands Protection Program; Interim Final Rule 
amendment and extension of public comment period--This document 
clarifies the ``contingent right of enforcement'' and reopens the 
public comment period through August 3. In addition, NRCS is 
incorporating preamble language that seeks public input on how FRPP can 
be used to further the nation's interest in renewable energy 
production, energy conservation, carbon sequestration and mitigating 
climate change and facilitating climate change adaptation.

        Status: Published July 2, 2009

    Grassland Reserve Program Interim Final Rule: Approved for 
publication during the Bush Administration and published in the Federal 
Register January 21, 2009.
    Grassland Reserve Program; Interim Final Rule amendment and 
reopening of public comment period--This amendment clarifies the 
``contingent right of enforcement'' language, removes the prohibition 
of producing energy for off farm use, and reopens the public comment 
period for 30 days from date of publication. In addition, NRCS is 
incorporating preamble language that seeks public input on how GRP can 
be used to further the nation's interest in renewable energy 
production, energy conservation, carbon sequestration and mitigating 
climate change and facilitating climate change adaptation.

        Status: Published on August 21, 2009

        Public comment period is open to September 21, 2009

    Healthy Forests Reserve Program; Reopening and extension of public 
comment period

        Status: Published February 18, 2009

        Public comment period extended from February 13, 2009, to March 
        20, 2009

    State Technical Committees Notice of Standard Operating Procedures 
with Request for public comment--The 2008 Act requires the Secretary to 
develop standard operating procedures to standardize the operation of 
State Technical Committees.

        Status: Published April 7, 2009

        Public comment period closed June 8, 2009. This document will 
        be incorporated into the NRCS directives system.

    Wetlands Reserve Program; Interim Final Rule Amendment and 
reopening of public comment period--This amendment ensures NRCS is able 
to restore all lands enrolled in the program despite events subsequent 
to enrollment, corrects the eligibility criteria related to closed 
basin lakes and potholes, and notifies the public of the agency's 
continued dedication to proactive restoration. This document reopens 
the public comment period.

        Status: Published June 2, 2009

        Public comment period opened through July 2, 2009

    Wildlife Habitat Incentive Program; Correction, request for comment 
and extension of public comment period--Corrects the application of 
payment limitations as they apply to joint operations and seeks public 
comment on using WHIP for furthering the nation's efforts with 
renewable energy production and energy conservation, climate change 
mitigation and facilitating adaptation, and carbon sequestration.

        Status: Published March 12, 2009

        Comment period extended to April 17, 2009

    Wildlife Habitat Incentives Program Interim Final Rule amendment--
This document expands the definition of agricultural lands to enable 
producers to enroll all lands included in their farming operation. The 
Interim Final Rule limited application to lands that were used for 
production.

        Status: Published July 15, 2009

        Comment period reopened until August 14, 2009 Public comments 
        limited to the definition of agricultural land.
                             Appendix Three
2008 Farm Bill Implementation
Final Rule Completion Schedule
    The following final rules are tentatively scheduled to be published 
by the end of the first quarter of Fiscal Year 2010:

        Agricultural Management Assistance Program (AMA)

        Regional Equity (RE)

        State Technical Committees (STC)

        Technical Service Provider Assistance (TSP)

    The following final rules are tentatively scheduled to be submitted 
for OMB review by the end of the first quarter of Fiscal Year 2010:

        Environmental Quality Incentives Program (EQIP)

        Farm and Ranch Lands Protection Program (FRPP)

        Grassland Reserve Program (GRP)

        Healthy Forests Reserve Program (HFRP)

        Wetlands Reserve Program (WRP)

        Wildlife Habitat Incentive Program (WHIP)

    The CSP Final Rule is scheduled for completion in early 2010.

                             Appendix Four

Program-by-Program Review of 2008 Farm Bill Implementation
Environmental Quality Incentives Program (EQIP)
    As indicated above, the 2008 Farm Bill introduced or continued a 
number of distinct components to EQIP. Each of these components is 
treated separately below. The base EQIP program offers contracts with a 
minimum term that ends 1 year after the implementation of the last 
scheduled practices and a maximum term of 10 years. These contracts 
provide financial assistance to implement conservation practices. 
Owners of land in agricultural production or persons who are engaged in 
livestock or agricultural production on eligible land may participate 
in the EQIP program. Program practices and activities are carried out 
according to an EQIP program plan of operations developed in 
conjunction with the producer that identifies the appropriate 
conservation practice or measures needed to address the resource 
concerns. The practices are subject to NRCS technical standards adapted 
for local conditions.
    Changes to EQIP in the 2008 Farm Bill allowed us to place 
additional emphasis on private non-industrial forest land. We 
encouraged owners of this land type to participate in EQIP to develop 
forest management plans and to implement forestry practices to increase 
conservation efforts on these lands.
    We successfully obligated nearly the entire EQIP allocation of 
$1.067 billion for Fiscal Year 2009 (a small amount was retained for 
future cost overruns). Nationwide, we received 106,384 applications and 
approved 30,965 as contracts. These contracts represent 11,651,207 
acres. As required by the farm bill, 60 percent of EQIP funding is used 
for livestock-related practices.

EQIP Conservation Innovation Grants
    Conservation Innovation Grants was first authorized in the 2002 
Farm Bill as a component of EQIP. Through CIG, EQIP funds are used to 
award competitive grants to non-Federal governmental or non-
governmental organizations, federally-recognized Indian tribes, or 
individuals. Applications are accepted from all 50 states, the 
Caribbean Area (Puerto Rico and the Virgin Islands), and the Pacific 
Islands Area (Guam, American Samoa, and the Commonwealth of the 
Northern Mariana Islands). Selected applicants may receive grants of up 
to 50 percent of the total project cost. Applicants must provide non-
Federal funding for at least 50 percent of the project cost, of which 
up to \1/2\ (25 percent of the total project cost) may come from in-
kind contributions.
    On January 16, 2009 NRCS announced the availability of $20 million 
for the national-level CIG in Fiscal Year 2009. Four separate 
categories were offered--``Natural Resources,'' ``National 
Technologies,'' ``Grant Leveraging,'' and ``Chesapeake Bay Watershed.'' 
Over 390 proposals were received, a record number. Fifty-five 
applications were selected for awards. An additional $5.5 million was 
made available by states for state-level CIG awards. Since 2004, NRCS 
has awarded $108 million to 316 projects through CIG.

EQIP Organic Program Initiative
    The 2008 Farm Bill included authority for use of EQIP to help 
organic growers farm under the standards of the National Organic 
Program (NOP). The Organic Program Initiative makes available financial 
and technical assistance to help producers, both those transitioning to 
organic production and those already certified as organic, meet their 
conservation goals. As of September 9, 2009, there were 1201 approved 
contracts for Fiscal Year 2009 under this initiative, and approximately 
$30,280,294 had been obligated. Another sign-up period will be held in 
the beginning of Fiscal Year 2010.

EQIP Air Quality Initiative
    The 2008 Farm Bill authorized NRCS to provide eligible producers 
with technical and financial assistance to address air quality 
challenges through EQIP. Funds are used to address the primary air 
quality natural resource concerns associated with Environmental 
Protection Agency (EPA) ``non-attainment'' areas for the ambient air 
quality standards of: particulate matter 2.5, particulate matter 10, 
and 8 hour ozone.
    Just over $24 million was obligated to producers through this new 
initiative in Fiscal Year 2009. Out of nearly 1,600 applications were 
submitted, 900 contracts were approved.

Chesapeake Bay Watershed Program
    The 2008 Farm Bill authorized the Chesapeake Bay Watershed Program 
(CBWP) to protect and restore the health, heritage, natural resources, 
and social and economic value of the nation's largest estuarine 
ecosystem. The CBWP funding--$23 million in EQIP funds for Fiscal Year 
2009--is used to improve water quality and conserve water quantity 
while restoring, enhancing, and conserving soil, air, and related 
resources. As of September 30, 2009, we obligated 95 percent of the $23 
million available for Fiscal Year 2009.
    As of August 31, 2009, in this first year of the initiative, over 
765 contracts were developed with farmers to install a variety of pre-
selected conservation practices such cover crops, conservation tillage, 
buffer and filter strips, stream bank fencing, grassed waterways, 
nutrient management, and tree planting. These contracts cover more than 
98,000 acres of farmland. NRCS is focusing CBWP funding on 
legislatively mandated (by the 2008 Farm Bill) river basins 
(Susquehanna, Shenandoah, Potomac, and Patuxent Rivers) and other high-
priority sub-watersheds. These sub-watersheds were selected based on 
nitrogen, phosphorous, and sediment loads delivered to the Bay; stream 
impairment; partner resources; and ability to demonstrate results.

EQIP Ring Dike Initiative
    In an effort to improve water quality in flood prone areas in 
Minnesota and North Dakota, NRCS allocated $5.7 million through EQIP 
and $1.4 million through AWEP for installation or enhancement of ring 
dikes around farmsteads. Ring dikes are earthen structures that protect 
the farmstead from overland flooding, reducing the potential for 
chemical, hydrocarbon, and agricultural wastes to enter flood waters.
    The sign-up for this special initiative was conducted between June 
15 and July 15, 2009. Agricultural producers were eligible to receive 
up to 75 percent of the cost of building the dike to protect their 
farmstead. Beginning, limited resource, and socially disadvantaged 
farmers were eligible to receive up to 90 percent of the cost of dike 
installation.
    For the EQIP funding, 254 applications were submitted, 113 of which 
were approved as contracts. For AWEP, there were 23 applications, 20 of 
which were approved as contracts.

Conservation Activity Plans Pilot
    The 2008 Farm Bill provides authority to use EQIP financial 
assistance for payment of practices and conservation activities 
involving the development of plans appropriate for the eligible land of 
a program participant. Specifically, NRCS is authorized to use EQIP for 
the development of comprehensive nutrient management plans and other 
plans that further the purposes of the program. EQIP payments are made 
directly to program participants for development of approved 
conservation plans by certified technical service providers (TSPs).
    For Fiscal Year 2009, NRCS approved the use of 12 types of CAPs on 
a pilot basis in volunteering states. The pilot volunteer states are: 
Alabama, Arizona, Arkansas, California, Colorado, Connecticut, 
Delaware, Idaho, Illinois, Indiana, Louisiana, Maine, Maryland, 
Massachusetts, Michigan, Minnesota, Missouri, Nebraska, New Hampshire, 
New Mexico, New York, North Dakota, Ohio, Oregon, Pennsylvania, Rhode 
Island, South Dakota, Tennessee, Texas, Utah, Vermont, West Virginia, 
and Wyoming.
    An evaluation of Fiscal Year 2009 effort will be conducted and 
results of this evaluation will be used to improve and expand the CAP 
initiative for Fiscal Year 2010.

------------------------------------------------------------------------
          Conservation Activity Plans              # of States Piloting
------------------------------------------------------------------------
Comprehensive Nutrient Management Plan                                18
Forest Management Plan                                                24
Grazing Management Plan                                               10
Integrated Pest Management Plan                                        4
Irrigation Water Management Plan                                       8
Agricultural Energy Management Plan                                    8
Comprehensive Air Quality Management Plan                              0
Drainage Water Management Plan                                         1
Conservation Plan Supporting Transition from                           1
 Irrigation to Dry-land Farming Plan
Conservation Plan Supporting Organic Transition                       15
Fish and Wildlife Habitat Management Plan                              4
Pollinators Habitat Conservation Plan                                  0
------------------------------------------------------------------------

Cooperative Conservation Partnership Initiative
    Authorized in the 2008 Farm Bill, CCPI is a voluntary conservation 
initiative through which NRCS enters into partnership agreements with 
eligible entities that want to enhance focused conservation efforts on 
agricultural lands, nonindustrial private forestlands, and Tribal 
lands. Eligible producers, who participate in a project area identified 
in an approved partner agreement, may apply for program assistance. 
Eligible programs include EQIP, WHIP, and CSP.
    CCPI gives NRCS another mechanism to bolster locally-led 
conservation. For the pilot year of CCPI in Fiscal Year 2009, NRCS set 
aside six percent of both WHIP and EQIP funds for implementation of 
CCPI. In Fiscal Year 2010, in addition to WHIP and EQIP funds, six 
percent of CSP acres will be set aside for participation in the CCPI 
program.

Agricultural Water Enhancement Program
    AWEP is a voluntary conservation initiative that provides financial 
and technical assistance to agricultural producers to implement 
agricultural water enhancement activities for the purposes of 
conserving surface and ground water and improving water quality. As 
part of EQIP, AWEP operates through contracts with producers to plan 
and implement conservation practices in project areas established 
through partnership agreements that work to leverage partner resources 
with NRCS funding.
    AWEP represents a new operational concept and a new way to work 
with partners. We believe that this initial year was very successful. 
3,828 applications were submitted, of which 1,380 covering 378,535 
acres were approved as contracts. In response to concerns voiced by 
some program applicants, we intend to establish a team to review the 
Fiscal Year 2009 implementation of AWEP. Recommendations from this team 
will be used to improve the program for Fiscal Year 2010.

Wildlife Habitat Incentives Program
    WHIP is a voluntary program for developing or improving high-
quality habitat to support fish and wildlife populations of National, 
State, Tribal, and local significance. Through WHIP, NRCS provides 
technical and financial assistance to private and Tribal landowners for 
the development of upland, wetland, aquatic, and other types of 
wildlife habitat.
    The 2008 Farm Bill made two changes of great consequence to WHIP. 
First, it restricted WHIP practices to private lands, when public lands 
had been eligible under the 2002 Farm Bill. Second, it reduced the 
maximum annual payment to $50,000. As of September 28, 2009, 94 percent 
of the Fiscal Year 2009 WHIP allocation had been obligated. Of the 
7,412 applications submitted, 3,711 representing 810,370 acres were 
approved as contracts.

Agricultural Management Assistance
    The AMA program provides assistance to agricultural producers to 
voluntarily address issues such as water management, water quality, and 
erosion control by incorporating conservation into their farming 
operations. Producers may construct or improve water management 
structures or irrigation structures; plant trees for windbreaks or to 
improve water quality; and mitigate risk through production 
diversification or resource conservation practices, including soil 
erosion control, integrated pest management, or transition to organic 
farming.
    AMA was brought under the payment eligibility criteria of the farm 
bill in 2008. The bill also added Hawaii as the sixteenth state 
eligible for AMA funding. The other 15 states are: Connecticut, 
Delaware, Maine, Maryland, Massachusetts, Nevada, New Hampshire, New 
Jersey, New York, Pennsylvania, Rhode Island, Utah, Vermont, West 
Virginia, and Wyoming. For Fiscal Year 2009, the entire AMA allocation 
of $7.5 million was obligated. Out of 569 applications submitted, 210 
representing 13,728 acres were approved as contracts.

Conservation Security Program
    The Conservation Security Program, authorized in the 2002 Farm 
Bill, provides assistance to producers to promote the conservation and 
improvement of soil, water, air, energy, plant and animal life, and 
other conservation purposes. It is a voluntary conservation program 
that supports ongoing stewardship of private agricultural lands by 
providing payments for maintaining and enhancing natural resources.
    Although the Conservation Security Program was not re-authorized in 
the 2008 Farm Bill, NRCS continues to make payments to prior year 
contract participants. In Fiscal Year 2009, obligations totaled over 
$246 million with payments made on 20,683 contracts. Payments under 
this program will continue until the last contracts expire at the end 
of Fiscal Year 2017.

Conservation Stewardship Program
    In the 2008 Farm Bill, Congress replaced the old Conservation 
Security Program with the new Conservation Stewardship Program. CSP 
encourages land stewards to improve their conservation performance by 
installing and adopting additional activities, and improving, 
maintaining, and managing existing activities on agricultural land, 
nonindustrial private forest land, and Tribal land. Following is a list 
of improvements of the new CSP program over the old Conservation 
Security Program.

  <bullet> CSP is now implemented nationwide with a continuous sign-up 
        process that has periodic cut-off periods for ranking and 
        funding of applications. The old program was only available in 
        select watersheds each year.

  <bullet> Nonindustrial private forest land has been added as an 
        eligible land use.

  <bullet> NRCS State Conservationists have management responsibility 
        for an acreage allocation with associated funding based on 
        proportion of eligible land and conservation needs. This shifts 
        a significant portion of the programmatic decision making from 
        the national level to the states. State Conservationists, in 
        consultation with State Technical Committees and local working 
        groups, will focus their CSP programs on natural resources that 
        are of specific concern in their state, or on specific 
        geographic areas within the state. Applications are evaluated 
        relative to other applications that address similar priority 
        resource concerns. This process facilitates a competitive 
        application selection process among applicants who face similar 
        resource challenges.

  <bullet> Retrospective payments allow for on-site field verification 
        for all pre-approved applications to substantiate that 
        participants' representations are accurate prior to contract 
        obligation and payment.

  <bullet> Participation is based on how producers define their 
        operation for other USDA programs. This change fixes a 
        significant issue with the old program and helps ensure that 
        CSP participants are the people responsible for day-to-day 
        management and decision making on the agricultural operation.

  <bullet> Direct payment attribution to real persons will ensure 
        compliance with producer payment limitations, while 
        accommodating multiple contracts per participant.

    With broadened availability, CSP will expand the nation's 
agricultural and forestry producers' ability to reach greater levels of 
conservation performance. The conservation benefits derived from 
maintaining and enhancing natural resources will assist in improving 
the quality of soil and water, assist in addressing global climate 
change, and may encourage environmentally responsible energy 
production.
    NRCS initiated the first nationwide continuous sign-up for the new 
CSP on August 10, 2009, with a September 30, 2009 cutoff date. We are 
currently reviewing and ranking applications in preparation for 
awarding contracts. A second sign-up cut-off is tentatively scheduled 
for mid-January 2010.
    In preparation for CSP implementation, NRCS developed outreach 
strategies at the national, state, and local levels to ensure potential 
applicants who control eligible land are aware they may be eligible to 
apply for CSP. Special outreach efforts were made to eligible producers 
with historically low participation rates, such as historically 
underserved producers. States made an effort to reach all eligible 
producers through various means, including newspapers, magazines, local 
publications, radio, personal contacts, meetings, newsletters, 
churches, organizations, and community advocacy groups. National 
information products were developed to assist in distributing 
information at the state and field levels, including the producer self-
assessment checklist and a postcard for mass mailing. The personal mass 
mailing effort was done to increase distribution of CSP information to 
potential participants.
    The pilot ranking period for CSP will help us determine certain 
aspects of how we will administer the program in the future. For issues 
like payments and enhancements, it is a constantly evolving effort to 
put in place the most relevant and effective methods for helping 
producers get conservation on the ground.
    To manage program funding and meet legislative requirements, NRCS 
is using the first ranking period as a payment discovery period to 
arrive at a uniform payment rate per land use conservation performance 
point. Using enrollment data from the sign-up, unique conservation 
performance payment rates will be determined for each land use type 
after ranking decisions are made. It is anticipated the information 
gained will assist in arriving at set payment rates for future years' 
contracts.
    Innovative conservation activities, specifically enhancements, hold 
the key to CSP's environmental success. From a program equity and 
outreach perspective, enhancements need to provide viable opportunities 
for producers to increase their conservation performance across all 
land uses, operation sizes and types, and production systems, including 
specialty crops and organic production. NRCS will institute a 
continuous improvement process to develop innovative enhancements, 
while engaging others in identifying enhancement opportunities, as 
well.
    During the first CSP ranking period, NRCS received 21,281 
applications covering an estimated 33 million acres. The acreage is 
just an estimate at this time, we will have firm numbers on November 1, 
2009. We are currently processing and reviewing and ranking 
applications in preparation for awarding contracts.
Farm and Ranch Lands Protection Program
    FRPP provides matching funds to help purchase development rights to 
keep productive farm and ranchland in agricultural uses. Working 
through existing state and local programs, USDA partners with state, 
Tribal, or local governments and non-governmental organizations to 
acquire conservation easements or other interests in land from 
landowners. USDA provides up to 50 percent of the fair market easement 
value of the conservation easement.
    The 2008 Farm Bill made a significant modification to FRPP by 
changing the program from a Federal land acquisition program to a cost-
share program. This means that, while the Federal government maintains 
a contingent right of enforcement, it no longer appears on the easement 
deed as a grantee and is no longer a co-owner of the easement.
    In Fiscal Year 2009, NRCS obligated the total program allocation of 
$105 million, helping entities enroll an estimated 70,000 acres on 350 
parcels.

Grassland Reserve Program
    GRP is a voluntary conservation program that emphasizes support for 
working grazing operations, enhancement of plant and animal 
biodiversity, and protection of grassland under threat of conversion to 
other uses. Participants voluntarily limit future development and 
cropping uses of the land while retaining the right to conduct common 
grazing practices and operations related to the production of forage 
and seeding, subject to certain restrictions during nesting seasons of 
bird species that are in significant decline or are protected under 
Federal or state law.
    For GRP, the total acreage enrolled under the 2002 Farm Bill was 
725,352 acres. The 2008 Farm Bill changed GRP to an acreage-based 
program and authorized enrollment of an additional 1,220,000 acres 
through 2012, bringing the total acreage goal to 1,945,352. For Fiscal 
Year 2009, NRCS obligated 99 percent of the total program allocation of 
$48 million. Approximately 72 participants enrolled 56,689 acres in GRP 
easements. An estimated 100,000 acres were enrolled as rental 
contracts. The remaining 1,063,311 acres will be enrolled through 
Fiscal Year 2012.

Healthy Forests Reserve Program
    HFRP is a voluntary program established for the purpose of 
restoring and enhancing forest ecosystems to: (1) promote the recovery 
of threatened and endangered species, (2) improve biodiversity; and (3) 
enhance carbon sequestration. The 2008 Farm Bill made three significant 
changes to HFRP. The first change allows NRCS to enroll lands in 
permanent easements. The second change stipulates that 40 percent of 
HFRP funding must be expended on cost-share agreements, and 60 percent 
on easements. The third major change allows for a 30 year contract 
option for Tribes and Tribal members.
    For Fiscal Year 2009, NRCS obligated $2.1 million out of the $9.75 
in no-year money available annually under the 2008 Farm Bill. Nine 30 
year or permanent easements covering approximately 1,100 acres have 
been enrolled in the program. Prior to 2009, there were six restoration 
agreements covering 684,707 acres and two easements covering 1,000 
acres.
    We were unable to use the full HFRP allocation in Fiscal Year 2009. 
HFRP is a complex new program that requires significant start-up time 
to establish partnership roles, contracting procedures, ranking 
criteria, and criteria for appraisals. With many of these tasks 
complete, we are confident in our ability to obligate the full HFRP 
allocation in future years.

Wetland Reserve Program
    WRP is a voluntary program offering landowners the opportunity to 
protect, restore, and enhance wetlands on their property. NRCS provides 
technical and financial support to help landowners with their wetland 
restoration efforts. NRCS's goal is to achieve the greatest wetland 
functions and values, along with optimum wildlife habitat, on every 
acre enrolled in the program.
    The 2008 Farm Bill modified WRP's authorizing language to add a 30 
year contract option for acreage owned by Indian tribes. Prior to 
Fiscal Year 2009, easements and restoration cost-share agreements were 
the only enrollment options available for WRP participants. Because the 
placement of easements on Tribal lands caused legal and administrative 
impediments to Tribal participation, the newly authorized WRP 30 year 
contract provides for broader program participation by Tribes. In 
Fiscal Year 2009, four Indian Tribes in Nebraska enrolled 2,156 acres 
of Indian lands in WRP through the 30 year contract option.
    The 2008 Farm Bill also changed the methodology for establishing 
WRP easement compensation. The compensation is now the lowest of : (1) 
The fair market value of the land or an area-wide market analysis or 
survey; (2) The geographical area rate cap (GARC); or (3) The offer 
made by the landowner. Previously, the compensation was based on an 
appraisal methodology commonly referred to as ``Yellow Book.''
    Another change in the 2008 Farm Bill requires that the ownership of 
land not have changed in the prior 7 years for the land to be eligible 
for the WRP (the limit was just 1 year under the 2002 Farm Bill). The 
WRP interim final rule includes a provision allowing for waivers to the 
7 year ownership requirement. Only the NRCS Chief can provide a waiver 
to the 7 year provision. As of September 16, 2009, 259 waiver requests 
have been submitted to the Chief for consideration. 243 of these 
requests have been approved. For the 16 denied requests, the landowners 
did not provide adequate assurances that the land was not acquired for 
the express purpose of enrolling it in WRP. The majority of requests 
for a waiver were for the following reasons: (1) the current landowner 
purchased property that had been in the family for more than 7 years 
from another family member; or (2) the current landowner received the 
property as a result of estate planning of their parents; or (3) the 
current landowner purchased property that they had farmed for a number 
of years prior to purchase.
    The 2008 Farm Bill increased the maximum enrollment in WRP to 
3,041,200 acres. To date, NRCS has enrolled approximately 2,175,000 
acres in the program, nearly 150,000 acres of which were enrolled 
during FY 2009. To meet the total enrollment, NRCS will need to 
accelerate its efforts and enroll about 300,000 acres each year through 
Fiscal Year 2012. In recognition of the challenge and opportunity that 
this presents, we have convened a group of State Conservationists, 
Assistant State Conservationists, and contracting personnel to improve 
and expand our enrollment and restoration capacity. This group is 
charged with developing an implementation plan to reach the maximum 
enrollment authorized in the 2008 Farm Bill.
    Finally, the 2008 Farm Bill provides for WRP enrollment of 
agricultural areas subject to flooding from the natural overflow of a 
closed basin, lake, or pothole. This program is available in the 
prairie pothole regions of Iowa, Minnesota, Montana, North Dakota and 
South Dakota. For Fiscal Year 2009, approximately $2 million was 
allocated for the Devil's Lake area in North Dakota.
Wetlands Reserve Enhancement Program
    The Wetlands Reserve Enhance Program (WREP) allows NRCS to enter 
into agreements to carry out special projects that that will improve or 
expand WRP activities, including wetlands restoration, creation, or 
enhancement, or easement management. WREP focuses on projects that 
include significant partnership contributions.
    The 2008 Farm Bill established the Reserved Rights Grazing Pilot 
under WREP. For Fiscal Year 2009, Alabama and Nebraska participated in 
the pilot, obligating more than $2.4 million covering 4,607 acres.

                               Attachment

[GRAPHIC] [TIFF OMITTED] T1131.003

[GRAPHIC] [TIFF OMITTED] T1131.004

[GRAPHIC] [TIFF OMITTED] T1131.005

[GRAPHIC] [TIFF OMITTED] T1131.006

[GRAPHIC] [TIFF OMITTED] T1131.007

[GRAPHIC] [TIFF OMITTED] T1131.013

[GRAPHIC] [TIFF OMITTED] T1131.010

[GRAPHIC] [TIFF OMITTED] T1131.011

[GRAPHIC] [TIFF OMITTED] T1131.012


    The Chairman. Thanks, Chief White.
    And, Chief, thanks for your help for the rulemaking and 
implementation of the Farm and Ranch Land Protection Program. 
We really have made some significant changes.
    But I am just going to enter into the record--and I am sure 
you have seen it--a letter from the Secretaries of Agriculture 
from Connecticut, Delaware, Maine, Maryland, Massachusetts, 
Michigan, New Hampshire, New Jersey, New York, Pennsylvania, 
Rhode Island, and Vermont twice here. It was sent to the 
Secretary in September. I am sure you have seen it, but, if 
not, if you would just review it. You don't have to answer that 
today; just get back to us on it.
    [The document referred to is located on p. 61.]
    The Chairman. But I am wondering, even though we have made 
significant changes, I believe, that were positive, have you 
seen a decline in state-level participation because of these 
unresolved issues that were in the letter sent to the 
Secretary?
    Mr. White. No. And speaking of that letter, Mr. Chairman, 
not only have I seen it, I have read it, I have studied it, and 
I am ready to answer it right now if you want to.
    We are going to have a teleconference. Thirteen states 
signed this letter. We are trying to set up a teleconference 
between myself and some staff and help them to work through 
some of these issues.
    Now, we think we have the contingent right of enforcement 
fixed. They are bringing up some other issues. Some of them we 
agree with; we think we will be able to work them out. Some of 
them, I think, that we are going to have more problems working 
that out. Like, there in their letter, they say they want to 
eliminate the requirement that we do a hazardous materials 
search or landowner interviews. I don't want to participate in 
buying a Superfund site. I think we need to keep some Federal 
control over that.
    We have some issues over impervious surfaces. You should 
have some photos there. You can see some greenhouses. This is 
from one of those 13 states. This is what happens when you 
don't have an impervious surface limit. We would like to keep 
some of that open land open.
    There are four or five things that we really have to work 
with them on. I think there is a lot of stuff we are in 
agreement with, Mr. Chairman, and I promise you we will try to 
resolve it.
    The Chairman. Thank you.
    Mr. Coppess, you mentioned in your oral testimony open 
fields briefly. Is FSA working on getting the rules published 
for this program? Can you explain what the delay has been? 
Also, there was $50 million in mandatory spending for this 
program. Has OMB given an apportionment for the 2010 Fiscal 
Year? And what happened to the mandatory money?
    Mr. Coppess. Right. We are in the process of expediting the 
implementation of that program now. I expect that within the 
next several months we should have that out.
    The mandatory money, as I understand it, remains throughout 
the course of this farm bill, so we don't lose anything by not 
having apportioned or spent it until this point in time.
    Because the rule is not out yet, OMB has not apportioned 
any funding for that. But we are working to get that through as 
quickly as we can. We will have the money ready to go as soon 
as we can after the rule gets out.
    The Chairman. Thank you.
    Chief White, in reference to the Chesapeake Bay Program, it 
was created in the farm bill for USDA to run, operate, and make 
the decisions regarding funding. Given the Administration's 
Executive Order on the Chesapeake Bay, how are you coordinating 
with the other agencies, but maintaining control over this 
program?
    Mr. White. Well, we will cooperate and consult with anyone, 
Mr. Chairman, but let me assure you that USDA is going to 
maintain control of that.
    This year, we had a pretty successful year. The decisions 
were made. We used a locally based process. Mr. Thompson and 
Mr. Massa, you and Mr. Kratovil, we talked about that several 
months ago. We will maintain control of that program. We will 
cooperate with everyone and their brother, but we are not about 
to cede the authority that you gave us.
    The Chairman. And you have seen a lot of producer interest 
in the program?
    Mr. White. Oh, oh, yes. If I can find the thing, I can tell 
you the sign-up that came through that.
    Chesapeake Bay, we had 2,037 applications. We were able to 
fund 826 of those. We used something like 98.4 percent of all 
the funds. When I say we obligated 98.4 percent, you don't want 
to obligate 100 percent in case you have some adjustments or 
modifications, 98.4 percent were obligated, roughly 40 percent. 
And, this year, you guys gave us a lot more and we are going to 
do more.
    The Chairman. Thank you.
    The chair recognizes the gentleman from Virginia.
    Mr. Goodlatte. Thank you.
    Of those 2,000 applications, how spread out across the 
Chesapeake Bay region were they?
    Mr. White. Yes, I can give you a breakdown by state, but I 
am thinking, Mr. Goodlatte, 99 percent of them were in your 
district. That would be my off-the-head estimate.
    Mr. Goodlatte. I am sure you are going to object.
    You don't want tick off the Chairman here.
    Mr. White. The other 98 percent were in his district.
    I don't know the breakdown, but we will get that for you.
    Mr. Goodlatte. Yes, I think both the Chairman and the 
Ranking Member would like to see that breakdown.
    Mr. White. You got it.
    Mr. Goodlatte. What can you tell me about the big 
conversation we had in this Committee during the markup of the 
farm bill regarding the segmentation of EQIP funds? Your 
testimony indicates that 15 percent of EQIP funds in 2009 were 
obligated to beginning farmers and ranchers. What factors 
contributed to such a high percentage when the law establishes 
a five percent set-aside?
    Mr. White. Well, we actually--that five percent was to, my 
understanding, was to guarantee that these beginners--it 
doesn't say you can't go above that, unless I am wrong. Is that 
part of the not meeting Congressional intent concern?
    Mr. Goodlatte. No, no. I think we are wanting to make sure 
that you are being fair to everybody involved.
    Mr. White. Oh, yes, sir. We did have these five percent 
set-asides. Those were used up. And if a person qualified, they 
would also be allowed into the program. So, it is a great thing 
that we are getting this many beginners--I won't say young 
farmers--I will say beginning farmers and ranchers into these 
programs.
    But if there is an issue where we are discriminating 
against non-beginners, I will need to find out what exactly is 
occurring. But I don't think that has occurred, sir.
    Mr. Goodlatte. And what efforts are you making to undertake 
outreach to private forest owners who may not be aware that 
they are eligible for programs like EQIP and CSP?
    Mr. White. We have to do a better job. You know we did a 
lot of work, or you guys did a lot of work in the 2008 Farm 
Bill. Nonindustrial private forestland is a part of EQIP, a 
bigger part, although we could have done it before. Some states 
did. And it certainly--10 percent of the Conservation 
Stewardship Program can be nonindustrial private forestland.
    From the application so far just from CSP, Mr. Goodlatte, 
we have exceeded the--the amount of acres offered for 
enrollment exceed the 10 percent that we can do in that 
program. So I think we are cool in that.
    I think what we have to do is a better job of outreach to 
the nonindustrial private forestland owners to make doggone 
sure that they know that those things are available. And we 
will take that on as a commitment.
    Mr. Goodlatte. Now, conversely, you have some programs that 
are oversubscribed, at least. And would you provide the 
Committee with an overview of which programs have backlogs and 
how extensive those backlogs are?
    Mr. White. Can I do that in writing? Because I don't have 
all that backlog stuff in my head.
    Mr. Goodlatte. Yes, absolutely. Thank you.
    In that regard, one of the most popular programs we have, 
obviously, is EQIP. And during our conference, many Members 
worried about the backlog that we had in EQIP. The general 
consensus was that this is a great program that helped 
producers deal with environmental regulations and was extremely 
popular.
    In addition, we worried greatly that carve-outs and other 
pet projects would erode the funding for this program and would 
simply extend the backlog. Members tried to strike a delicate 
balance between these carve-outs and the needs of producers 
throughout the country.
    Now we hear the NRCS has started a Mississippi River Basin 
Initiative above and beyond the statutory limit set by the law. 
In fact, material about this new initiative explicitly states 
this funding is, ``above and beyond'' regular CCPI funding. The 
law states, ``Funding Reservation: Of the funds and acres made 
available for each of Fiscal Years 2009 through 2012 to 
implement the programs described in subsection (c)(1), the 
Secretary shall reserve six percent of funds and acres to 
ensure an adequate source of funds and acres for the 
initiative.''
    Where does the Department get the statutory authority to go 
above the six percent? And why would the Department use its 
authority to go beyond what was obviously a limitation?
    Mr. White. Okay. CCPI is one of the new tools that you 
provided for us in the 2008 Farm Bill. It allows us to work 
with partners, cooperatively, to solve resource problems.
    You are absolutely right about the Mississippi River. In 
fact, we looked at the Chesapeake Bay as kind of the model to 
do that, to target resources to solve specific issues.
    The six percent--we have talked to the Office of General 
Counsel. We feel that we are on firm legal ground. I can 
provide you with written materials on that.
    We will not take away--or, the goal is not to take away 
from any states ongoing applications, the county-based EQIP 
applications that are available nationwide. You provided 
increased funding for EQIP and many of the other programs, 
where I would look as--assuming that we do get that increased 
funding, that is where that extra money would come from. I am 
not going to rob Virginia to give it to Alabama, or to 
Mississippi, or something like that. Each state is going to get 
their----
    Mr. Goodlatte. Leaving the mid-Atlantic region, which does 
have a statutorily designated program for the Chesapeake Bay, 
you are then left with a situation where you have 
oversubscription of this program all across the country. Yet, 
you have, without--I mean, the Congress debated this at great 
length, and I have no doubt that some in the Mississippi River 
Delta would very much appreciate what you have chosen to do. 
But I am not sure that you have the statutory authority to give 
a preference in that area when there is no Congressional 
mandate to do so. And, in effect, you are taking money away 
from every other part of the country that is a little annoyed 
that the Chesapeake Bay may already have a preference, and, 
therefore--but that was specifically designated, specifically 
funded, specifically set aside.
    The rest of the country is very concerned about the fact 
that you may do more of these at their expense, whereas the 
Chesapeake Bay, that was debated and set aside as a part of the 
legislation in the Congress.
    Mr. White. Understood, sir. And we could also add 
California to that group--or not California per se, but the 
CIG(b) section, which was the Air Quality Initiative that 
Members here, remember, Mr. Cardoza, Mr. Costa, brought that 
forward.
    Mr. Goodlatte. Right. Those were all--I mean, I am not 
quarreling with those as long as you stay within those limits. 
And I am sure the gentlemen from California would agree with 
me, as well. But when it comes to the rest of the pot of money, 
then you have the whole country eyeing that pot and wanting to 
make sure that you are not exceeding what the Congress intended 
with regard to the set-asides.
    Mr. White. If you will allow me just a moment, say, EQIP--
EQIP was created in 1996, and the funding level there was $200 
million a year for a national program. And that was 
prioritized; 65 percent of whatever money that was received was 
prioritized in Geographic Priority Areas. And that caused a 
huge backlash because the money wasn't distributed, it was 
felt, fairly across the country.
    So, in 2002, Congress--and I was loaned to Mr. Lugar at 
that time--in the conservation title, those priority areas were 
eliminated, and additional funds were put into EQIP. It went 
from $200 million a year to an authorized level of $1.2 
billion.
    I was the State Director in Montana----
    Mr. Goodlatte. I know my time has expired, Mr. Chairman, 
but I just might make this one last point.
    I understand that the Congress worked very hard to 
accomplish that because of the fact that the program was so 
extraordinarily popular. But the fact of the matter is, it is 
extraordinarily popular in every part of the country, as far as 
I know. And the Congress set aside specific areas that we 
wanted you to emphasize, like the Chesapeake Bay, like the 
program that we have in California. And then, with regard to 
the rest of the funds, we did not authorize you to set up other 
separate, special initiatives that would take money away from 
other regions of the country that are represented around this 
dais this morning that are concerned about making sure that 
their farmers receive their fair share.
    So I would like to think that you would be increasing that 
money from the $200 million expenditure to the $1.2 billion 
expenditure proportionately around the country to reflect that. 
And if you would include that as a part of the report regarding 
the demand and the supply that you are going to provide to the 
Committee, I would appreciate it.
    Thank you, Mr. Chairman.
    Mr. White. Mr. Goodlatte, I admire and respect you, sir. I 
think we are on firm legal footing, and we will address that.
    The Chairman. The chair recognizes the gentleman from North 
Carolina, Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    And, gentlemen, we appreciate you all being here today.
    Chief White, just a little bit of follow-up to what the 
Ranking Member has said. You know, there is concern about how 
the funds on EQIP will be used regionally. And this question I 
had in my mind even before our conversations this morning, 
about any oversights to North Carolina specifically.
    But looking at more specific parts of the program, can you 
enlighten us on dairy, any contracts that have helped, perhaps, 
to the crisis we have with our dairy farmers with the EQIP 
program?
    Mr. White. Yes, sir. In fact, I became aware of an issue in 
your district that you are aware of, with EQIP, that we are 
working on that won't reoccur.
    If you would look at--there is a payment limitation on EQIP 
of $300,000, and the Congress gave us authority to waive that 
under certain circumstances and go back to the $450,000 that 
was in the previous bill. Out of these thousands and thousands 
of contracts, we waived that 11 times, and most of those were 
for, like, methane digesters for dairies. Now, I don't know if 
they were specifically in your district, but most of the 
payment limitation waivers were for methane digesters, and most 
of those were on dairies. And we continue to work with dairy 
farmers across the country on how to handle the ag waste.
    Mr. Kissell. And one other program, and I don't know how 
the acronym is pronounced, but AWEP, the water program.
    Mr. White. Yes, sir.
    Mr. Kissell. There seemed to be some indication that we 
were going to try to spread that out through other parts of the 
nation, and maybe there had been concentration in one part. Can 
you, kind of, enlighten me on where we were and where we are 
going with that program?
    Mr. White. Yes, sir. AWEP is--we had 191 applications. 
There was a request for proposals that went out; 191 came in. 
They had, like, a triple technical review. Sixty-three were 
approved in various parts of the country. The bulk of them, 
however, were in California. And we are all aware of the 
drought issues there and the water quality. So there was a 
concentration of those in California, but the rest were 
dispersed across the country.
    Now, there is an issue that came up from another Member of 
this Committee that we are addressing with the Agricultural 
Water Enhancement Program that will come out in the new request 
for proposals that will place increased emphasis on water 
conservation as a priority.
    Mr. Kissell. Thank you, sir.
    And, once again, thank you for your quick reaction to the 
situation that we talked about this morning in North Carolina. 
But I do want to reemphasize that regional equity program. For 
something that is very popular, there is a reason it is 
popular. Thank you so much.
    I yield back my time, Mr. Chairman.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Missouri, Mr. Luetkemeyer.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    Mr. White, thank you for being here this morning.
    When I see my farm groups back home--I am from Missouri, 
and I have some concerns about the funding plan that USDA has 
with regards to hypoxia efforts in the Mississippi Basin and 
the Gulf of Mexico.
    As you are aware, Missouri is one of the groups that is 
required to be in the Healthy Watershed Initiative. And it is 
our understanding that funding for this initiative will be 
implemented through the Cooperative Conservation Partnership 
Initiative, conservation innovation grants, and potentially 
under both the EQIP and the Wildlife Habitat Incentives 
Program.
    As you know, we have discussed this morning, there is a lot 
of interest in the EQIP funds. And we have also had that 
interest from the Missouri farmers and ranchers, as well. You 
know, our concern is that funding for this hypoxia effort will 
mean less money in the way of funding for our farmers and 
ranchers. Can you tell us how you intend to fund this program, 
where these funds are going to come from, and how accessible 
they will be?
    Mr. White. Okay. A couple of points about this. Missouri, 
those 12 states, Iowa, the others, will select up to three 
watersheds, eight-digit HUCs, hydrologic units. Those are like 
250,000 to 1.25 million acres. So Missouri will pick those, 
Iowa will pick them, Illinois will pick them, whomever. So 
there is a lot of state control.
    And you have to remember that, if you are from Missouri, 
this is not going to be money taken away from Missouri. Mr. 
Goodlatte mentioned his concern about money coming from other 
places. We think that there is enough money in EQIP that we can 
address these local needs across the country when you are 
looking at putting $1.18 billion into that program this year, 
and maybe be voting on the Agriculture Appropriations bill this 
week, that we are not going to really short anyone.
    And what we hope to do is to do a better job in some of 
these nutrient loading areas. We are trying to do--and I didn't 
call it hypoxia. This is a water quality initiative. In the 
out-years, it may have an impact on Gulf of Mexico hypoxia. It 
sometimes takes a long time for conservation practices to have 
that ripple effect. But what we want to do is help producers 
put the right amount of nutrients on--could be more, could be 
less, could be different timing. But to focus on these kind of 
issues in watersheds where we see the nutrient loading, we 
think we can have a heck of an impact.
    And I just do not believe that we are going to have a huge 
problem in other parts of the nation by taking this money and 
reserving it for this use, focusing it on this use.
    Mr. Luetkemeyer. Okay. So you believe there is enough money 
in the system, it won't impact other programs?
    Mr. White. Yes.
    Mr. Luetkemeyer. Okay.
    Mr. White. Every year, we are in the position of shifting 
money from state to state. Some states need more; some have 
contracts drop out. You have to move money here and there. 
There is a continual shift of funding. I think you do that 
within the existent system we have, sir.
    Mr. Luetkemeyer. Okay. Thank you.
    Mr. Coppess, just a quick question for you. You indicated 
some changes are coming in the CRP program. Would you be 
willing to elaborate on those this morning just a little bit?
    Mr. Coppess. Right. What we have in place now are the rules 
for a series of the changes made by the 2008 Farm Bill, just 
implementing those changes. We are not making anything 
additional really above and beyond that, but it is simply 
implementing the remaining pieces from the 2008 Farm Bill.
    Mr. Luetkemeyer. Oh, okay. I misunderstood. I thought you 
had some other changes that you were getting ready to spring on 
us here that we were not familiar with or hadn't had any input 
in. But basically you are just implementing the changes we 
discussed before.
    Mr. Coppess. Yes, sir. We got our hands full getting those 
through. We won't be making any others.
    Mr. Luetkemeyer. Okay. Thank you, sir.
    I yield back. Thank you, Mr. Chairman.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Alabama, Mr. Bright.
    Mr. Bright. Yes, sir.
    Chief White, just a couple of follow-up questions from my 
colleague from North Carolina, when he was talking about the 
AWEP program. Could you speak in more detail and provide us an 
assessment on the program's implementation and how you 
prioritize certain applications over the others?
    Mr. White. Yes, sir.
    Over 191 applications came in. The first screen was that 
they were reviewed by technical experts. We brought agronomists 
in from a center, hydrologists, biologists, and they reviewed 
them. And they looked for whether they met the requirements of 
the request for proposal. They had a bunch of different 
criteria.
    So that was the first screen. Then it went to a screen of 
high-level NRCS employees at the deputy chief level who also 
looked at it.
    Now, this particular year, we did a third screen. Because, 
out of the 191 that came in, this first level eliminated 50 
percent. They said 50 percent did not meet the RFP requirements 
and would not advance. So they had the program manager look at 
those 50 percent, so they had a second look at them. And then 
these other folks went through it again, and then I got that 
list, and I pretty much went down that list.
    Now, in respect to Alabama, there was an Alabama 
application that was not funded in the initial one.
    Mr. Bright. That is right.
    Mr. White. And a couple of the additionally funded ones 
dropped out, things went wrong, they withdrew, whatever. And 
what I did then was I went back to the prioritized list, and 
there was Alabama. So I pretty much went down the list after 
the technical review.
    Mr. Bright. Thank you very much.
    And I stress once again, I am sure everyone around this 
room today will stress the importance of water to each one of 
their states. And Alabama is not unlike any one of these 
states. Water is very--even in Alabama, we have a scarcity of 
plentiful water. So, if you would, please continue to review in 
great detail our applications for these funds.
    Also, as you mentioned in your testimony, in Fiscal Year 
2009 there were over 3,800 applications which were submitted, 
and about 1,700 were awarded contracts. What determines an 
application's eligibility or ineligibility? Is that detailed 
with the tri-level screening that you just discussed?
    Mr. White. Well, no. The 63 projects that were approved----
    Mr. Bright. Sure.
    Mr. White.--okay, once you get that project, then the 
producers in there apply for EQIP. So that is where the 
applications come from. And we had enough funding available 
that first year to do 1,700 of them.
    Mr. Bright. Okay.
    One follow-up question, and we will change gears and 
directions. I want to ask you about the Wetlands Reserve 
Program, the WRP. And the WRP is another vitally program in my 
district, Alabama District 2. And several of my constituents 
have complained about a lack of transparency in the Geographic 
Area Rate Caps land valuation process and claim a 
discriminatory result based upon their county.
    My staff has been in contact with both the state and 
Federal NRCS staff, but we have not been able to make any 
progress in determining a solution to this issue.
    Furthermore, we have been informed that the counties 
claiming discrimination have been offered no recourse or path 
to appeal the land value they were given. And, for instance, 
specifically, two counties in the same region, neighboring each 
other, one county was given a $20 increase per acre and the 
other given over a $300 increase per acre for the same year. 
That concerns us, and we have asked for detailed explanations 
of that.
    It is my understanding that the 2008 Farm Bill included an 
appeals process for the Geographic Area Rate Caps land 
valuations, but it appears that recourse is, in certain 
circumstances, being denied at the state level. Can you 
elaborate on that a little bit? If you are aware of it, 
elaborate on it.
    Mr. White. I am more than aware of it, Mr. Bright.
    Mr. Bright. Okay, good.
    Mr. White. I have been contacted by your office, of course. 
You have taken a great interest in this.
    And this Geographic Area Rate Cap, which, of course, we 
call ``GARCs''--it sounds like something is caught in your 
throat--but there were errors made in Alabama in a couple of 
counties. I think the county's name was Lowndes?
    Mr. Bright. Lowndes County and Wilcox County, right. And 
one of the poorest counties in the nation, quite frankly.
    Mr. White. Yes, sir.
    Here is the solution. The State Conservationist is going to 
go back and redo those Geographic Area Rate Caps, okay?
    Mr. Bright. Good.
    Mr. White. So that is going to be redone. I will guarantee 
that Alabama, those producers in that county have enough 
acreage to allow them back, if they choose to, to move forward 
into WRP. There are enough acres in the cap that Congress gave 
us that we can do that. So any producer who felt that the 
amount kept them out will have that option in Fiscal Year 2010, 
which is what we are in. We are going to redo those GARCs.
    Mr. Bright. Thank you very much, Chief. And thank you for 
your testimony here and appearance here today.
    And, Administrator, thank you also.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Pennsylvania, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    Chief White, good to see you again.
    I want to follow up on the number of applications my friend 
from Alabama had talked about. And I know in your testimony you 
talked about the increase in applications compared to Fiscal 
Year 2008. And what is the Service doing to help accommodate 
the workload increase? Are there adequate staff and resources?
    Mr. White. You know, Mr. Thompson, the short answer is, no, 
we don't have adequate staff resources.
    The other--I mentioned the Streamlining Initiative. If we 
can move forward--we are going to start implementing some of 
that stuff in 2010--we are going to take some of the 
administrative burden away from those field people, which will 
have the effect of really adding more staff years.
    The second thing, Mr. Thompson, is we are turning the 
allocation process NRCS has used in the past on its head. In 
the past, you would appropriate the money, and what we would do 
is fund headquarters first. You know, you would fund the 
headquarters and the centers. And then they had these 
allocation formulas, and you would go to the state area and 
then finally get down to the local level.
    We are flipping that, Mr. Thompson. We have an initiative: 
We are going to fund the field first, so there is not one 
district conservationist, one soil conservationist, one 
technician out there that needs to worry about their job. I 
want them to worry about doing their job, not whether they have 
a job. So the people on the sharp edge of the sword will be the 
priority for funding, Mr. Thompson.
    And we think that if the budget passes as proposed, we will 
be able to actually get more money down to the field level and 
fill some of those vacancies that are critical. And there are 
some in your state that have been vacant for a long time, and 
we would like to see those people put back in place to service 
your producers.
    The other thing, if we can do this, is to expand our 
relationship with technical service providers and engage them 
more on this effort.
    Mr. Thompson. Okay. Well, I certainly applaud your efforts 
at increased efficiency. I mean, we need to do more of that, 
obviously, in government.
    You talked about removing administrative burdens and more 
efficiency. Is there an effort, then, to also do that for the 
producers, the end-users, in terms of the paperwork, the 
process, the fairly cumbersome administrative process? And at 
times, frequently, I hear a lot of comments about that. Are 
there efforts at improving efficiency there, as well?
    Mr. White. Yes, sir. I mentioned that is a part of the 
Streamlining Initiative. We want to make it easier for farmers 
and ranchers to apply, to check their status, to do things on 
their schedule, not our schedule. So that is a big part of 
this.
    Another big part of it is, with these technical service 
providers, to get them engaged where they can do more work. You 
know, we live in a security-conscious world, and we just don't 
let anybody into the USDA computer systems. But we have awarded 
a contract as part of this to affirm that it is going to do a 
plug-in, where a technical service provider can reach through 
the USDA system. And if you give that technical service 
provider, if they can get your records, pull them out do their 
plans, do their work, then they can go back and put them back 
in without breaching any security. We think that is going to 
have a huge impact as far as making that accessible and 
transparent to technical service providers.
    Mr. Thompson. That is great. I want to thank you.
    Mr. Coppess, you stated that with the declining commodity 
prices for wheat, corn, soybeans, other crops, interest in the 
CRP program is, again, accelerating. It does seem to me that 
some farmers enroll in the programs because they feel they have 
no other choice. And I would like to get your thoughts in terms 
of, are you aware of any instances where entering into 
conservation programs have had negative effects on the farm's 
overall productivity and profit?
    Mr. Coppess. I do not, as I sit here today, know of anybody 
that has had a negative impact on their farm or their operation 
from being in these conservation programs. And, frankly, we 
have seen a significant amount of interest, and it continues to 
grow. Producers see a lot of benefit out of it. CRP has done 
great wildlife enhancement and everything else that a lot of 
producers seem to really see the benefits of. I don't know of 
anybody that has complained in that regard.
    Mr. Thompson. Okay, thanks.
    And then just one additional question. Forestry has an 
important role in my district, a real significant industry. And 
you mentioned that the farm bill provided funding for tree 
thinning. And, in my view, tree thinning, thinning is a very 
important part of keeping a healthy forest, obviously, in 
forest management.
    Can you elaborate on those efforts and give us an update on 
how that is going?
    Mr. Coppess. Yes, the tree thinning provisions of CRP that 
came through the 2008 Farm Bill, the changes for that, have 
been implemented with the part of the regulation that was 
published in June of this year.
    So those processes are under way now. People are allowed to 
take advantage of the program and utilize it to help thin out 
forest, reduce forest fuel fire load, and improve the health of 
the forest stands.
    Mr. Thompson. Great. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from California, Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman.
    I have a number of questions, but I will continue from the 
discussion that Congressman Goodlatte had with you with regards 
to the EQIP program and the efforts on the 2008 Farm Bill.
    It is my understanding--and you, by your own testimony, 
stated that there was a tremendous demand, is that not correct?
    Mr. White. Yes, sir.
    Mr. Costa. Is it my understanding correctly that the 
Administration requested a reduction in the allocation as it 
was before the House Subcommittee on Appropriations?
    Mr. White. Yes, sir, I believe so.
    Mr. Costa. Why?
    Mr. White. Sometimes priorities collide, Mr. Costa.
    Mr. Costa. And which priorities were these colliding with?
    Mr. White. Yours and the Administration's.
    Mr. Costa. Well, I got that part. But what were the 
priorities?
    I mean, the only major legislation that I can think of in 
the last Congress that we all agreed on was the farm bill and 
enacted it. And I thought the Congress was pretty clear on 
those major items. And the area with the EQIP program was one 
of those areas that we had strong bipartisan support.
    And it just seems to me that--I would like to better 
understand where the Administration felt, where you felt, where 
the Secretary felt, that there was a higher priority than the 
money that we had determined that would be authorized for 
appropriations for the EQIP program?
    Mr. White. Yes, sir. That is a fair question.
    My sense would be that EQIP is over a billion dollars. It 
was felt that that is adequate to address the ongoing demand--
--
    Mr. Costa. How is it adequate if you are acknowledging that 
the demand was very wholeheartedly supported throughout the 
country and that the demand exceeded the amount of dollars 
available?
    Mr. White. Well, I was the State Conservationist in 
Montana. And, now, there is a backlog on EQIP with the 
applications----
    Mr. Costa. No, I understand. I am not interested in an 
anecdotal story. What I want to know is what priorities that 
you or the Secretary determined were a higher priority than the 
EQIP program that you were attempting--I mean, what you are 
telling me is you were shifting dollars. I mean, you had made 
an internal determination that it was more important to put 
dollars in another area--and I don't know what that other area 
was--and, therefore, you requested the reduction of the moneys 
allocated before the Subcommittee on Appropriations.
    Mr. White. I can speak to the issue that we felt that the 
EQIP funding was adequate. I cannot speak to what other issue 
had priority, whether it was child nutrition or what.
    Mr. Costa. Well, I would like you to provide a response to 
the Chairman and to the Subcommittee; I think that is 
appropriate. But I don't see how you can justify that the 
funding was adequate if, in fact, you said the request for the 
EQIP funding throughout the country far exceeded the dollars 
that were available. It is not logical.
    Let's move on. You were talking about the dollars available 
for water conservation. As you know, we have a horrific drought 
facing California. In my district, it is ground zero. We have 
unemployment numbers of 28 to 32 to 38 percent in some of our 
farm towns, and those are depression-like unemployment numbers.
    What additional effort can you point to that we can provide 
quick support for in water conservation that will be helpful?
    Mr. White. Well, as previously mentioned, the Ag Water 
Enhancement Program, we awarded----
    Mr. Costa. No. We are participating in some part of it. 
What additional support can you provide?
    Mr. White. Well, what I am saying is that, of the 63 that 
were awarded, 18 were in California. And they were to try to 
address that need.
    Mr. Costa. Are we going to be able to find some additional 
funding?
    Mr. White. Well, the whole AWEP thing we will see next year 
on who responds to those requests for proposals.
    Mr. Costa. Well, I am going to send you a letter as it 
relates to that area, because we are not doing enough. We are 
not doing enough. This Administration is not doing enough, in 
my opinion. And we are working closely with all of you to deal 
with the immediate crisis impacting the drought in California, 
and I just want you to understand that clearly. I appreciate 
those funds, the 18 projects that were awarded, but it is not 
enough.
    Mr. White. The other issue in your district--and I was in 
your district this past May as part of the Agriculture Air 
Quality Task Force. And you all have some photos there; one 
looks like a big cloud. That is the smog in the San Joaquin 
Valley.
    Mr. Costa. No, we are quite aware of that.
    Mr. White. And then you will see, also, some natural gas 
generators that have a whole cut in the block because these 
farmers, producers are under extreme regulation. And we put 
something like $24 million of the CIG(b) money into helping 
farmers comply with that.
    Mr. Costa. That is helpful. I appreciate it.
    My time has expired, but if there is another round, I would 
like to go back to those methane digester issues with regard to 
dairies.
    Thank you, Mr. Chairman.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Kansas.
    Mr. Moran. Mr. Chairman, thank you.
    Mr. Coppess, the most common complaint I receive from 
landowners and farmers in Kansas as it relates to CRP is the 
uncertainty of what FSA is going to do. Are there going to be 
extensions? When is the sign-up going to begin? And it seems to 
me that you all live, kind of, year to year at best. And 
farmers like to plan a lot longer than they are able to do 
under that scenario.
    You indicated in your testimony that there are 31 million 
acres of CRP, which is 1 million acres under the 32 million 
acre cap. You indicated that the President's budget includes a 
general sign-up in Fiscal Years 2010 through 2012, but you have 
to do your environmental impact statement, which won't be done 
until the summer of 2010.
    It seems to me that indicates there is no general sign-up 
until 2011, Fiscal Year 2011. What happens to the acres that 
are coming out and--I guess, what is the plan?
    Mr. Coppess. Right. Certainly, we will not be able to have 
a general sign-up until after the rule comes out, which would 
give us some time this summer or summer of 2010 to hold a 
general sign-up if, in fact----
    Mr. Moran. So a general sign-up is still possible in Fiscal 
Year 2010?
    Mr. Coppess. Yes, the potential is still there. The 
contracts then would be signed and go into place beginning 
Fiscal Year 2011, and payments out later that----
    Mr. Moran. When will you know whether there is a sign-up in 
2010?
    Mr. Coppess. Well, at this point, while we are waiting on 
the regulation to be published, we are evaluating that, as 
well. But we won't know or be able to put anything forward on 
our general sign-up until we have that part of the regulation 
out. And that, as you mentioned, is awaiting the EIS.
    So we are in an unfortunate time period of uncertainty, I 
understand that, until we get that out. And we are working to 
get that out as quickly as we can. In the meantime, we do have 
other tools, like CRP, like continuous sign-up, like SAFE 
Acres, that we are evaluating now how we can utilize those 
between now and that time period, as well.
    But a general sign-up is going to have to wait until we get 
the rule done.
    Mr. Moran. So, in the absence of a general sign-up, it is 
those other tools you would use as an extension. How about the 
million acres that were under the 32 million acre cap?
    Mr. Coppess. Right. Well, we did the extension for this 
year; we got a million acres back in, or thereabouts, through 
the extension process. Then, yes, the Secretary's goal and our 
goal was to use every bit of authority that we have now to keep 
us right up to that 32 million acre cap or as close as we can 
get, understanding we have to leave a little bit of it in 
reserve in case sign-ups go over estimates or whatnot, so we 
don't go above the gap. But our goal is to keep that as close 
as we can to 32 million acres in the program.
    Mr. Moran. One of the issues that landowners would love to 
get resolved is the issue regarding haying and grazing. And now 
we are haying and grazing once every 10 years instead of every 
3. That came about as a result of a lawsuit that didn't appear 
to me that USDA particularly fought hard.
    Is there any expectation we could return to the 3 year 
rotation?
    Mr. Coppess. As I sit here today, I don't know what we can 
do on the 3 year rotation. That is something we can look into 
as we work through this second part of the regulation. And we 
can hopefully provide you a better answer as we get that piece 
of it through.
    Mr. Moran. Do you see that as a desirable goal? Would you 
like to get back to the 3 years, or are you satisfied with 
where we are?
    Mr. Coppess. I wouldn't want to commit to getting back to 3 
years, understanding the history that has gone into it. I would 
like to think we can find a way to navigate that better, where 
we are addressing the interests of all the parties that have 
concerns about it.
    But going back to a 3 year, after everything that has 
happened at this point, I just am unable to commit to it at 
this point in time. But I do think it is something we can 
consider how we best utilize our authorities to get the 
conservation benefits out there, as well as work with the 
producers.
    Mr. Moran. Secretary Vilsack was in Nebraska with a town 
hall meeting in which he commented, when asked about CRP 
questions, as I understand what he said, that CRP is going to 
be replaced with CSP anyway; CRP is a program of the past.
    Is that a policy or is that something that USDA believes? 
What was the Secretary talking about?
    Mr. Coppess. No, sir. If I understand what he--and I wasn't 
there for the comments. As I understand it, what we are talking 
about is the ability, under the 32 million acre cap, we are 
trying to maximize the conservation benefits for the dollars 
and the acreage cap that we have with CRP. However, there are 
other programs throughout USDA, like CSP, that may be an option 
for the individual producer; if their land is expiring, they 
can look at CSP to continue to get conservation benefits but 
through a different program. So they are not programmatic.
    Mr. Moran. USDA intends that CRP is around for a while 
longer?
    Mr. Coppess. Absolutely. We fully support CRP and will 
continue to do so.
    Mr. Moran. Mr. White, my time has expired. But I want to 
thank you for visiting with me in my office about AWEP. I 
notice other Members of this panel have concerns about the 
program as well. I would remind you that, statutorily, language 
in the farm bill indicates that quantity has priority over 
quality. We had this discussion, and I want to make certain 
that I state it again for the record and would encourage you to 
get NRCS to approve a conservation practice for conversion of 
irrigated farmland to dryland farmland. It was a program that, 
this was a political compromise in the farm bill, and I was 
part of that compromise. And, as I indicated to you in our 
conversation, I am not sure that USDA understood or followed 
not only the letter of the law, but, certainly, the 
conversation that occurred in the farm bill discussions.
    I thank you for your time the other day, and appreciate 
your interest in helping solve water quantity problems, 
particularly as we try to preserve the Ogallala aquifer.
    Mr. White. Thank you, Mr. Moran.
    Mr. Moran. Thank you, sir.
    The Chairman. The chair thanks the gentleman, and 
recognizes the gentlewoman from Colorado, Ms. Markey.
    Ms. Markey. Thank you very much, Mr. Chairman.
    Yes. I represent northeastern and all of eastern Colorado, 
so I would like to continue a couple of questions on the CRP 
program, Mr. Coppess. I understand that FSA has been holding a 
series of meetings as part of your environmental impact 
statement process. Is that right?
    Mr. Coppess. That is correct.
    Ms. Markey. Can you tell the Committee what you are 
learning from these meetings and any concerns people have with 
the operation of the program? And then, more specifically, out 
of the just under 1 million acres that have accepted extension, 
where in the country are they located?
    Mr. Coppess. As far as what we are holding right now, these 
are public comment meetings that are part of the EIS. I don't 
have a summary of the comments or the concerns we have had. 
That will be part of what is rolled into the EIS as it is 
finalized and comes out in the final draft before the 
regulation. And we are certainly hearing a lot of interest in 
the program, continuing the program, and continuing the acreage 
up to the cap. But specific comments I don't have at this point 
in time, but we will have that as part of our final documents.
    As far as where are the million acres that are not in the 
program, I am not sure where those are distributed exactly 
throughout the country. We have certainly seen land that has 
expired pretty much throughout the country, and we have tried 
to get their enrollment. Are you discussing the extension 
acres?
    Ms. Markey. Yes. The extension.
    Mr. Coppess. I don't know if we have an exact breakdown of 
where the extension was, but we can get that for you, for your 
office here in writing and for the Committee.
    Ms. Markey. I have one other question. Are county 
governments able to utilize a 25 percent county acreage cap 
waiver authority yet? And, if not, when do you envision this 
authority being available?
    Mr. Coppess. The 25 percent acre cap is part of the 
second--part of the CRP that is requiring the environmental 
impact statement. So we will not have those regulations out 
until September of 2010 to be utilized thereafter.
    Ms. Markey. Thank you, Mr. Chairman.
    The Chairman. I thank the gentlewoman.
    I recognize the gentleman from Louisiana, Mr. Cassidy.
    Mr. Cassidy. A couple of things. I can't relate, I 
apologize, but in south Louisiana, historically the Mississippi 
River distributed as well as received tributes. Do you follow 
what I am saying? Kind of like the Federal Government. Now, 
part of our issue is, how do we restore in part the 
distribution of the sediment from the Mississippi River to 
rebuild our vanishing coastline? So my question is, in this 
initiative, is it elastic enough that we not only attempt to 
restrict sediment entering the river, but we also think 
imaginatively about restoring its distribution of sediment, 
which, by the way, would help our dead zone in the Gulf of 
Mexico by taking some of the nitrogen phosphorus and putting it 
out through marshes? Are you with me?
    Mr. White. Yes, it does.
    Mr. Cassidy. Second, I toured with the Army Corps of 
Engineers. And if it ever seems that the Federal Government is 
at cross purposes, sometimes it seems in the Mississippi, we 
certainly are. So is there any attempt to coordinate with the 
Corps, as they obviously are intimately involved with the 
coastline, to take this program and work with them so that it 
works for restoration as opposed to just being dumped out into 
the Gulf?
    Mr. White. Yes, sir. We are going to work with Interior, 
with the Corps, EPA, whomever wants to.
    Mr. Cassidy. Now, how is that process initiated? Is that 
inherent in this, or is it going to be dependent upon good-
minded people making phone calls? Or is there no, in this 
legislation, by golly, you show up or you are shot?
    Mr. White. No. We are not quite that strident.
    Mr. Cassidy. I have more confidence than that.
    Mr. White. The way we are set up is Louisiana is going to 
be pretty much in control of what gets done in Louisiana. So 
you are going to see, from northern Minnesota, it is going to 
look a lot different than what it is going to look in your neck 
of the woods. And where those watersheds are, the practices 
they use, things like that will be essentially under local and 
state control, and we will look for our State Conservationists 
down there to work with the Corps. I think they have a pretty 
good relationship with all this. You know, we spend a fair, 
goodly amount of money on hurricane cleanup.
    Mr. Cassidy. Can I give you a specific example and make 
sure, just to document in my own mind?
    Mr. White. Yes, sir.
    Mr. Cassidy. False River is an oxbow river which a thousand 
years ago was cut off from the Mississippi. Grosse Tete Bayou 
is a bayou which was formerly fed by the Mississippi River 
running over the land and going down to the Gulf of Mexico. 
Levees were built and the False River and Grosse Tete Bayou 
were cut off from the river. But there is still farming 
activity and sewage which dumps into Grosse Tete which then 
clogs that up and inhibits its flow.
    Now, it is part of the natural Mississippi River Basin, for 
but for 150 years, Pointe Coupee Parish means ``cut-off'' in 
French, and so it has been cutoff since the French discovered 
Louisiana.
    So I guess my specific question is, could we include that 
basin in this effort even though technically it is not 
connected with the Mississippi River?
    Mr. White. Yes, sir. It could be. If the State of Louisiana 
picks that as one of their watersheds, it would be. They are 
not restricted to, it has to be adjacent to. A lot of it could 
be----
    Mr. Cassidy. I was told by my Corps people or was told by 
Rob Wittman that the reason for the cross-budgeting in the 
Chesapeake Bay initiative is that sometimes EPA would have a 
program, the Corps would have a program, you would have a 
program, and there was no metric to establish the success. The 
cross-budgeting was specifically to force these agencies to 
have common metrics so that if the EPA program was benefiting, 
the Corps would know it, that sort of thing. And so I go back 
to another question.
    Aside from reassurances that everybody wants to do the 
right thing, do we need a formal mechanism in the Mississippi 
River that the Corps would absolutely, positively, on a formal 
basis, issuing joint reports, work with you to make sure that 
these projects maximize their benefit?
    Mr. White. No, sir. I don't think we need a directive to 
that. I think people working together, that is one of the 
priorities that Secretary Vilsack wants internally in USDA, for 
people, agencies to work across those silos we may have 
developed. And that applies to working with other Federal 
agencies as well.
    If it becomes an issue, we will get back to you. I think 
that we will have a cooperative working relationship with the 
Corps and others. Specifically to the restoration of the 
floodplain, part of this project is the Wetland Reserve 
Enhancement Program.
    Mr. Cassidy. I saw that. Now, does the state drive this, or 
do you drive it? I mean, is the state saying, Corps, show up, 
or do you say, Corps, show up? And I am not blaming it on the 
Corps. I am just trying to cut through the kind of, oh, my 
gosh.
    Mr. White. We work primarily with private land owners. You 
know, if you as a land owner want to enter your land, that is 
who we would work with. On a higher level, we would try to 
coordinate with other agencies to make sure that we are not at 
cross purposes.
    Mr. Cassidy. Okay.
    I yield back. Thank you.
    The Chairman. The chair recognizes the gentleman from Ohio, 
Mr. Boccieri.
    Mr. Boccieri. Thank you, Mr. Chairman. Two questions.
    First, for Mr. White, I noticed in your testimony, sir, you 
talked about the Great Lakes Restoration Initiative. I would 
like to hear, if you could, you expound on how you will partner 
with states like Ohio that have already taken initiative to do 
research with respect to what we are doing on Ohio State 
University and the funding stream that comes back to the 
states? What does that mean, and will you help offset some of 
the costs that have already been done by the states?
    Mr. White. Okay. My understanding is for the Great Lakes 
initiative, something like $475 million, and it is going to 
EPA. Well, we have worked with EPA. And if the appropriation 
passes and is signed into law, essentially we would get about 
$34 million of that in those eight states, and it would be 
disbursed in the various programs, like technical assistance, 
like EQIP, like the Farm and Ranch Land Protection Program. 
There are some of them. And we would look at the states, those 
eight states working together, to say, well, you need more 
EQIP; I need more WRP. And then we would work through our 
regular processes. And when I first heard about this, I was 
concerned about violating appropriations law, like we were 
augmenting what you all had appropriated. But there is a 
standard; there is some language that EPA has that we would not 
be violating appropriations law by adding money to EQIP, or 
WHIP, or whatever.
    Mr. Boccieri. Do you know, Mr. White, if any of those 
initiatives would include dredging? Is that something that 
would--there are some channels that come into the Great Lakes 
where we are finding that ships cannot pass.
    Mr. White. No, sir. We don't do that. The dredging 
activities are really in the province of the Corps of 
Engineers.
    Mr. Boccieri. Okay.
    Mr. Coppess, I apologize if this question has been answered 
already. But you said in your testimony, too, that the nation's 
largest carbon sequestration program has been conducted on 
private lands. Can you tell us how much has been sequestered, 
and what type of processes they are using?
    Mr. Coppess. Thank you, sir. I believe, as I understand it, 
about 58 million tons have been sequestered. And that is 
because you are taking--you are putting permanent cover on it, 
and those plants then sequester the carbon into the soil. I 
would be way out of my league if I tried to explain all the 
scientific bits that went into how they describe that. We have 
done some pretty significant analysis of it to get to that 
number.
    Mr. Boccieri. Are you teaming up with any agra businesses 
that have done this research?
    Mr. Coppess. That is a good question. I don't know exactly 
who all we work with, but I can try to find out if we have a 
list of those that we work with outside of the government on 
that.
    Mr. Boccieri. I would like to team with up with you. We 
have the Ohio State Research and Ag Research and Development 
Center in my district, and they are doing some remarkable 
research there. I would like to team up with you on that as 
well as make you aware of some of the things that Scotts is 
doing. They just opened another facility in my district, and 
they are from Ohio, Marysville, Ohio. They are doing some 
really neat stuff with carbon capture. So I would like to team 
up with you at some point.
    Mr. Coppess. Great. We would welcome the opportunity to 
work with you and the university. I know we do quite a bit with 
Ohio State, to continue those efforts and continue to team up 
on this. So I appreciate that.
    Mr. Boccieri. Thank you Mr. Chairman. I yield back.
    The Chairman. The chair recognizes the gentleman from 
Michigan.
    Mr. Schauer. Thank you, Mr. Chairman.
    And thank you both for your testimony. I am from Michigan, 
Michigan District 7, kind of the southern and central part of 
the state. Our story is probably similar to some other states 
but probably the worst of any, given our economy. Both of you 
in your testimony talked about working with local partners, 
state, county, and local. And our state budget has caused cuts 
to our land-grant university, Michigan State University, in 
some ways that help local farmers. Our county governments, that 
also fund conservation districts, have had to make tough cuts. 
So, the result is your partners are pretty severely weakened at 
the local level. I wonder if you can talk about that; if this 
title of the farm bill will help deal with that; or if we have 
given you the ability here in this Committee and in Congress to 
shore up local efforts so that agriculture isn't negatively 
impacted?
    Mr. Coppess. Thank you, sir. I think one of the best 
examples we have at FSA of working with local and state comes 
through the CREP programs, where the state and local folks 
actually target areas they need to work on, and then we get 
down there and work with them to make sure we are getting the 
conservation benefits for the dollar.
    It is certainly difficult, and the Chief mentioned all the 
efforts that he has under way as far as field staff and 
bolstering that. We are doing the same thing at FSA where we 
need to focus on our field staff to get more effort and more 
ability on the ground. I think that will help in the situation. 
Of course, we face limited budget problems as well and whatnot. 
So it is never easy to do, but we are trying as much as we can 
through the authorities that we have.
    I, sitting here today, wouldn't have anything additionally 
we would ask for at this time, but I think that we can better 
utilize what we have under CREP, under SAFE, under the public 
access programs, as we get that implemented to work with not 
just local institutions and entities, but continue to work with 
the farmers and groups of farmers that are interested in 
utilizing the programs that we have.
    Mr. White. Mr. Schauer, there are a lot of opportunities 
that you have provided in the 2008 Farm Bill that would allow 
us to work cooperatively with state agencies, local agencies, 
NGOs, whatever. In fact, there is kind of a directive there 
that we are to aggressively go out and seek technical 
assistance from sources where we may be deficient, like 
specialty crops. Your state has specialty crops, a lot of them. 
So we would look to form partnerships.
    Another example would be the dam rehabilitation that this 
Committee initiated several years ago on those old small 
watershed dams that may need to be fixed up. We are going to do 
a big assessment. I would like to see our states enter into 
cooperative agreements, like with the state dam safety 
officials, to get those engineers to come out, and we could pay 
a goodly portion of that cost. So there are opportunities with 
technical service providers, with NGOs, with local governments 
where we can, to the extent our funding allows, enter into 
agreements to get technical assistance for our producers.
    Mr. Schauer. Thank you both. I just wanted to make sure you 
are aware of the challenge that local communities are facing 
and farmers are facing on the grounds. So you have good people 
in our state, and I appreciate you making sure they are aware 
and they are innovative as they are trying to support 
agriculture. Thank you.
    The Chairman. I thank the gentleman.
    Chief White, in reference to the CSP program, with the 
sign-up, how many do you think are viable? And, specifically, 
do you think all 33 million acres will result in contracts?
    Mr. White. No. We have the statutory limitation of 12.8 
million acres are what we can enroll. And that would be like 
your Fiscal Year 2009 enrollment. It does have a continuous 
application process. We take an application right now. We are 
hoping to have the next batching or cutoff date like in 
January. So what we don't get this time would be eligible again 
for ranking in January. And depending on what we get then, we 
may do another one later on, or we may defer to 2011 when we 
would have the new authority for another 12.8 million acres.
    The Chairman. What about the viability, though, of the 
people that sign up? The sign-up, what do you think of, is that 
viable? What do you think about that?
    Mr. White. Mr. Chairman, I was really pleased.
    Now, obviously, with 21,000 applications, I don't have the 
depth of detail or what kind of enhancements folks are looking 
at as you would move from Maine to Hawaii. So we will have a 
better sense of that once we look towards the end of this month 
when they are ranked. But, one of the key things that the House 
did during the conference on the farm bill was the bar, the 
entry bar for the Conservation Stewardship Program. The House 
was arguing that a producer should only have to meet one 
resource of concern. I think the Senate was higher. And the 
conference committee went with the House proposal, and I think 
that opened it up to a lot more people. And, hence, we have had 
a lot more interest. And a lot of that came from this 
Committee.
    The Chairman. Thank you.
    I know Mr. Costa has a follow-up question. Does anyone on 
the minority side have a follow up?
    Mr. Costa.
    Mr. Costa. You were talking, Mr. White, I believe about the 
methane program and the participation of dairies around the 
country. Specifically, it is my understanding, with a number of 
pilot projects that I am familiar with in the San Joaquin 
Valley, that they were participating. I don't know what the 
split was in terms of utilization of both state and Federal 
funds. But because, as you noted in your other comment, that we 
have indeed air quality problems as a nonattainment area, the 
air board indicated issues with these various methane digester 
pilot projects, and there have been challenges in terms of the 
continued operation of those.
    One, are you aware of that? And two, if you are not, I 
would like you to look into it. Because, my question is this: I 
don't want the funding to be in jeopardy to the degree that 
those that have been able to participate as we are looking at 
Agriculture's role to play a part in renewable energies, if you 
have other challenging circumstances, that we can be able to 
continue that funding if we can work through that.
    Mr. White. Mr. Costa, I had heard there were some issues 
with methane digesters in the Valley. Is it NO<INF>X</INF>? Is 
it methane? Do you know what the compound is that is causing 
these?
    Mr. Costa. My understanding is that it was NO<INF>X</INF> 
and methane, both.
    Mr. White. I will follow up on it. And can I get back to 
you on that?
    Mr. Costa. Sure.
    Mr. White. Because that is an issue, because you would 
think that you are producing green energy and you are taking a 
waste product and turning it into energy, and it would be too 
bad if that is causing an air quality issue that would shut you 
down.
    Mr. Costa. Well, we have certain requirements both by the 
Federal EPA and the state EPA to achieve certain standards, 
both with stationary sources of emissions and mobile sources of 
emissions. We have done a tremendous job, I believe, in 
ratcheting down those stationary sources of emissions. The 
PM<INF>10</INF> level has gone from PM<INF>10</INF> to 
PM<INF>2.5</INF>. So it is a tremendous effort that is taking 
place. But I concur with your comment, but the air board is 
still trying to figure out how they live with both the Federal 
and the state requirements based upon the fact that we are a 
nonattainment area.
    Mr. White. And your ranchers and farmers are doing some 
cool stuff. We are cost-sharing on a sprayer that would go 
through an orchard, actually kind of a sonar radar device that 
would turn the sprayer on and off. It could read where there is 
a tree there. We can see a 40 percent reduction in the volatile 
organic compounds just from that. So your producers are making 
some tremendous things.
    Mr. Costa. They are doing a good job. But under the 
category of no good deed goes unpunished, I would like you to 
get back to me on the other item.
    Mr. White. Yes, I am familiar with that category.
    If I could, on this drought thing, one of the people 
sitting behind me is your California State Conservationist, Ed 
Burton. And California gets about $58 million a year in EQIP, 
and he took $3 million of that, and we were able to provide him 
with another $1 million, and they did a special thing just to 
help your drought-impacted producers.
    Mr. Costa. I understand. We have lost about $1 billion so 
far this year. We need more help.
    Mr. White. It is amazing. It is stunning. When you and Mr. 
Cardoza and Ms. Boxer on the 2008 Farm Bill were first talking 
about this air quality money, I will be honest with you, I 
thought it was kind of goofy until I saw it out there and I saw 
what those producers actually--how they were regulated and what 
was happening to them. And now I am a believer.
    Mr. Costa. Thank you.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Kansas, Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you.
    I just wanted to follow up with Mr. Coppess. Again, in 
2010, if you are unable to do a general sign-up, there is a 
significant number of acres then coming out in 2010. What is 
the plan for those acres?
    Mr. Coppess. Correct. If we cannot do a general sign-up in 
2010, again, I go back to the tools we have available. We used 
extensions in the past to get some of those acres re-enrolled. 
We would evaluate that again. We would look at CREP, the 
Conservation Reserve Enhancement Program, that continuous sign-
up acreage potential, targeting certain initiatives. We are 
currently evaluating a series of these different initiatives 
that we might be able to undertake even now to take care or to 
get at what looks to be about 700,000 acres that are under the 
cap.
    So we want to continue to push all of our authority to 
utilize each bit of that so we get ourselves as close to the 
cap as we possibly can. So, there, we have used extensions in 
the past. We have SAFE. We have CREP, continuous sign-up. 
Anything under there. And, of course, we welcome suggestions of 
other ways that, if your producers think there might be a way 
that we could utilize that existing authority and address the 
needs out there, we would welcome the suggestion.
    Mr. Moran. But none of that we are going to know until you 
determine or when it is determined, when the environmental 
impact statement is going to be completed. Is that where we 
are? I mean, we cannot tell producers or land owners what is 
going to happen until we know the time-frame of the completion 
of the environmental impact statement. Is that right?
    Mr. Coppess. Just on the general sign-up. SAFE, CREP, 
continuous. We can utilize the authority we have now to get 
those pieces moving.
    Mr. Moran. But you are not going to need those authorities 
if the environmental impact statement is complete and you are 
doing a general sign-up?
    Mr. Coppess. We would like to be able to still continue to 
utilize those tools as well if we do a general sign-up. And 
then our goal is to have out, to roll out a plan in the near 
future that we can explain to farmers what we can do, and kind 
of to target some of these initiative areas under the existing 
authority. So they are not mutually exclusive. In fact, general 
sign-up, if we do it, we continue to do SAFE and the others.
    Mr. Moran. What is the status of the environmental impact 
statement now?
    Mr. Coppess. It is in draft form. We are holding a public 
comment period or holding public meetings under this comment 
period. That actually ends Friday, October 9. And from that 
point on, and we take in all the comments on the various 
alternatives that have been proposed by the company doing the 
EIS; we take those in, evaluate them. From that, we then draft 
the final EIS, which goes through that evaluation process, 
publish that. And then once the final EIS is out, then we can 
get the reg published immediately thereafter. In fact, we are 
working on writing the regulation as we understand the 
information coming in.
    Mr. Moran. And you have penciled out the time-frame for 
this process to be completed then. When is that?
    Mr. Coppess. Right. As it stands now, the EIS would be 
published in June of 2010. And then that will give us a week or 
so after that, depending on how things go, we would then have 
the regulation out.
    Mr. Moran. Mr. Chairman, thank you.
    Thank you, Administrator.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Missouri, Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Chairman, my question is regarding EQIP in the farm 
bill. We stipulated that 60 percent of EQIP dollars are 
supposed to go to livestock producers, livestock practices, and 
I was just curious how the Administration intends to get there, 
and how you intend to maintain that once you get there.
    Mr. White. Yes, sir, Mr. Graves. We achieve that on a 
national basis. We continue, our plan is to continue what has 
been done since 2002. We are not going to make any changes in 
that. Basically, it has worked out really quite well on a 
national basis. You have states like Wyoming who value--they 
are going to spend 95 percent on livestock-related practices. 
You have other states that won't meet it. But, nationally, we 
have always been able to maintain that 60 percent, and we will 
continue to do so.
    Mr. Graves. I think it is important there is some concern 
out there, but we want to make sure we will hit that.
    The Chairman. The chair thanks the gentleman.
    Any further follow-up questions? If not, the chair thanks 
the witnesses for their testimony today.
    And Chief White, we look forward to your response to the 
question from Mr. Goodlatte and from Mr. Costa dealing with 
EQIP.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional materials and supplementary written responses from 
the witnesses to any questions posed by a Member. This hearing 
of the Subcommittee on Conservation, Credit, Energy, and 
Research is adjourned.
    [Whereupon, at 11:34 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      
                  Submitted Letter by Hon. Tim Holden
September 8, 2009

Hon. Tom Vilsack,
Secretary,
U.S. Department of Agriculture,
Washington, D.C.

Farm and Ranch Lands Protection Program
Docket number NRCS-IFR-08013

    Dear Secretary Vilsack,

    We have all submitted comments on the Interim Final Rule on the 
Farm and Ranch Lands Protection Program (FRPP) and understand that 
those comments will be considered as the USDA Natural Resources 
Conservation Service (NRCS) makes further changes to the Rule. However, 
in addition to those comments, which reflect differences in 
agricultural practices and regional perspectives, this letter is our 
joint expression over key, common issues. In short, we ask that NRCS 
give the states maximum discretion to implement FRPP as Congress has 
now directed.
    Simply put, protecting farmland for future agricultural use is of 
utmost importance to every citizen of the United States. Going as far 
back as the late 1970's, our states and commonwealths have taken action 
to protect farmland so critical to maintaining the future viability of 
our agricultural sectors and rural communities. To date, the 
undersigned states are responsible for over 70% of all the acreage 
protected under state farmland protection programs. Since 1995, we 
acknowledge the important contribution of FRPP as a partner in our 
mutual efforts, with our states receiving 53% of all funds distributed 
by the program. We welcome NRCS as our partner and offer our 
perspective to improve the quality, efficiency and effectiveness of 
FRPP.
    Unfortunately, we believe that the current Docket proposal does 
little to correct serious problems that undermine the purposes of the 
Food, Conservation, and Energy Act of 2008 (the 2008 Act) as they 
relate to the Federal matching fund program to support the acquisition 
of conservation easements on farmlands. The expectation among state 
farmland protection programs was that the 2008 Act would open the door 
to a more streamlined and effective Federal program with deference to 
state interests. The two Docket proposals issued this year do not 
accomplish that result and we conclude they will perpetuate the 
obstacles to providing matching funding, which predated the 2008 Act 
and which have served to frustrate and prevent greater state level 
participation. These expectations derive from the Congressional record 
and statutory amendments contained in the 2008 Act. We believe these 
can be summarized as: FRPP was changed from a Federal real estate 
acquisition program to a program that facilitates financial assistance 
to non-Federal entities for conservation easement acquisitions; and, 
FRPP was expanded beyond the purpose of protecting soils to protection 
of agricultural use and related conservation values.

Contingent Right of Enforcement
    We commend USDA on its clarification of the contingent right of 
enforcement and decision to eliminate FRPP title standard requirements. 
However, we urge USDA to not only eliminate title standard requirements 
for cooperative agreements signed in 2009 and beyond, but to waive the 
requirements for projects that remain under 2007-2008 cooperative 
agreements. Further, we recommend that the Final Rule or FRPP policy 
manual allow flexibility in the wording of indemnification and 
environmental warranty language to address entity concerns and reduce 
conflicts with state laws and constitutions. Where conflicts cannot be 
reconciled, USDA should allow a waiver of the requirement.
    Lastly, because of USDA's changed interpretation of the contingent 
right of enforcement, we urge USDA to re-evaluate all elements of the 
Interim Final Rule, policy manual and template cooperative agreement 
for their consistency with the new interpretation. Since USDA is no 
longer acquiring a Federal property interest but facilitating the 
purchase of easements by FRPP partners, USDA must also consider whether 
other aspects of program implementation that were predicated on the 
earlier interpretation should be modified accordingly. In our 
individual comments, we have suggested specific NRCS policies and 
procedures which should be re-evaluated.

Certification
    We strongly recommend that USDA develop a meaningful certification 
process that provides significant and valued return to those entities 
achieving certified status. Eligible entities should be allowed to 
apply for certification. Certification criteria should include an 
entity's experience with agricultural conservation easement 
transactions (not just with FRPP projects), capacity to complete 
acquisitions in a timely fashion and to effectively monitor and enforce 
easement terms, and the necessary appraisal and title procedures to 
safeguard the public's investment in the program. Once an entity is 
certified, the following should apply:

  <bullet> Certified entities should be entitled to use their own 
        easement terms and conditions without limitation, and be 
        permitted to include or reject USDA language on indemnification 
        and environmental warranty at their option;

  <bullet> Certified entities should be entitled to use their own 
        project criteria and selection process;

  <bullet> NRCS title reviews of projects being done by certified 
        entities would no longer be necessary;

  <bullet> Appraisals would need to be consistent with state standards 
        and undergo review by the respective agencies. Appraisal 
        reviews at the Federal level have proven to be a major obstacle 
        to program implementation, therefore, NRCS appraisal reviews of 
        projects being done by certified entities would no longer be 
        necessary;

  <bullet> NRCS hazardous materials records searches, landowner 
        interviews and site visits would not be necessary.
Easement terms and conditions
    Every entity should be allowed an opportunity to negotiate with 
NRCS over the terms and conditions of their template conservation 
easement deed, and NRCS should defer to that entity's terms and 
conditions unless they fail to satisfy the three statutory requirements 
of Section 1238I(g)(4). While it is reasonable to give the Chief 
discretion to create standard minimum conservation deed requirements 
(Section 1491.22), such requirements should be limited in scope to 
ensuring that an entity's easement terms and conditions meet those 
three statutory requirements. Further, certified entities should be 
exempt from any minimum deed requirements.

Forest management plans
    We strongly recommend that the rule be revised to eliminate the 
requirement for a forest management plan. With regard to the IFR's 
assertion that a forest plan is needed to document forest land 
eligibility, we note that the rule essentially continues the program's 
current requirements related to forestland eligibility-namely, that 
forest land may not constitute greater than \2/3\ of the easement area. 
We believe that eligibility determinations could be made in a number of 
different ways, one of which might be a forest management plan. A 
second method might be proof of the land's enrollment in a state's 
current use or forestry assessment program. A third might be submission 
of sales receipts or tax returns. Another might be certification by the 
State Forester as provided in many use value assessment laws. 
Therefore, we recommend that NRCS allow multiple means for providing 
forest land eligibility under this category, not just through a forest 
management plan, and recommend that state NRCS offices be given the 
discretion to tailor guidelines regarding forest land eligibility to 
the circumstances present in that particular state.

Impervious Surfaces
    We believe that the only appropriate role for USDA with respect to 
impervious surfaces is to ensure that eligible entities include in 
their deed of easement an impervious surfaces limit that is 
``consistent with the agricultural activities to be conducted'' under 
the easement. Because this is a determination that is best made at the 
state or local level, the appropriate standard should be left to the 
eligible entity to develop. We recommend that USDA allow as permissible 
impervious surfaces limits those that do not set numerical limits but 
provide for a review and approval process for agricultural structures. 
We welcome the contribution of our individual State Conservationists in 
the development of appropriate limits and standards.

National ranking consideration and proposal selection
    We recommend that USDA waive national ranking criteria for eligible 
entities that can demonstrate that they have well-established program 
criteria for scoring or ranking farmland protection projects, developed 
with meaningful stakeholder input. Such a waiver should certainly be an 
element of any certification process. If such a waiver were instituted, 
we recognize that NRCS may need to compare projects within a state from 
entities for whom the national ranking criteria has been waived and for 
those for whom it has not. Accordingly, we suggest that NRCS identify 
broad categories of ranking criteria that must be considered by 
eligible entities in their criteria and selection process. USDA's own 
LESA (Land Evaluation and Site Assessment) model can provide guidance 
on criteria. These categories would ensure consideration of a common 
set of resource and location issues such as soils, land type, farm 
size, development pressure and proximity to other farms and protected 
lands without imposing the specificity of nationally applied criteria 
on experienced entities as now envisioned by NRCS.
    In closing, we appreciate your consideration of each of the issues 
outlined above and we request an opportunity to meet with you via a 
conference call to discuss these matters in more detail. We have asked 
the American Farmland Trust to work with NRCS Chief Dave White on 
arranging an opportunity for us to speak with you in the very near 
future. Thank you.
            Sincerely,

            [GRAPHIC] [TIFF OMITTED] T1131.014
            




F. Philip Prelli, Commissioner,      Ed Kee, Secretary,
Connecticut Department of            Delaware Department of Agriculture;
 Agriculture;


                                     [GRAPHIC] [TIFF OMITTED] T1131.015
                                     




Seth H. Bradstreet III,              Earl F. Hance, Secretary,
 Commissioner,
Maine Department of Agriculture,     Maryland Department of Agriculture;
 Food and Rural Resources;


                                     [GRAPHIC] [TIFF OMITTED] T1131.016
                                     




Scott Soares, Commissioner,          Don Koivisto, Director,
Massachusetts Department of          Michigan Department of Agriculture;
 Agricultural Resources;


                                     [GRAPHIC] [TIFF OMITTED] T1131.017
                                     




Lorraine S. Merrill, Commissioner,   Douglas H. Fisher, Secretary,
New Hampshire Department of          New Jersey Department of
 Agriculture, Markets and Food;       Agriculture;


                                      [GRAPHIC] [TIFF OMITTED] T1131.018
                                      




Patrick Hooker, Commissioner,        Mark Forni, Deputy Director,
New York Department of Agriculture   Ohio Department of Agriculture;
 and Markets;


                                     [GRAPHIC] [TIFF OMITTED] T1131.019
                                     




Dennis Wolff, Secretary,             W. Michael Sullivan, Ph.D.,
                                      Director,
Pennsylvania Department of           Rhode Island Department of
 Agriculture;                         Environmental Management;


                                      [GRAPHIC] [TIFF OMITTED] T1131.020
                                      




Kenneth D. Ayars, Chief,             Roger Allbee, Secretary,
Rhode Island Division of             Vermont Department of Agriculture,
 Agriculture;                         Food and Markets;


                                      [GRAPHIC] [TIFF OMITTED] T1131.021
                                      




Gustave Seelig, Executive Director,
Vermont Housing and Conservation
 Board.

Cc:

Dave White, Chief, Natural Resources Conservation Service;
Jon Scholl, President, American Farmland Trust.


                                 ______
                                 
  Submitted Letter by Hon. Tim Holden; on Behalf of Steve Moyer, Vice 
           President for Government Affairs, Trout Unlimited
October 16, 2009

Hon. Tim Holden,
Chairman
Subcommittee on Conservation, Credit, Energy, and Research,
Committee on Agriculture,
Washington, D.C.

RE: Public Hearing to review the implementation of the conservation 
title of the 2008 Farm Bill

    Dear Rep. Holden,

    Trout Unlimited submits the following letter for the record. Farm 
Bill conservation programs are critical to the success of TU's 
collaborative restoration programs on agricultural land. In the Potomac 
River Headwaters of West Virginia, TU has worked with landowners to 
install livestock exclusion fencing and revegetate streambanks on 
dozens of miles of brook trout streams with the help of the Natural 
Resources Conservation Service. In the Driftless area of the Midwest, 
TU has helped direct $900,000 of WHIP funds to on-the-ground habitat 
restoration projects that benefit aquatic species and advance the goals 
of the National Fish Habitat Action Plan's Driftless Area Partnership. 
In addition, more than $1.75 million will be invested in EQIP and WHIP 
contracts in the Driftless area over the next 5 years thanks to a 
Cooperative Conservation Partnership Initiative grant secured by TU. We 
wish to highlight these on-the-ground conservation successes made 
possible by the farm bill.
    We also suggest some changes that would enhance the effectiveness 
of farm bill conservation programs. The Cooperative Conservation 
Partnership Initiative grant mentioned above will have a tremendous 
benefit for the lands and waters of the Driftless Area. The impact of 
the grant could be further strengthened, however, if a portion of the 
grant could be used for staff or administrative support. The time spent 
cultivating landowner participation and providing assistance during 
project implementation is an essential component of a successful 
project.
    Two other factors hinder the effectiveness of farm bill 
conservation programs. One is the new payment cap under WHIP ($50,000 
per individual or legal entity per year). This cap unnecessarily 
restricts our ability to complete habitat restoration projects in 
cooperation with some landowners. The other is narrowing the WHIP 
program's eligibility to only private agricultural lands, nonindustrial 
private forest lands and Tribal lands. Allowing for at least a small 
number of strategically-located projects on private nonagricultural or 
on state or local public lands, as WHIP allowed prior to the 2008 Farm 
Bill amendments, served the program and the nation well. These problems 
could be addressed by enabling the Natural Resources Conservation 
Service to use a waiver for special cases in order to implement 
outstanding conservation projects.
    Thank you for considering our input. Farm Bill conservation 
programs have long been a powerful resource for advancing TU's mission 
to conserve, protect and restore North America's trout and salmon 
fisheries and their watersheds. Thanks to your good work on the 2008 
Farm Bill these programs will continue to benefit fish, wildlife, and 
local communities for years to come.
            Sincerely,

            [GRAPHIC] [TIFF OMITTED] T1131.022
            
Steve Moyer.
                                 ______
                                 
                          Submitted Questions

Responses from Jonathan W. Coppess, J.D., Administrator, Farm Service 
        Agency, U.S. Department of Agriculture
Conservation Loan Program
    Question 1. The loan program was authorized to receive money in the 
FY2010 approps bill. Are there rules ready to go to carry out a program 
for FY10? How are you going to proceed with implementation?
    Answer. Proposed regulations to implement the conservation loan 
program are currently in the Agency clearance process. We project the 
final regulations for the conservation loan program will be in place by 
late summer 2010. FSA will begin processing conservation loan 
applications as soon as final regulations are in place.

    Question 2. Will FSA work with NRCS to make sure conservation 
projects are being authorized and implemented?
    Answer. Yes; any project funded with a conservation loan must be 
part of a plan approved by NRCS. FSA will work closely with NRCS and 
loan applicants to assure that projects are approved, funded and 
completed.

    Question 3. Do either of you see any demand for a direct and 
guaranteed loan program to carry out conservation practices?
    Answer. Yes, we anticipate that there will be demand for this 
program. The statute makes the program available to any size producer, 
even if credit is available from other sources. This is important, 
because although conservation projects are valuable in a public sense, 
they do not always provide an economic return to the producer. As a 
result, sometimes producers and their lenders are reluctant to finance 
large, expensive projects. The conservation loan guarantee program will 
reduce some of the perceived risks for lenders and allow them to offer 
better credit terms for conservation project financing. The direct loan 
portion of the program will include more favorable financing terms that 
will improve the economic viability of some projects for producers.
Grassland Reserve Program
    Question 4. In the past, both agencies shared some responsibility 
for this program. Is this still the case? If so, what are the roles of 
each agency and how do you work together?
    Answer. Yes, both FSA and NRCS share responsibility for GRP and the 
specific roles and responsibilities are defined in the MOU. NRCS is 
responsible for administering the easement acquisition process, while 
FSA is responsible for rental contracts and payments. NRCS provides 
leadership on regulation, and provides all on the ground technical 
assistance for both easements and rental contracts. FSA manages 
Financial Assistance funds, which includes making payments for rental 
contracts and easement acquisition. Both agencies collaborate on policy 
and day to day program management.

    Question 5. We made some significant changes to GRP. Have there 
been any surprises during implementation?
    Answer. Demand for GRP remains strong, both for rental contracts 
and easements. Only 4 eligible entities enrolled grasslands in FY 2009 
using the new Cooperative Agreement option.

    Question 6. We made some changes to the calculation of the 
appraisal process for some easement programs. How many appraisals were 
conducted for GRP? How has NRCS been calculating the appraisals? Is the 
valuation fair?
    Answer. Option Agreements to Purchase and Cooperative Agreements 
were just signed for FY 2009 GRP easements enrollments. Twenty-eight 
states used geographic caps and appraisals or area-wide market surveys 
are currently being contracted this fall for the majority of the 68 
easements funded to complete the new compensation process. Appraisals 
shall comply with the Uniform Standard of Professional Appraisal 
Practice.

    Question 7. The 2008 Farm Bill split the amount of short term 
contracts and long term easements. Which option has been the most 
popular?
    Answer. Both easements and rental contracts had higher demand 
nationally than funding allowed us to purchase. The 60/40 split was 
managed nationally to provide States flexibility to fund the highest 
quality grasslands. Forty-one States utilized rental contracts while 30 
States enrolled easements.
Conservation Reserve Program
    Question 8. FSA has been holding a series of meetings on CRP as 
part of your Environmental Impact Statement process, correct? Are you 
able to tell the Committee what you're hearing about the future of CRP 
and any concerns about the operation of the program at these meetings?
    Answer. During the four weeks beginning September 14 and ending 
October 9, FSA conducted public meetings in the following nine 
locations: Spokane, WA; Great Falls, MT; Moorehead, MN; Manhattan, KS; 
Springfield, IL; Oklahoma City, OK; Clovis, NM; Albany, GA; and 
Harrisburg, PA. Over 400 interested members of the public attended 
these nine meetings. As part of this public meeting process, an open 
public comment period was established and closed on October 19. The 
comments are being catalogued and will become part of the 
administrative record for the Environmental Impact Statement as part of 
the NEPA process.
    The vast majority of the comments received thus far during this 
open public comment period were very favorable to the CRP program as a 
whole. Program participants, agencies, and NGOs recognize the great 
benefits that CRP has produced over the last 20 years in protecting 
valuable soil, water quality and wildlife habitat. Most comments are in 
favor of raising the acreage limitation to the pre-2008 Farm Bill total 
of 39 million acres or even increasing this to 40 million or more. Many 
program participants expressed that participating in CRP is the most 
beneficial use of their more marginal lands, both economically and 
environmentally.

    Question 9. It is my understanding that for several CRP practices, 
some states are at or close to their limit on acres for these 
practices, such as Upland Bird Buffers (CP-33) and State Acres for 
Wildlife Enhancement (``SAFE acres'' or CP-38). Can you tell us the 
status of these two practices in terms of acres available nationwide 
and which states may be close to or at their limits and whether you're 
looking at providing additional acreage to those states?
    Answer. Interest in the Upland Bird Buffers (CP-33) initiative 
remains very strong. The initiative has a national cap of 250,000 
acres. The acres were initially allocated to the States based on 
expected enrollment. Subsequent re-allocations have occurred, as 
requested by States. However, the CP-33 initiative is close to reaching 
it National cap. Several States are at, or near, their State enrollment 
caps, including IA, MO, NE, SD, TX and TN.
    The SAFE initiative has been very successful in several parts of 
the U.S. The initiative has a national cap of 500,000 acres. Currently, 
several States have pending offers that, if approved, exceed the 
project allocations. FSA currently has several requests for allocation 
increases. They are:

------------------------------------------------------------------------
        State                    Project               Acres Requested
------------------------------------------------------------------------
     Mississippi               Bobwhite Quail                  5,000
    South Dakota         Western SD Grassland                 20,000
     Puerto Rico            Puerto Rican SAFE                    500
      Washington       Sage Grouse/Sharp Tailed               50,000
                                 Grouse (NEW)
           Idaho       Columbian Sharp-Tailed                 20,000
                                       Grouse
        Nebraska                  Upland Bird                  5,000
    North Dakota       SAFE Habitat for Pheasants             20,000
         Georgia       GA Restoring Native Pine                5,000
                                      Savanna
            Iowa          Gaining Grounds for                 10,000
                               Wildlife in IA
                                                   ---------------------
  Total..............                                        135,500
------------------------------------------------------------------------

    FSA is actively exploring options to increase the numbers of acres 
available for SAFE. However, increasing acres for SAFE and CP-33 would 
be subject to administrative PAYGO.

    Question 10. Can you tell us when the next general CRP sign-up will 
be held?
    Answer. The FY 2010 President's Budget assumes there will be a 
general signup in Fiscal Year 2010. However, a date has not been 
scheduled yet for the next general signup. The Secretary will decide 
when to conduct a signup or signups as he deems appropriate.

    Question 11. Where do things stand with implementing the transition 
incentives for Beginning and Socially Disadvantaged Farmers for 
expiring CRP acres?
    Answer. The Transition Incentive Program is currently included in 
the Environmental Impact Statement process for the second part of the 
CRP regulation and we expect it to be completed in the Spring of 2010. 
We are actively exploring interim approaches to ensure that beginning 
and socially disadvantaged farmers can get utilize this important 
opportunity.

    Question 12. Out of the 985,527 acres who have accepted the 
extension, where are they located?
    Answer.

            Status of 9/30/2009--Expiring General Signup CRP
                      Data as of 9/30/2009 (Acres)
------------------------------------------------------------------------
                       Originally
       State         Expiring 9/30/    Extended 3 or 5    Expired 9/30/
                          2009              Years            2009 a
------------------------------------------------------------------------
       Alabama              43,007             9,729            33,278
        Alaska               1,544               673               871
      Arkansas               9,976             3,361             6,615
    California               4,216             1,521             2,695
      Colorado             719,452           309,102           410,350
      Delaware                 553                 0               553
       Florida               4,348               866             3,482
       Georgia              31,257             6,372            24,885
         Idaho              62,188            15,689            46,499
      Illinois              32,216             5,221            26,995
       Indiana               9,492             1,681             7,811
          IOWA              88,458             8,252            80,206
        Kansas             425,120            93,837           331,283
      Kentucky               9,979             1,312             8,667
              Louisiana      7,819             1,807             6,012
         Maine               1,195                 0             1,195
     Minnesota              61,122             5,342            55,780
   Mississippi              50,921            14,854            36,067
      Missouri              40,096             9,471            30,625
       Montana             197,509            58,199           139,310
      Nebraska             151,835            36,129           115,706
    New Jersey                  13                 0                13
    New Mexico              40,840            12,365            28,475
      New York               2,182               164             2,018
North Carolina               7,573             2,698             4,875
  North Dakota             219,923            32,972           186,951
          Ohio              10,299             1,355             8,944
      Oklahoma             159,579            57,362           102,217
        Oregon              20,312             5,960            14,352
  Pennsylvania               4,822               330             4,492
South Carolina              27,314             8,936            18,378
  South Dakota             232,593            42,699           189,894
     Tennessee              12,791             4,010             8,781
         Texas             779,899           214,167           565,732
          Utah              64,792            14,689            50,103
      Virginia               3,133               525             2,608
    Washington              98,219            20,873            77,346
 West Virginia                 121                 0               121
     Wisconsin              36,359             6,186            30,173
       Wyoming              97,372            35,017            62,355
                   -----------------------------------------------------
  Total...........       3,782,683         1,044,610         2,738,073
------------------------------------------------------------------------
a Lands that were not offered or that declined the extension offer.


    Question 13. How many states currently have a CREP? How many are in 
the pipeline for approval? How many acres would be added to CRP if all 
the states wanting a CREP were approved?
    Answer. There are 43 agreements across 32 States.
    South Dakota has a new CREP Agreement that was signed by the 
Governor on October 9. FSA is currently evaluating Addendums to current 
agreements in three other States (Colorado, Indiana, and Washington).
    Upon approval of the four Agreements mentioned above, a total of 
155,000 acres would be added to CREP.
    There are three States that have expressed an interest in 
submitting a new CREP Agreement (Colorado, Ohio, Pennsylvania,) and 4 
States that have indicated an interest in modifying their current 
Agreement (Idaho, Illinois, Kansas and Wisconsin). None of these states 
have yet submitted formal proposals.

    Question 14. You mention in your testimony 596 acres for the 
Aquaculture Wetland Restoration practice and 75 acres for the Flooded 
Prairie Wetland practice. Does this exceed expectation or was the 
signup less than expected?
    Answer. The program began in July. FSA believes it is too early to 
assess if enrollment has met expectations.

    Question 15. You mention in your testimony CRP is the nation's 
largest carbon sequestration program on private lands. Do you have any 
data on the amount sequestered or have that data broken down by state 
and practice?
    Answer. CRP is estimated to reduce greenhouse gases by around 56 
million metric tons (CO<INF>2</INF>-equivalent) annually, including 48 
million tons of carbon dioxide. However, these benefits cannot be 
assumed to be permanent as CRP rental contracts are not permanent and 
the producer retains the right to resume production on the land once 
the CRP contract has ended.
    Estimates of total carbon sequestered are developed using CRP 
contract data. These data are sorted to identify CRP acres in grass, 
wetlands, and trees. For grasslands and wetlands, estimates of the 
carbon sequestered per acre are calculated from data in published 
reports and from estimates developed by the Agricultural Research 
Service and US Geological Survey. These data are merged with CRP 
contract data to estimate total carbon sequestered by CRP grasslands 
and wetlands. Because the carbon sequestered by forestlands varies by 
tree species and the age of the stand, the CRP tree data are sorted by 
region and age. US Forest Service estimates of carbon sequestered per 
acre by region, tree species, and age are merged with the corresponding 
data from CRP contract data. Total carbon sequestered is the sum of the 
grassland, wetland, and forestland estimates.
    The FSA GHG mitigation estimates have been reviewed by the USDA's 
Office of the Chief Economist (OCE) and are viewed as the most 
comprehensive set of estimates for a USDA conservation program. OCE 
views these estimates as reliable and uses them as the best available 
information regarding greenhouse gas mitigation by the CRP.
    We have breakdowns by region, but not by individual States. The 
reason for this is that the models used are not sufficiently detailed 
to provide State-level estimates. FSA estimates carbon sequestration by 
broad conservation practice categories: tree covers, grassland covers, 
and non-forested wetland practices. The table below provides total CRP 
greenhouse gas mitigation by region, along with sub-tables providing 
carbon sequestered by tree, grass, and wetland practices.

   CRP Greenhouse Gas Mitigation (million metric tons CO2 equivalent)
------------------------------------------------------------------------
                                        2005     2006     2007     2008
------------------------------------------------------------------------
Total Estimated Net CO2 Sequestered
  Northeast                              0.52     0.57     0.60     0.61
  Appalachian States                     1.49     1.61     1.62     1.70
  Southeast                              5.30     5.37     5.36     5.16
  Delta States                           6.30     6.87     6.84     6.54
  Corn Belt                              7.34     7.88     7.78     7.32
  Lake States                            3.94     4.12     4.04     3.86
  Northern Plains                       10.55    11.32    11.35    10.34
  Southern Plains                        5.14     5.39     5.36     5.12
  Mountain States                        5.17     5.42     5.38     5.17
  Pacific States                         1.83     2.05     2.04     2.02
------------------------------------------------------------------------
United States Total Estimated Net       47.57    50.60    50.38    47.84
 CO2 Sequestered
  Mitigation from Fertilizer             5.14     5.30     5.43     5.12
   Reduction
  Mitigation from Energy Reduction       3.56     3.68     3.76     3.55
------------------------------------------------------------------------
United States Total Estimated           56.27    59.58    59.56    56.51
 Greenhouse Gas Mitigated
------------------------------------------------------------------------
Total Net CO2 Estimated to be
 Sequestered by CRP Tree Practices
  Northeast                              0.20     0.22     0.25     0.27
  Appalachian States                     0.88     0.98     0.99     1.12
  Southeast                              5.17     5.24     5.23     5.05
  Delta States                           5.86     6.36     6.32     6.06
  Corn Belt                              1.41     1.65     1.59     1.56
  Lake States                            1.50     1.61     1.54     1.49
  Northern Plains                        0.37     0.41     0.43     0.47
  Southern Plains                        0.18     0.26     0.26     0.25
  Mountain States                        0.30     0.34     0.32     0.31
  Pacific States                         0.19     0.23     0.24     0.25
  United States, Total                  16.05    17.28    17.17    16.83
------------------------------------------------------------------------
Total Net CO2 Estimated to be
 Sequestered by CRP Grass Covers
  Northeast                              0.32     0.34     0.35     0.33
  Appalachian States                     0.58     0.61     0.60     0.55
  Southeast                              0.12     0.12     0.12     0.10
  Delta States                           0.42     0.49     0.50     0.46
  Corn Belt                              5.67     5.95     5.90     5.47
  Lake States                            2.17     2.23     2.21     2.07
  Northern Plains                        8.81     9.51     9.46     8.57
  Southern Plains                        4.94     5.12     5.09     4.86
  Mountain States                        4.86     5.07     5.05     4.85
  Pacific States                         1.62     1.81     1.80     1.76
  United States, Total                  29.52    31.25    31.07    29.01
------------------------------------------------------------------------
Total Net CO2 Estimated to be
 Sequestered by CRP Non-Forest
 Wetland Practices
  Northeast                              0.01     0.01     0.01     0.01
  Appalachian States                     0.03     0.03     0.03     0.03
  Southeast                              0.01     0.01     0.01     0.01
  Delta States                           0.02     0.02     0.02     0.02
  Corn Belt                              0.27     0.29     0.29     0.30
  Lake States                            0.27     0.28     0.30     0.30
  Northern Plains                        1.37     1.40     1.45     1.30
  Southern Plains                        0.01     0.01     0.01     0.01
  Mountain States                        0.01     0.01     0.01     0.01
  Pacific States                         0.01     0.01     0.01     0.01
  United States, Total                   2.00     2.07     2.14     2.00
------------------------------------------------------------------------


    Question 16. Are county governments able to utilize the 25% county 
acreage cap waiver authority yet? If not, when do you envision this 
authority being available?
    Answer. Section 2708 of the 2008 Farm Bill provided new authority 
to exclude cropland acreage enrolled under continuous or CREP practices 
from the county-based enrollment limitations (25 percent for cropland 
and 10 percent for easement) with the concurrence of the county 
government; or, in other words, waive the cap. This provision is 
included in the second part of the CRP regulation that is currently 
undergoing an Environmental Impact Statement. FSA will continue to work 
to ensure that this authority be available as expeditiously as 
possible.

    Question 17. Are there any contract holders utilizing the tree 
thinning cost-share assistance yet?
    Answer. Although it is too early to have actual data, we understand 
anecdotally that there is interest in tree thinning.

    Question 18. Do you have any sense about what's happening to those 
CRP acres whose contracts expired and were not extended? Are they being 
plowed up for crop production or staying in grass?
    Answer. About 2.8 million acres expired September 30, 2009. Some of 
these acres could enroll in continuous CRP signup, other acreage will 
remain in a conservation cover, and some acreage may return to 
agricultural production. We don't have any estimates of the amount of 
acres that will go into each of these three uses.

    Question 19. FSA recently sent out a notice to state and local 
offices taking down CRP maintenance payments again, after also sending 
out a notice in April of 2008 reducing them. This time, some payments 
were reduced to zero. Why these reductions? And where did these savings 
in spending go? Or did OMB cut back on your apportionment for 
maintenance payments?
    Answer. The savings generated from reducing the maintenance payment 
were used to offset the cost of two administrative actions, described 
below, as required under the Administration's PAYGO policy.
    Specifically, to offset the cost of the recent 3 and 5 year CRP 
contract extension offer, FSA removed the $2/acre maintenance allowance 
for all future general signup enrollments. Under the Administration's 
PAYGO policy, any policy made at the discretion of the agency which 
imposes increased costs must be offset. FSA felt it was important to 
offer the extension because, without a FY 2009 general signup, these 
contracts would have been forced out of the program.
    The earlier, April 2008, maintenance allowance reduction was done 
to offset the cost of several new and amended CREP agreements and the 
cost of additional incentive payments designed to encourage enrollment 
in CRP's wetland restoration practices.
Open Fields_Voluntary Public Access Program
    Question 20. This is one of the only programs the Dept. has not 
made any movement on. Why are there delays?
    Answer. The Voluntary Public Access Program is important to the 
Administration's implementation of the farm bill. FSA has expedited 
developing the regulations and plans to implement the program in FY 
2010.
FSA Computers and Payment Tracking
    Question 21. Earlier this year, the computer issues at FSA were 
impacting the ability to track direct attribution and other payment 
limit requirements and making it harder to get payments out the door. 
Can you describe the situation? And are things operating more smoothly 
now?
    Answer. FSA implemented a suite of web-based shared services for 
Adjusted Gross Income (AGI), Direct Attribution, and Payment 
Limitations just prior to CRP payment processing on October 2, 2009. 
The implementation of the Direct Attribution (Payment Limitation) and 
AGI requirements was successful for the CRP payment process. The CRP 
payments are on schedule (over $1.4 billion of the CRP payments have 
been delivered to Treasury for disbursement as of October 15, 2009). 
Approximately 900,000 payments have been made, with 41,000 remaining.
    Currently, FSA software for several key conservation processes are 
in applications that reside on the legacy AS400 platforms rather than 
on a web-based platform. This includes the process for recording CRP 
contracts, CRP contract maintenance process, Grassland Reserve Program 
benefits, and Conservation Cost Sharing benefits. Also, full nationwide 
implementation of the Direct Attribution and the Payment limitation 
rules is dependent on transforming Conservation business practices into 
web-based and centralized data processes.
    FSA is committed to the modernization of FSA program delivery and 
software applications. IT Modernization for many FSA programs is 
underway. FSA's MIDAS Investment will generate new modernized 
applications for Farm Programs and produce streamlined FSA business 
processes. FSA IT modernization supports scalable business and 
technical architecture to provide flexibility in adding, modifying, and 
retiring farm programs. Successful and timely completion of FSA 
Modernization will require sufficient funding and resources over the 
next few years.
Technical Assistance
    Question 22. Have you discussed how your agencies can work together 
to address workload issues out in the field offices? Can you explain 
any overlap you have now in administering title two programs, both CRP 
and non-CRP? For instance, does FSA have any role in payment limits? 
And what is NRCS' role in CRP?
    Answer. NRCS provides technical assistance for CRP, ECP, and GRP, 
and may be expected to provide technical assistance for BCAP when the 
program is fully implemented. Technical assistance includes 
conservation plan development, practice certification, status checks, 
and outreach. NRCS and FSA work closely together at all levels to 
ensure consistent, timely delivery of programs.
    FSA understands that workload issues exist in the field offices. In 
certain instances, FSA utilizes third-party technical assistance 
providers.
Waiver of Payment Limits
    Question 23. We included provisions in the 2008 Farm Bill that 
allowed for some of the payment limits and payment terms in 
conservation programs to be waived. Have you received any waiver 
requests?
    Answer. For CRP, three AGI waiver requests have been received and 
approved; two for Hawaii and one for New York.
Questions Submitted By Hon. Adrian Smith, a Representative in Congress 
        from Nebraska
    Question 1. As you may know, I have previously contacted the USDA 
regarding wind erosion as it relates to the Environmental Benefits 
Index. In western areas of Nebraska, wind erosion is much more common 
and destructive than water erosion. Unfortunately, water erosion is 
usually given an elevated highly erodible land (HEL) grade when 
granting acceptance into the CRP program. Considering the statutory 
reduction in overall enrolled CRP acres, has the FSA considered 
differentiating highly erodible land as it relates to water erosion 
from highly erodible wind erosion lands, allowing only water to compete 
against water and wind against wind?
    Answer. The EIB process has been evaluated periodically in the past 
to ensure that it is conducted as effectively as possible. FSA is 
currently evaluating the EIB, and will continue to work alongside NRCS 
throughout the evaluation. As part of that process, I would be happy to 
meet with you or your staff to further discuss ways in which we can 
make the EIB as effective and equitable as possible.

    Question 2. Could you elaborate on the steps the FSA is taking to 
assist landowners with expiring CRP contracts as they make the 
transition?
    Answer. FSA offered 3 or 5 year extension opportunities for 
contracts covering 1.5 million acres out of the 3.9 million acres that 
were scheduled to expire on September 30, 2009. Offering extensions to 
contracts covering more than 1.5 million acres could have disrupted 
ongoing continuous signups.
    Offers were made to contract holders based on the highest 
environmental benefits or land with the highest inherent soil erosion 
potential.
    Some of the expiring land could have been eligible for continuous 
signup enrollment. This could include wetlands, buffer lands along 
river and streams, and other practices. FSA notified all producers with 
contracts expiring on September 30, 2009, of opportunities to enroll in 
continuous signup, CREP, or Farmable Wetland Program.
    Producers with highly erodible land, and wanting to participate in 
many of USDA's programs, are required to develop a conservation plan. 
Programs such as Environmental Quality Incentive Program and the 
Grassland Reserve Program may be utilized to reduce some of the 
environmental impacts of land use conversion.

    Question 3. You stated in your testimony the combination of general 
signups and ongoing continuous signups are expected to maintain CRP 
enrollment at, or near, 32 million acres through 2012. If total 
enrollment for 2010 is less than 32 million acres, will the FSA have 
open enrollment? If so, will those with expired acres be allowed to re-
enroll, and what index will be used?
    Answer. With enrollment as of October 2009 at 31.1 million acres, 
there should be sufficient room to accommodate expected demand for 
continuous signup enrollment. The CRP's continuous signup opportunities 
are expected to continue to be available to producers throughout the 
year. We are currently discussing how best to treat expired acres.

    Question 4. In the past, both agencies shared some responsibility 
for this program. Is this still the case? If so, what are the roles of 
each agency and how do you work together?
    Answer. Yes, both FSA and NRCS share responsibility for GRP and the 
specific roles and responsibilities are defined in a Memorandum of 
Understanding between the agencies. NRCS is responsible for 
administering the easement acquisition process, while FSA is 
responsible for rental contracts and payments. NRCS provides leadership 
on GRP regulations, and provides all on-farm technical assistance for 
both easements and rental contracts. FSA administers the financial 
assistance funds, which includes making payments for rental contracts 
and easement acquisition. Both agencies collaborate on policy and day-
to-day program management.

    Question 5. We made some significant changes to GRP. Have there 
been any surprises during implementation?
    Answer. Demand for GRP remains strong, both for rental contracts 
and easements. Only four eligible entities enrolled grasslands in 
Fiscal Year 2009 using the new Cooperative Agreement option.

    Question 6. We made some changes to the calculation of the 
appraisal process for some easement programs. How many appraisals were 
conducted for GRP? How has NRCS been calculating the appraisal? Is the 
valuation fair?
    Answer. Option Agreements to Purchase and Cooperative Agreements 
were just signed for Fiscal Year 2009 GRP easement enrollments. Twenty-
eight states used geographic caps, and appraisals or area-wide market 
surveys are currently being contracted this fall for the majority of 
the 68 easements funded to complete the new compensation process. 
Appraisals must comply with the Uniform Standard of Professional 
Appraisal Practice.

    Question 7. The 2008 Farm Bill split the amount of short term 
contracts and long term easements. Which option has been the most 
popular?
    Answer. Both the easement and rental contract components of GRP had 
demand that outstripped available funding. The 60/40 split between 
rental contracts and easements was managed nationally to provide States 
flexibility to fund the highest quality grasslands. Forty-one States 
enrolled producers in rental contracts and 30 States enrolled 
easements.
Responses from Dave White, Chief, Natural Resources Conservation 
        Service, U.S. Department of Agriculture
Agriculture Management Assistance Program
    Question 1. With the addition of Hawaii to the list of eligible 
states receiving AMA program funds, have other states expressed an 
interest in the AMA program? If so, how many and which ones?
    Answer. Yes. During drafting of the 2008 Farm Bill, Idaho and 
Virginia had been mentioned for possible inclusion in AMA. We have not 
heard about any interest since passage of the farm bill.

    Question 2. AMA is split among three agencies and in the past there 
has been some concern about how that money was being split. Can you 
please give us a breakdown on how the money is currently being divided 
among AMS, NRCS, and RMA?
    Answer. The 2008 Farm Bill statutory language clearly states how 
fiscal year funds are to be divided among AMS, NRCS and RMA. The 
language in Title II of the 2008 Farm Bill, Section 2801 (c) states 
that no less than 50 percent of available fiscal year funds shall go to 
the Natural Resources Conservation Service (NRCS), 40 percent to the 
Risk Management Agency (RMA), and 10 percent to the Agricultural 
Marketing Service (AMS).
Environmental Quality Incentive Program
    Question 3. During the last farm bill there was a lot of interest 
in the formula used to distribute EQIP funding, and how we could ensure 
funding was allocated more regionally. What steps has NRCS taken to 
make sure some regions do not receive a majority of the money?
    Answer. With the help of external recommendations, NRCS improved 
the EQIP allocation formula (along with a number of other program 
allocation formulas) in several areas in Fiscal Years 2007 and 2008:
    Optimizing Factors--NRCS has optimized the number of factors in the 
allocation formulas to increase transparency and understanding as well 
as better address program priorities and statutory intent. This 
includes both eliminating factors that were redundant and adding new 
factors where appropriate.
    Consistency--NRCS has worked to ensure consistency in formulas for 
like programs, using the same factors and data where appropriate.
    Data Definitions and Sources--NRCS has worked to ensure that the 
most appropriate and current validated data, with common and agreed 
upon definitions, are the basis of our allocations formulas. Data comes 
from credible sources with nationwide data sources.
    Improved Documentation--In an effort to increase transparency and 
facilitate understanding of our allocations formulas, NRCS has worked 
to improve the written explanations of our formulas and methodologies 
for Fiscal Year 2009.
    Enhanced State Specificity--NRCS has incorporated state-specific 
data, including NRCS Activity Based Cost (ABC) data, to capture 
differences in state technical assistance requirements for some 
factors.
    Cost of Program Model--NRCS is incorporating new data from its Cost 
of Programs Model to determine financial and technical Assistance 
proportional requirements for mandatory conservation programs.
    Outcome-Based Performance--Using the GAO EQIP Audit, (September 22, 
2006) as a guide and considering external recommendations, NRCS has 
incorporated outcome based performance measures where possible in 
allocation formulas. As other data on environmental outcomes becomes 
available, it will be evaluated for possible inclusion in the program 
formulas.
    Factor Weighting Methodology--To increase transparency, NRCS 
utilized ``paired comparison,'' a scientifically based methodology, as 
part of the process to determine program formula factor weights.

    Question 4. During the last farm bill there was a lot of discussion 
about the amount of carve outs on EQIP. For example, a percentage is 
used for beginning farmers and ranchers, organics, and CCPI. In your 
opinion, has this had a negative impact on the overall program and the 
ability to get money in the hands of producers?
    Answer. The use of EQIP funds for special carve outs has had no 
negative impact on the overall program. Funds targeted to groups such 
as Beginning Farmer/Ranchers and Organic growers provide program 
resources to producers who traditionally have not participated in USDA 
programs. The CCPI program provides funds directly to producers to 
achieve EQIP and WHIP program objectives, and has the added benefit of 
leveraging resources from partners, adding value to getting 
conservation on the land. Leveraged resources from partners through 
CCPI allowed the agency program funding to actually buy more 
conservation than if the program had been implemented independently. 
The total amount of Fiscal Year 2009 EQIP program funding obligated 
through CCPI was approximately $18 million, representing less than two 
percent of the total EQIP financial assistance available. We feel we 
have struck the right balance between the base EQIP program and special 
initiatives that have the potential to have a focused impact on 
critical natural resource concerns.

    Question 5. We included an organic provision in EQIP. Have you seen 
a great deal of interest in this component? Why or why not?
    Answer. Yes, there was a great deal of interest in the organic 
component of EQIP. We received 2,368 applications and funded 1,203 
contracts. We were able to obligate $30,122,668 to producers under this 
initiative. However, the pilot year of the organic initiative was not 
without its challenges, including an abbreviated signup, new customer 
unfamiliarity with NRCS contracting processes, and a nationwide mosaic 
in the familiarity of NRCS staff with organic production. Many of these 
issues are being addressed for Fiscal Year 2010. We are working with 
our organic partners to make improvements to our organic initiative 
delivery.
    Nationally, over 2,200 applications were received from organic 
producers, indicating that a significant number of growers have taken 
advantage of this new initiative. Considering that there are 
approximately 10,000 certified organic growers in the U.S., the total 
number of EQIP organic applications represent approximately 22 percent 
of certified organic growers, which we feel is a reasonable indicator 
that the effort to reach organic growers was successful.

    Question 6. The Conservation Innovation Grant (CIG) was authorized 
as part of EQIP. How many applications did you receive as part of the 
last solicitation? How many were you able to fund?
    Answer. 391 applications were received and we were able to fund 55 
applications.

    Question 7. What has been the most popular component of the CIG 
grant money?
    Answer. In Fiscal Year 2009, water quality and wildlife habitat 
were the resources concern areas most popular.
    Fiscal year 2009 CIG applications by resource concern category:

  <bullet> Water Quality--Livestock: 43

  <bullet> Water Quality--Non Livestock: 41

  <bullet> Wildlife Habitat: 39

  <bullet> Soil Resources: 30

  <bullet> Energy Resources: 27

  <bullet> Atmospheric Resources: 19

  <bullet> Water Quantity: 19

  <bullet> Forest Health: 18

  <bullet> Grazing Lands: 17

    Question 8. We changed the ground and surface water component in 
EQIP to an enhanced agriculture water enhancement program (AWEP) 
because the money was going to one specific part of the country. Have 
the changes we made helped disperse the money across the country? Has 
USDA used the priority areas as outlined in the report language? How 
has this had an impact on the funded applications?
    Answer. Funding to support AWEP proposals was available to partners 
throughout the U.S. Priority area information included in farm bill 
language was incorporated into the ranking and evaluation processes 
used for Fiscal Year 2009. Over 190 proposals were submitted from 
partners throughout the U.S. and 63 projects in 22 States were approved 
for funding. Over 1,700 program contracts were obligated through AWEP. 
These contracts addressed water conservation and water quality issues 
on over 488,000 acres. We feel that the new AWEP program has addressed 
more producer concerns in a larger area than the previous Ground and 
Surface Water Conservation Program (GSWC) due to increased program 
funding, and also because AWEP leverages additional funding and 
technical resources from partners to help get conservation on the land.

    Question 9. The farm bill included mandatory funds to be dedicated 
towards air quality. How has that money been spent? Has it been spent?
    Answer. Yes, the air quality funds have been obligated in program 
contracts as required by statute authority. Nearly all of the 
$33,825,000 in financial assistance funding has been obligated through 
EQIP in approximately 900 contracts to address significant air resource 
concern issues. Financial and technical assistance funds were focused 
on states and counties that EPA has designated as non-attainment areas. 
Producers will be implementing practices in two-to-ten year contracts 
to help reduce particulate matter and ozone related pollutants 
generated from agricultural operations.

    Question 10. How many EQIP contracts (and how many dollars) were 
granted to dairy producers in 2008? What proportion of the total EQIP 
contracts were invested on dairy farms?
    Answer. For Fiscal Year 2008, 2,614 contracts were approved for 
$99,310,497 to dairy producers. During Fiscal Year 2009, 2,162 
contracts were approved for $90,795,437 to dairy operations. For Fiscal 
Year 2009, approximately 6.8 percent of all EQIP contracts were 
associated with dairy producers.

    Question 11. How many new practices or practice modifications will 
NRCS be publishing in 2010 to improve sustainability and reduce 
greenhouse gas emissions?
    Answer. The following new and modified standards are scheduled for 
2010 to address sustainability and greenhouse gas emissions:

        (316) Animal Mortality Facility

        (317) Composting Facility

        (328) Conservation Crop Rotation

        (590) Nutrient Management

        (367) Roofs and Covers for Animal Waste

        (313) Waste Storage Facility

        (359) Waste Treatment Lagoon

        (550) Range Planting

        (390) Riparian Herbaceous Cover

        (512) Forage and Biomass Planting

        (595) Integrated Pest Management

        (366) Anaerobic Digester

        (601) Vegetative Barrier

        (511) Forage Harvest Management

        (603) Herbaceous Wind Barriers

        (371) Airflow Filtration and Scrubbing

        (372) Combustion System Air Emissions Management

        (373) Dust Control on Unpaved Roads and Surfaces
Wildlife Habitat Incentive Program
    Question 12. We changed the eligibility requirements for WHIP in 
the 2008 Farm Bill to ensure payments were going to producers and not 
country clubs or golf courses. How has this changed impacted the 
overall program?
    Answer. NRCS understands the rationale for the changes to WHIP in 
the 2008 Farm Bill. The major changes--restricting the program to 
private lands and limiting participants to $50,000 per year--have had 
unintended consequences for the program, however. In particular, 
aquatic habitat projects such as dam removals and fish passages, have 
been stifled. Because many of these conservation projects are carried 
out on public lands, despite the benefits they may accrue to private 
landowners, they are now ineligible for WHIP assistance.
    Although public land projects represented only 6 percent of the 
contracts between 2005 and 2008, NRCS and public partners were able to 
develop significant wildlife habitat with the implementation of 57 fish 
passage projects. These projects benefit the entire nation since the 
public generally has access to these lands and they open up hundreds of 
miles of streams to aquatic wildlife that benefit all landowners along 
the water courses.
    All WHIP planning, conservation construction activities, practices, 
or work on stream or river courses, which would occur below the 
ordinary high water mark in 16 States and below the low water mark in 
an additional 12 States (a total of 28 States), have been affected due 
to the public ownership status of these streambeds. An important point 
here is that potential participants and beneficiaries are private 
landowners on private land, but the stream or river courses that go 
through their properties are considered public land. There are at-risk 
and federally listed threatened and endangered fish and wildlife 
species that could benefit from these potential projects.
    Amending the 2008 Farm Bill to reestablish the public land 
eligibility criteria for WHIP would enable NRCS to use the program to 
provide significant public and private landowner wildlife benefits, 
particularly in the east and in aquatic areas.
Farmland Protection Program
    Question 13. Due to the change in the contingent right of 
enforcement and title standards, do you plan to reevaluate the 
applications or cooperative agreements that were made while the old 
rule was in effect?
    Answer. The parcels enrolled before the 2008 Farm Bill was enacted, 
but not yet completed, were acquired by the Secretary of Agriculture 
under the 2002 Farm Bill. Those parcels are being acquired only after 
passing title review by the Office of the General Counsel utilizing the 
Department of Justice title standards. That requirement is a 
requirement of all Federal land acquisitions. The Attorney General has 
delegated the title commitment review to the Office of the General 
Counsel for USDA acquisitions.
    The applications from which parcels were selected for funding 
before the 2008 Farm Bill was enacted will not be re-evaluated. The 
contingent right of enforcement is not relevant to those parcels. The 
terms of the cooperative agreements are linked to the farm bill and 
regulations that were in effect at the time that the funds were 
obligated.

    Question 14. We established a certification process for FPP in the 
farm bill. Have many sought certification? Why or why not?
    Answer. The 2008 Farm Bill directed the Secretary to certify 
eligible entities directly. NRCS established criteria for 
certification, which are: (a) an eligible entity has to have closed 50 
percent of its easements within 18 months of fund obligation; and (2) 
that the eligible entity has to have demonstrated that proficiency over 
at least 50 enrolled parcels in FPP. The eligible entities' performance 
data was analyzed as of October 1, 2008 and seven eligible entities 
qualified for certification. The seven entities had enrolled 32 percent 
of all of the parcels ever enrolled in FPP. The certified entities had 
demonstrated a closing efficiency of 72 percent; the other eligible 
entities with at least 50 enrolled parcels had only demonstrated a 
closing efficiency of 32 percent.

    Question 15. One of the major changes we sought to eliminate in the 
2008 Farm Bill was the additional title search. Can you tell us today 
that additional title standard requirements are eliminated?
    Answer. There will not be a title commitment review by the Office 
of the General Counsel to Department of Justice title standards on 
parcels in the 2009 cooperative agreements. Because FPP must limit non-
agricultural uses, NRCS staff will review title commitments to ensure 
that non-agricultural uses are not permitted by an encumbrance to the 
title and that all liens are subordinated.
    The right of enforcement is meaningless if there are encumbrances 
on the title that permit non-agricultural uses. OGC review of title 
commitments of parcels funded in 2006-2008 uncovered many title 
commitments with encumbrances and liens that were not subordinated. The 
Rights of the United States wouldn't have been enforceable if those 
title encumbrances had not been subordinated to the terms of the 
conservation easement deed. Landowners could have engaged in non-
agricultural uses in violation of the farm bill because USDA had failed 
to have the encumbrances and liens subordinated.

    Question 16. The 2008 Farm Bill included language on impervious 
surfaces. Can you tell us how NRCS is proceeding on how to set or 
evaluate the appropriate percentage for impervious surfaces?
    Answer. NRCS has revised its model impervious surface limitation 
waiver process to permit impervious surface up to 10 percent. The 
factors are the same as the factors in the old process, but the process 
is re-scaled so the top percent impervious surface allowed is 10 
percent. Parcels will be evaluated on a parcel-by-parcel basis. 
Cooperating entities will be able to propose their own waiver 
processes. State conservationists will have the authority to review and 
approve the processes, but they must be applied to parcels on a parcel-
by-parcel basis.
Chesapeake Bay Program
    Question 17. We established this program in the 2008 Farm Bill. Can 
you tell us what the level of producer interest has been?
    Answer. Producer interest has been strong. There were 2,037 
applications in Fiscal Year 2009. With the available funding, we were 
able to fund 41 percent, or 826, of those applications.

    Question 18. In 2009, there was $23M authorized for this program. 
How was the money spent?
    Answer. NRCS State Conservationists in the six Bay Watershed 
States, with the help of State Technical Committees, selected priority 
subwatersheds. Producers in these subwatersheds received additional 
ranking points for their applications. State Conservationists also 
selected priority practices to be highlighted for the CBWP. The top 
seven conservation practices in Fiscal Year 2009 were:

  <bullet> Residue and tillage management, notill/striptill

  <bullet> Nutrient management

  <bullet> Cover crop

  <bullet> Conservation crop roatation

  <bullet> Fence

  <bullet> Grassed waterways

  <bullet> Heavy use area protection

67 percent of CBWP funding was obligated for these seven practices.

    Question 19. Can you explain how the Department funds the 
Cheasapeake Bay Watershed Program? In your testimony you say that $23 
million in funds were used from the EQIP program, does that mean $23 
million from the Bay Program were used through the EQIP program or that 
$23 million of EQIP money was used.
    Answer. $23 million were apportioned specifically for the CBWP and 
were administered through EQIP.
Grassland Reserve Program
    Question 20. In the past, both agencies shared some responsibility 
for this program. Is this still the case? If so, what are the roles of 
each agency and how do you work together?
    Answer. Yes, both FSA and NRCS share responsibility for GRP and the 
specific roles and responsibilities are defined in a Memorandum of 
Understanding between the agencies. NRCS is responsible for 
administering the easement acquisition process, while FSA is 
responsible for rental contracts and payments. NRCS provides leadership 
on GRP regulations, and provides all on-farm technical assistance for 
both easements and rental contracts. FSA administers the financial 
assistance funds, which includes making payments for rental contracts 
and easement acquisition. Both agencies collaborate on policy and day-
to-day program management.

    Question 21. We made some significant changes to GRP. Have there 
been any surprises during implementation?
    Answer. Demand for GRP remains strong, both for rental contracts 
and easements. Only four eligible entities enrolled grasslands in 
Fiscal Year 2009 using the new Cooperative Agreement option.

    Question 22. We made some changes to the calculation of the 
appraisal process for some easement programs. How many apprasials were 
conducted for GRP? How has NRCS been calculating the appraisal? Is the 
valuation fair?
    Answer. Option Agreements to Purchase and Cooperative Agreements 
were just signed for Fiscal Year 2009 GRP easement enrollments. Twenty-
eight states used geographic caps, and appraisals or area-wide market 
surveys are currently being contracted this fall for the majority of 
the 68 easements funded to complete the new compensation process. 
Appraisals must comply with the Uniform Standard of Professional 
Appraisal Practice.

    Question 23. The 2008 Farm Bill split the amount of short term 
contacts and long term easements. Which option has been the most 
popular?
    Answer. Both the easement and rental contract components of GRP had 
demand that outstripped available funding. The 60/40 split between 
rental contracts and easements was managed nationally to provide States 
flexibility to fund the highest quality grasslands. Forty-one States 
enrolled producers in rental contracts and 30 States enrolled 
easements.
Wetland Reserve Program
    Question 24. Under the WRP and other easement programs, the farm 
bill made changes in the statutory language to how appraisals are 
handled. Do you have a sense of how your staff in the field are 
implementing this provision? Are they using appraisals or one of the 
other methods spelled out in the bill?
    Answer. Although we did not reach our acreage goal of 250,000 
acres, our enrollment of more than 179,000 acres was more than twice 
the enrollment in Fiscal Year 2008. Much of that increase is due to the 
use of the new easement compensation procedures authorized in the 2008 
Farm Bill. These procedures are used throughout the country. 
Essentially no appraisals were obtained for WRP parcels in Fiscal Year 
2009.
    States use several methods to arrive at their easement compensation 
values. The first step in the process is to determine the market value 
of the land. Almost all states utilize the area-wide market analysis or 
survey option to determine market value. Once market value of the 
unencumbered land is determined, State Conservationists, with the 
advice of the State Technical Committee, determine the Geographic Area 
Rate Cap which represents fair compensation for the easement rights 
being acquired.
    The use of geographic-based compensation procedures allows 
producers to know immediately what they will be offered as compensation 
for the easement. This saves both NRCS and producers time in the 
enrollment process.
Conservation Stewardship Program (CSP)
    Question 25. In the proposed CSP rule, there is a discussion about 
the difficulties that the statutory ``constraints'' posed to those 
trying to model the outcomes on the program and mentioned that these 
same constraints will pose challenges in implementing the program as 
well. Can you tell us what these ``constraints'' are? Does it include 
the average per acre in the statutory language?
    Answer. The constraints, referenced in 2008 Farm Bill Section 
1238G(d), are the acreage limitation of 12,769,000 acres for each 
fiscal year, and also the need to manage the program to achieve a 
national average rate of $18 per acre, which includes the costs for all 
financial assistance, technical assistance, and other associated 
expenses. Arriving at a conservation performance payment rate that will 
achieve the national annual acreage enrollment goal at the designated 
average costs per acre mandated in legislation will be a challenge 
given the variation of producers' baseline resource conditions and 
demand for enhancements. To address these constraints, NRCS is using 
the first ranking period for ``payment-rate discovery'' to arrive at a 
uniform payment rate per conservation performance point by eligible 
land use type.

    Question 26. Can you tell us where most of the new CSP contracts 
are? We are the 33 million acres?
    Answer. Contracts will not be awarded until a late November time-
frame. Below is a summary of application numbers and acres by State.

------------------------------------------------------------------------
          State             Application Number        Estimated Acres
------------------------------------------------------------------------
                 AK                        24                 714,083
                  AL                      482                 264,039
                 AR                       444                 505,206
                 AZ                        53                 635,807
                 CA                       351                 641,562
                 CO                       518                 992,872
                 CT                        12                   1,108
                 DE                        29                  61,567
                  FL                      128                 105,392
                 GA                       326                 139,040
                 HI                        17                   2,363
                 IA                     1,099                 596,031
                 ID                       141                 242,374
                  IL                      711                 624,717
                 IN                       230                 180,684
                 KS                       778                 924,135
                 KY                       199                  85,195
                   LA                     364                 328,692
                 MA                         9                   1,042
                 MD                        70                  23,030
                 ME                        86                  67,759
                 MI                       350                 144,162
                 MN                     1,685                 853,526
                 MO                     1,821               1,016,057
                 MS                       247                 169,606
                 MT                       522               2,185,287
                 NC                       117                  48,573
                 ND                       409               1,040,103
                 NE                     2,683               4,340,159
                 NH                        25                     175
                 NJ                         0                       0
                 NM                       390               3,299,155
                 NV                         7                   9,307
                 NY                       317                 157,281
                 OH                       373                 141,209
                 OK                       660               1,012,827
                 OR                       539               1,407,356
                 PA                       511                 193,197
                 PR                        31                   1,734
                 RI                         6                     600
                 SC                       455                 271,871
                 SD                       502               1,751,552
                 TN                       307                 117,303
                 TX                     1,879               4,672,270
                 UT                        57                 293,076
                 VA                       185                  93,227
                 VT                         8                   1,291
                 WA                       142                 284,515
                 WI                       745                 354,395
                 WV                       144                  33,972
                 WY                        93                 576,984
                         -----------------------------------------------
  Total.................               21,281              32,940,273
------------------------------------------------------------------------


    Question 27. Out of the CSP signup, how many do you think are 
viable? Specifically, do you think all 33 million acres will result in 
CSP contracts?
    Answer. NRCS used a producer self-screening checklist to reduce 
technical assistance costs in helping potential applicants decide for 
themselves whether CSP is the right program for them and their 
operation. Producers completed the checklist independently to help 
themselves decide if they meet CSP eligibility requirements. Based on 
the use of the self-screening checklist, we are projecting that most of 
these applicants meet basic eligibility requirements. However, these 
acres must be field-verified before they are enrolled. This procedure 
was instituted in response to an OIG audit that determined NRCS entered 
into contracts with applicants who self-certified erroneous information 
about their operations. NRCS is authorized to enroll 12,769,000 acres 
for each fiscal year. Those applicants not selected for contract can 
chose to have their application deferred for funding consideration 
during the next ranking period.

    Question 28. What percentage of the old CSP contracts are still 
being maintained?
    Answer. According to our Programs Contracting System (ProTracts) 
there were 20,683 Conservation Security Program contracts active on 
September 30, 2009. Approximately 4,422 contracts expired at midnight 
on September 30, 2009, leaving 16,261 remaining active contracts 
entering into the Fiscal Year 2010.

    Question 29. Part of the problem with old CSP program was that 
producers and others complained it was too complicated and hard to 
understand. What steps are you taking to make this new and improved 
program more producer friendly and easy to understand?
    Answer. Key program design improvements made to simplify CSP 
include:

  <bullet> Eliminated the complicated tier system to determine 
        participation level.

  <bullet> Reduced payment types from four to two:

    <ctr-circle> Annual payment for installing additional conservation 
            activities and maintaining existing activities.

    <ctr-circle> Supplemental payment available on cropland for the 
            adoption of resource-conserving crop rotations.

  <bullet> Simplified basic land treatment eligibility--producers must 
        address at least one resource concern at the time of 
        application and a priority resource concern by the end of their 
        contract.

  <bullet> Designed and developed a conservation measurement tool (CMT) 
        to estimate the level of environmental benefit of each 
        producer's existing and planned conservation activities. The 
        CMT replaced multiple resource assessment tools and functions 
        to:

    <ctr-circle> Determine basic eligibility.

    <ctr-circle> Determine ranking score.

    <ctr-circle> Establish annual payment.

  <bullet> Based participation on how producer represents their 
        operation for other USDA programs to eliminate complexity and 
        inconsistency in operation delineation.

    Question 30. What percentage of the old Conservation Security 
Program contracts were with dairy operations? Can you provide similar 
statistics when they are available on the new Conservation Stewardship 
Program?
    Answer. Under the Conservation Security Program there are 334 
contracts, 327 of which are still active, on dairy operations out of a 
total of 21,671 contracts from Fiscal Years 2004-2008. The percentage 
of contracts with dairy operations is 1.54 percent. We will be able to 
provide similar statistics for the Conservation Stewardship Program 
after contract obligation for this signup is complete.

    Question 31. The Conservation Stewardship Program includes a 
provision for producers participating in CSP to initiate organic 
certification under the Organic Foods Production Act of 1990. What 
steps is NRCS taking to ensure that this provision is being 
implemented, and what steps is NRCS taking to ensure that the paperwork 
and planning that transitioning to organic and existing organic farmers 
must do and maintain under NRCS programs is streamlined and not 
duplicative of the planning and paperwork that the National Organic 
Program requires of participating farmers?
    Answer. The 2008 Farm Bill recognized the growing interest and 
support of organic agriculture across the country by providing 
instructions related to organic production in programs that NRCS 
administers. For CSP, we responded by developing a document, 
``Conservation Stewardship Program's Contribution to Organic 
Transitioning--The Organic Crosswalk'', which is available on our web 
site. The Organic Crosswalk provides a transparent means through which 
producers may initiate organic certification while participating in a 
CSP contract. It further assists producers in coordinating and 
simultaneously meeting eligibility standards under each program. We 
additionally developed program policy on how stewardship plan 
information will document the participant's transition to or 
participation in the National Organic Program.

    Question 32. Was there anything that surprised you about the CSP 
sign-up that closed last week? Such as the breakdown between crop, 
forest, pasture and rangeland? Any states that had more interest than 
you've seen before?
    Answer. We are still tallying the acreage breakdown between land 
uses, so it might be premature to speak to that. On balance, we are 
extremely pleased with the positive response of producers to CSP, as 
reflected by application numbers and acres. We believe this indicates 
the purpose and design of CSP are close to being on the mark. 
Agricultural and forestry producers have a strong interest in a working 
lands conservation program that recognizes existing stewardship and 
delivers valuable new conservation. We are also extremely pleased, but 
not surprised, by how NRCS employees responded on short notice to not 
only learn a new program, but effectively deliver it in less than a 
three month timeframe. Their sustained performance is to be commended.

    Question 33. One problem I see in the rule proposed by NRCS is this 
new $40,000 a year limitation. We have heard from some producer groups 
that this might be a disincentive for producers to enroll. Since this 
limitation is not in the law, why did the Administration implement such 
a rule that I think could turn producers away?
    Answer. The statute provides that the payments will be made to 
participants as soon as practicable after October 1 of each fiscal year 
for activities carried out in the previous fiscal year. This 
retrospective payment approach provides a critical control and 
improvement over the former CSP, which made payments for work yet to be 
completed. Those prospective payments have caused the agency to invest 
considerable administrative expense for our technical assistance 
account to recover payments from participants who failed to apply 
contracted conservation activities. The $40,000 annual payment limit 
ensures that NRCS will make payments to participants each fiscal year. 
It additionally eliminates the risk of making contract payments 
prospectively for participants with large contracts who might otherwise 
reach their contract limit as early as year one of their contract.

    Question 34. The explanation accompanying the interim final 
regulation explains that the $40,000 limit is necessary to ensure that 
participants who might reach their limit early in the contract will 
have an incentive to meet their obligations over the life of the 
contract. However there are extensive enforcement provisions in the 
regulation including authority to require repayment of all benefits 
with penalties and ineligibility for all conservation programs. Since 
the participant is entering into a contract and there is extensive 
enforcement authority why is an additional limitation required?
    Answer. Recovering payments due to contract violation cuts into 
technical assistance funds NRCS would prefer to invest in providing 
technical services to contract participants to apply new conservation 
activities. Given that NRCS must manage the program to achieve a 
national average rate of $18 per acre, which includes cost for 
technical assistance, we need to limit administrative expenses for 
contract noncompliance.
Technical Assistance
    Question 35. Anticipating that the regulations governing and 
practices of organic agricultural systems might be relatively new to 
NRCS and its staff, the 2008 Farm Bill also included provisions to 
ensure that NRCS provides adequate technical assistance for the 
implementation of conservation practices by producers involved with 
organic production, including through cooperative agreements with other 
agencies and nongovernmental organizations.
    Can you please describe the steps that you have taken and will take 
to ensure that NRCS staff both have the knowledge about organic 
agriculture and can provide adequate technical assistance to producers 
involved with organic production, both through technical assistance 
provided by NRCS as well as through assistance provided through 
cooperative agreements with agencies and nongovernmental organizations 
that have expertise in organic agriculture?
    Answer. During Fiscal Year 2009, NRCS reviewed all of our 
conservation practices at the national and state level to determine 
their applicability to organic farming operations. The review 
identified a few cases where state standards needed to be modified to 
allow organically approved products to be used (i.e., seed 
certification, non-treated fence posts). The technical treatment and 
practices to address resource concerns (soil erosion, soil quality, 
water quality, irrigation water management, air quality, plants, and 
animals) on organic operations are the same basic technologies used on 
non-organic farms.
    In addition, NRCS also used the Federal Register to solicit 
comments from the public on our conservation practices. Additional 
comments were received to improve our conservation practices for 
organic operations.
    NRCS created a $50 Million EQIP Initiative (special funding pool) 
for organic producers and those transitioning to organic production to 
apply for financial assistance to apply needed conservation practices 
to facilitate their organic operations. Additional guidance and 
training was provided to NRCS state and field staff on special planning 
consideration for planning conservation practices on organic farms.
    NRCS also developed a special conservation activity under EQIP 
where approved Technical Service Providers (TSP) would develop a 
Conservation Plan (138) for organic farms or for farms transitioning to 
organic operations.
    We also developed a website on Organic Agriculture to address 
technical and financial assistance available for organic producers. The 
website also identifies NRCS contacts in each state to address issues 
related to organic production.
    The NRCS Technical Service Provider Team and Ecological Sciences 
Division have met with representatives from the Sustainable Agriculture 
Coalition and Integrated Pest Management Institute to develop training 
curricula for technical service providers and to exchange ideas about 
incorporating organic agriculture techniques into NRCS criteria. The 
Technical Service Provider Team is working closely with these 
organizations to develop Memoranda of Understanding.
    NRCS has met with non-governmental organizations representing 
sustainable and organic farming to listen to their concerns and 
suggestions for NRCS programs. NRCS also meet with the Agricultural 
Marketing Service (AMS) to ensure the NRCS programs did not conflict 
with the National Organic Program.
    Finally, the three NRCS Regional Technical Centers are developing 
additional training for NRCS personnel to better serve the organic 
farming community.

    Question 36. The 2008 Farm Bill included a definition of technical 
assistance. Can you tell me if this has been beneficial? Do people have 
a better understanding of what technical assistance is?
    Answer. The inclusion of a definition of technical assistance in 
the 2008 Farm Bill has increased the effectiveness of farm bill 
programs by allowing activities that will accelerate the implementation 
of conservation practices. The definition of technical assistance was 
further expanded in the technical service provider interim final rule 
and several positive comments were received from the public with 
suggestions to further explain what activities are included in this 
definition.

    Question 38. The groups that tried to utilize the Technical Service 
Provider system had a number of concerns about trying to get certified, 
from the payment rates to a lack of support from some State 
Conservationists. What are your thoughts on the use of third party 
providers and how do you intend to utilize them to help with a growing 
workload and a fairly stagnant NRCS workforce?
    Answer. In Fiscal Year 2009, NRCS signed agreements or renewed the 
certification of 423 individual TSPs and 21 businesses. There are now 
more than 1,110 individual TSPs and 88 businesses certified and 
available to help program participants apply conservation. Since the 
passage of the 2002 Farm bill, NRCS has obligated over $300 million to 
acquire TSP technical services. In Fiscal Year 2005 NRCS invested $49.9 
million, in Fiscal Year 2006 $55 million, in Fiscal Year 2007 $42.5 
million, in Fiscal Year 2008 $36.8 million, and in fiscal 2009 $46.7 
million.
    Looking ahead, NRCS has selected GeoAgro to serve as the first 
national transaction handler for a Conservation Transaction Plug-In 
(CTP) application. With a commercial transaction handler in place, TSPs 
nationwide will be able to ``check out and check in'' producers' 
conservation plans and folders from the TSP's own computer. 
Implementation of this plug-in is scheduled for December 2009.

    Question 39. The farm bill required you to review conservation 
practice standards, and it also called on the agency to specifically 
review the needs of specialty crop, organic and precision agriculture. 
Has this review been carried out at the national and state levels?
    Answer. During the summer of 2008, all NRCS conservation practices 
were reviewed at the national and state levels. The review identified a 
few cases where state standards needed to be modified to allow 
organically approved products to be used (seed, non-treated fence 
posts). The basic technology in the conservation practice standards to 
address the resource concerns applied to organic and non-organic 
farming operations. In some cases, different practices would be used to 
address a resource concern, but practices and flexibility within the 
practices are adequate for both organic and non-organic operations.
    All NRCS conservation practice standards are reviewed at least 
every five years, and more often if needed to address a concern or new 
technology. As we progress through our conservation practice revisions 
we are ensuring the criteria, where appropriate, is adequate to address 
organic farming, precision agriculture, and specialty crops.
    During the summer of 2009, NRCS published all of our conservation 
practice standards in the Federal Register. We received 34 comments 
from individuals, non-governmental organizations, and government 
agencies. These comments are being documented and recommendations are 
being developed to address the commenters' concerns.
Regional Equity
    Question 40. Regional equity was changed so that states which 
received less than $15M in conservation program funding would be a 
regional equity state. Are more states considered regional equity 
states? If so, how many and which ones? What impact has this change had 
on existing regional equity states?
    Answer. In Fiscal Year 2008, states that received less than $12 
million were considered regional equity states. In Fiscal Years 2008 
and 2009, there were 13 Regional Equity states. If the increase from 
$12 million to $15 million had not occurred, Vermont, New Hampshire, 
Maine, Hawaii and Alaska would be the only Regional Equity states in 
2009.
Waiver of Payment Limits
    Question 41. We included provisions in the 2008 Farm Bill that 
allowed for some of the payment limits and payment terms in 
conservation programs to be waived. Have you received any waiver 
requests?
    Answer. Yes, five requests for AGI waivers were submitted with 4 
waivers being approved in Fiscal Year 2009.
    Seventeen requests for payment limitation waivers were submitted 
with 11 waivers being approved in Fiscal Year 2009.
Environmental Services
    Question 42. The 2008 Farm Bill contained a provision to facilitate 
the participation of farmers and landowners in environmental services 
markets. Can you tell us the status of the provision's implementation?
    Answer. NRCS recognizes that environmental benefits will be 
achieved by implementing conservation practices funded through NRCS 
programs, and that environmental credits may accrue through the 
implementation of practices compatible with the purposes of NRCS 
contracts. NRCS asserts no direct or indirect interest on these 
credits. However, NRCS retains the authority to ensure that operation 
and maintenance (O&M) requirements for improvements funded through USDA 
conservation programs are carried out by program participants. Where 
environmental services activities may impact the land under an NRCS 
contract, participants are highly encouraged to request an O&M 
compatibility determination from NRCS prior to entering into any credit 
agreements.
RC&Ds
    Question 43. There was language included in the farm bill that 
directed NRCS to designate a coordinator for each RC&D council. There 
have been concerns among local RC&D councils that the folks they were 
supposed to be working with had other responsibilities in addition to 
their coordinator position. Can you tell us what your current goal is 
in regard to RC&D coordinators and what the level of funding in the 
FY10 ag approps bill will allow you to do?
    Answer. Our goal is to have a full-time Coordinator for each of the 
375 RC&D Councils. Current estimates, however, indicate that the 
current funding level is insufficient to accomplish this goal. 
Adjustments are being made to the Fiscal Year 2010 RC&D allocation 
formula that will give more weight to the practical costs of operating 
each RC&D Council. This will allow some States to fill vacant 
Coordinator positions, or adjust workload priorities to increase the 
level of RC&D assistance.

                                  <all>

</pre></body></html>
